<html>
<title> - OVERSIGHT OF THE U.S. POSTAL SERVICE: ENSURING THE SAFETY OF POSTAL EMPLOYEES AND THE U.S. MAIL</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
  OVERSIGHT OF THE U.S. POSTAL SERVICE: ENSURING THE SAFETY OF POSTAL 
                      EMPLOYEES AND THE U.S. MAIL
=======================================================================


                                HEARING

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION
                               __________

                            OCTOBER 30, 2001
                               __________

                           Serial No. 107-43
                               __________

       Printed for the use of the Committee on Government Reform







  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                    U.S. GOVERNMENT PRINTING OFFICE
77-387                       WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001












                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             PATSY T. MINK, Hawaii
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
BOB BARR, Georgia                    DENNIS J. KUCINICH, Ohio
DAN MILLER, Florida                  ROD R. BLAGOJEVICH, Illinois
DOUG OSE, California                 DANNY K. DAVIS, Illinois
RON LEWIS, Kentucky                  JOHN F. TIERNEY, Massachusetts
JO ANN DAVIS, Virginia               JIM TURNER, Texas
TODD RUSSELL PLATTS, Pennsylvania    THOMAS H. ALLEN, Maine
DAVE WELDON, Florida                 JANICE D. SCHAKOWSKY, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
ADAM H. PUTNAM, Florida              DIANE E. WATSON, California
C.L. ``BUTCH'' OTTER, Idaho          ------ ------
EDWARD L. SCHROCK, Virginia                      ------
JOHN J. DUNCAN, Tennessee            BERNARD SANDERS, Vermont 
------ ------                            (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director














                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on October 30, 2001.................................     1
Statement of:
    Burrus, William, president-elect, American Postal Workers 
      Union, AFL-CIO; Mo Biller; William Young, executive vice 
      president, National Association of Letter Carriers; Gus 
      Baffa, president, National Rural Letter Carriers' 
      Association; and William H. Quinn, national president, 
      National Postal Mail Handlers Union........................   134
    Potter, John E., Postmaster General of the U.S. Postal 
      Service, accompanied by Patrick Donohoe; S. David Fineman, 
      vice chairman, Board of Governors, U.S. Postal Service; and 
      Thomas G. Day, vice president, engineering.................    86
    Weaver, Kenneth C., Chief Postal Inspector, U.S. Postal 
      Inspection Service; Mitch Cohen, Director, Division of 
      Bacterial and Mycotic Disease, National Center for 
      Infectious Diseases, Centers for Disease Control and 
      Prevention, accompanied by Rema Kabazz; and James F. 
      Jarboe, Section Chief, Counterterrorism Division, Domestic 
      Terrorism/Counterterrorism Planning Section, Federal Bureau 
      of Investigation...........................................    28
Letters, statements, etc., submitted for the record by:
    Baffa, Gus, president, National Rural Letter Carriers' 
      Association, prepared statement of.........................   159
    Burrus, William, president-elect, American Postal Workers 
      Union, AFL-CIO, prepared statement of......................   139
    Burton, Hon. Dan, a Representative in Congress from the State 
      of Indiana, prepared statement of..........................     9
    Cohen, Mitch, Director, Division of Bacterial and Mycotic 
      Disease, National Center for Infectious Diseases, Centers 
      for Disease Control and Prevention, prepared statement of..    37
    Maloney, Hon. Carolyn B., a Representative in Congress from 
      the State of New York:
        Letters dated October 30, 2001...........................    67
        Prepared statement of....................................    21
    McHugh, Hon. John M., a Representative in Congress from the 
      State of New York, prepared statement of...................     5
    Morella, Hon. Constance A., a Representative in Congress from 
      the State of Maryland, prepared statement of...............   184
    Moser, Charles, president of the National Association of 
      Postmasters................................................   104
    Potter, John E., Postmaster General of the U.S. Postal 
      Service, prepared statement of.............................    90
    Quinn, William H., national president, National Postal Mail 
      Handlers Union, prepared statement of......................   167
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut, prepared statement of............    18
    Sombrotto, Vince, president, National Association of Letter 
      Carriers, prepared statement of............................   153
    Towns, Hon. Edolphus, a Representative in Congress from the 
      State of New York, prepared statement of...................   186
    Waxman, Hon. Henry A., a Representative in Congress from the 
      State of California, prepared statement of.................    14
    Weaver, Kenneth C., Chief Postal Inspector, U.S. Postal 
      Inspection Service, prepared statement of..................    31
    Weldon, Hon. Dave, a Representative in Congress from the 
      State of Florida, article by Alan Robinson.................   108
    Young, William, executive vice president, National 
      Association of Letter Carriers:
        A picture of letter carriers working out of tents........   150
        An expression from the Brooklyn family...................   148












  OVERSIGHT OF THE U.S. POSTAL SERVICE: ENSURING THE SAFETY OF POSTAL 
                      EMPLOYEES AND THE U.S. MAIL

                              ----------                              


                       TUESDAY, OCTOBER 30, 2001

                          House of Representatives,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 12 noon, in room 
2154, Rayburn House Office Building, Hon. Dan Burton (chairman 
of the committee) presiding.
    Members present: Representatives Burton, Cummings, Weldon, 
Norton, Shays, Maloney, Horn, Mink, Otter, Lantos, Duncan, 
Waxman, Schrock, Watson, Mrs. Davis of Virginia, Schakowsky, 
LaTourette, Turner, Souder, Tierney, Morella, Kucinich, Barr, 
Davis of Illinois, Kanjorski, and Clay.
    Staff present: Kevin Binger, staff director; Daniel R. 
Moll, deputy staff director; James C. Wilson, chief counsel; 
David A. Kass, deputy chief counsel; Mark Corallo, director of 
communications; John Callender, Matt Rupp, Randall Kaplan, and 
Jennifer Klute, counsels; Caroline Katzen, professional staff 
member; Robert A. Briggs, chief clerk; Robin Butler, office 
manager; Josie Duckett, deputy communications director; Joshua 
E. Gillespie, deputy chief clerk; Danleigh Halfast, assistant 
to chief counsel; Michael Layman, staff assistant; Leneal 
Scott, computer systems manager; Corinne Zaccagnini, systems 
administrator; Phil Schiliro, minority staff director; Phil 
Barnett, minority chief counsel; Kate Anderson, minority 
counsel; Josh Sharfstein and Denise Wilson, minority 
professional staff members; Ellen Rayner, minority chief clerk; 
and Jean Gosa and Earley Green, minority assistant clerks.
    Mr. Burton. The Committee on Government Reform will come to 
order.
    A quorum being present, I ask unanimous consent that all 
articles, exhibits and extraneous or tabular material referred 
to be included in the record. Without objection, so ordered.
    Because we have limited time of the first two panel 
witnesses, we are going to ask the Members to limit their 
opening statements. We were going to just have the chairman and 
the ranking member give opening statements, but because others 
would like to make opening statements, I'd urge you, because we 
want to get to questions as quickly as possible, to limit them 
to just what essentially you have to say instead of giving the 
normal 5 minute opening statement.
    Over the past 2 months, we've been struck by the terrorists 
not once, but twice. They've attacked us with weapons developed 
from things we use in our every day lives, commercial airplanes 
and the U.S. mail. Prime Minister Netanyahu called the attacks 
on the World Trade Center a wake up call from hell. It feels 
like we hardly woke up at all before we were hit with the 
anthrax infected letters. Now we have three people dead and at 
least a dozen more are infected, and we heard this morning 
someone else is in critical condition.
    We have thousands of people up and down the East Coast 
taking antibiotics. Every day traces of anthrax are found in 
more post offices, more mail rooms and more office buildings. 
As a Nation, we'll probably never be the same. The sense of 
security that we once felt has vanished. We now know that 
terrorists can strike at any time and any place. We have no 
other choice but to fight back.
    As we speak, the men and women of our armed services are 
fighting to bring Osama bin Laden to justice and to destroy his 
terrorist network. The President has rallied the American 
people and the world community to this cause. His leadership 
has given the American people a lot of confidence.
    But we can't stop with the Taliban or al Qaeda. We have to 
strike back hard at those who would use biological or chemical 
or nuclear weapons. Eight years ago, terrorists tried to blow 
up the World Trade Center. Obviously, not enough was done by 
our intelligence agencies because we saw what happened on 
September 11th.
    This time it's anthrax. We shouldn't make the same mistake 
twice. We need to take action now. We should strike hard at any 
site that our intelligence agencies shows is producing 
chemical, biological or nuclear material for terrorists or 
terrorist nations anywhere in the world. And we need to do it 
very, very quickly. We need to do it now before they perfect 
those weapons. Remember, 8 years ago, we had an attack on the 
World Trade Center and they didn't succeed. And 8 years later, 
they did succeed. So we've had that wake-up call and we have to 
act.
    We must not wait, even if the current anthrax attack is not 
from a foreign entity. Our enemies abroad are watching and 
preparing. If we don't do anything, I think we'll regret it.
    Obviously, we also have to step up the security here at 
home. Following the disaster of September 11th, we've gone to 
great lengths to make our airports and airplanes more secure. 
After the last 2 weeks, we have to do the same things with our 
Postal Service. We have to do what's necessary to protect the 
American people from biological and chemical threats. That's 
why we're holding this hearing today.
    We're going to look at how the Postal Service has handled 
the situation so far and what still needs to be done. I want to 
thank our new Postmaster General, Jack Potter, who is going to 
be with us later on this afternoon. I know it's a very 
stressful time for the Postal Service. The task ahead is 
monumental. The Postmaster General is going to be here, I 
think, around 2 p.m. He'll be accompanied by David Fineman, the 
vice chairman of the Postal Service Board of Governors. I want 
to thank them in advance for being here.
    I also want to thank our other witnesses, Mr. Jarboe, from 
the FBI, who came on very short notice. I really appreciate 
that. The FBI is working very hard to try to meet these new 
threats. Their cooperation with this committee has always been 
very good and appreciated.
    Dr. Mitch Cohen from the CDC also came on very, very short 
notice. A new case of inhalation anthrax was reported in New 
York City last night, and I know that the CDC is doing 
everything they can to stay on top of the situation. So I want 
to thank you for coming on short notice.
    I want to also thank as well our Chief Inspector, Mr. 
Weaver, from the Postal Service, for being here. I also want to 
thank our witnesses from the four postal unions who are going 
to testify later today.
    I think it's fair to say that the situation hasn't been 
handled perfectly, but we're in uncharted territory. With the 
advantage of hindsight, it's easy for us to second guess. Given 
the little experience that we've had with anthrax in this 
country, it's not surprising that we've had some rough spots. I 
was told that the last time we had a case of anthrax was about 
25 years ago. So we'll have some questions about decisions that 
were made and the way the situation was handled.
    We lost two employees from the Brentwood facility. Did we 
wait too long to start testing there? What lessons have we 
learned? I think the most important thing we can do at this 
point is to work together so we're better prepared for the next 
attack, and we understand that there probably will be more 
attacks.
    We have 800,000 people working in the Postal Service. Their 
safety comes first. We have millions of people and businesses 
across the country who rely on the Postal Service. They send 
and receive mail every day. We have to restore their confidence 
that the mail is safe.
    We want to hear from the Postmaster General about what 
steps they're taking, what's being done so we can open the mail 
again without fear. What type of technology is the Postal 
Service investing in? How effective is it? How long will it be 
before it's up and running, and how much will this equipment 
cost?
    The first figure we heard last week was $800 million, and 
before long it was up to almost $2.5 billion, including 
infrastructure changes. Where does this money come from? This 
is an area where the Congress and the Postal Service need to 
work together. If the Postal Service has to pass along all 
these costs to the ratepayers, the impact on their finances 
will be devastating. The Postal Service is already losing 
money, about $165 million last year. The combination of a 
sluggish economy and increased use of e-mail could make this 
year's losses even greater. And that's not even considering the 
cost that's been a result of these terrorist attacks.
    The September 11th attacks cost the Postal Service over $60 
million in damages alone. The economic slowdown that followed 
cost them another $300 million to $400 million in lost revenue. 
The costs related to this anthrax attack will be many times 
that. In its current financial condition, the Postal Service 
cannot absorb these costs.
    The White House has already committed $175 million in 
emergency funds to help the Postal Service take the first 
steps. More is going to be required. I hope we can get a more 
exact idea on how much more today or in the very near future. 
I'm going to work with the White House, and so will the 
committee and the Postmaster General and my colleagues on this 
committee will work as well to make sure the Postal Service has 
the resources it needs to face this challenge.
    I also want all my colleagues to know that we're not going 
to give up on postal reform. It's more clear now than ever that 
we need to have a financially strong Postal Service. They need 
to have greater flexibility or they can't compete in today's 
environment. I know that John McHugh agrees with me, and so 
does Danny Davis, who is not here yet, but they've been working 
very hard on the postal reform issue.
    John McHugh can't be here with us because of a family 
problem, but he has a statement that we will insert into the 
record, without objection.
    [The prepared statement of Hon. John M. McHugh follows:]
    [GRAPHIC] [TIFF OMITTED] T7387.004
    
    [GRAPHIC] [TIFF OMITTED] T7387.005
    
    [GRAPHIC] [TIFF OMITTED] T7387.006
    
    Mr. Burton. I just have a couple more remarks. This is 
probably the great challenge America has faced in decades. I 
can't remember the last time so many Americans were afraid to 
go about their daily lives. I can't remember the last time so 
many people felt insecure. Yet we're rising to that challenge. 
And it wouldn't be possible without the hard work of thousands 
and thousands of people, the men and women of the armed forces 
flying combat missions over Afghanistan, conducting commando 
raids in hostile territory, and all the people at the Defense 
Department who are supporting them.
    The Justice Department and the FBI have committed vast 
resources to investigating these crimes. They're working 
tirelessly to try to protect the public, and we appreciate that 
very much. At the CDC, they're working around the clock, and I 
really appreciate them being here today, because I know how 
difficult it is right now to contain this outbreak of anthrax. 
The men and women of the Postal Service who continue to keep 
the mail moving despite all the uncertainties they face, the 
local firefighters and policemen who risk their lives to try to 
save others.
    I'd like to correct one thing I said, I said $165 million. 
It's $1.65 billion that the Postal Service was asking for.
    On behalf of everyone on this committee, I want to thank 
everyone who is doing his or her part. With that, that 
concludes my opening statement.
    Mr. Waxman, you're recognized.
    [The prepared statement of Hon. Dan Burton follows:]
    [GRAPHIC] [TIFF OMITTED] T7387.001
    
    [GRAPHIC] [TIFF OMITTED] T7387.002
    
    [GRAPHIC] [TIFF OMITTED] T7387.003
    
    Mr. Waxman. Thank you very much, Mr. Chairman. Thank you 
for holding this important hearing.
    There are two questions we need to focus on today: Is it 
safe for families, businesses and Government agencies to open 
their mail? And is it safe for postal workers to handle the 
mail?
    Ensuring the safety of the mail is a paramount Federal 
responsibility. The public depends on the U.S. mail. We use the 
mail to stay in contact with family and friends, to pay our 
bills and to transfer goods. When the mail is not safe, our 
national economy cannot function properly.
    Since the attack on our country on September 11th, the 
Postal Service has delivered 20 billion pieces of mail. Since 
that time, only a handful of mail has been found to be 
contaminated with anthrax. The odds of any family receiving a 
contaminated letter during this period are vanishingly small.
    But it is also clear that the mails are being used by 
terrorists to kill and injure innocent Americans. Since the 
September 11th attacks, anthrax contaminated mail has killed 
three people, caused inhalation or cutaneous infections in at 
least one other. Most of those killed or injured have been 
postal workers who were unknowingly infected while serving the 
public. I especially want to express my sympathies to the 
families of Thomas Morris, Jr., and Joseph Curseen, Jr., the 
two postal workers who died earlier this month from inhalation 
anthrax.
    We must do everything in our power to stop these terrorists 
and ensure the safety of the mail. On September 11th, terrorist 
attacks were launched on New York and Washington using 
airlines; 3 days later, Congress provided $40 billion to help 
New York and Washington respond. And 1 week after that, 
Congress provided another $15 billion to help the airlines 
cope.
    The mails are now under attack. We must respond just as 
quickly and just as forcefully to protect the mail.
    The Postal Service has said that the technology needed to 
respond to the anthrax attacks will cost $2.5 billion. I fully 
support helping the Postal Service pay for its response to the 
anthrax threat. In fact, I believe the Postal Service may need 
even more money to adequately protect the mail.
    But I also have questions about how this money will be 
spent. We need to act fast. But we also need to do it right.
    The Postal Service should have done emergency planning 
before the recent attacks that would provide a blueprint for 
how to respond. But the Postal Service didn't do this. In fact, 
the only emergency planning by the Postal Service before 
September 11th involved how the Postal Service would respond if 
attacks were launched against other targets. For example, if 
airlines were attacked and couldn't be used, the Postal Service 
looked at alternatives for delivering the mail. The Postal 
Service had no plan for responding if the Postal Service itself 
were attacked.
    As a result, the Postal Service is now trying to do 
emergency planning at the worst possible time, in the midst of 
an emergency. Along the way, serious mistakes are being made, 
such as the tragedy at the Brentwood facility. We cannot afford 
additional mistakes. Improvements will cost money, but throwing 
money into the system doesn't necessarily bring about more 
safety.
    I will ask hard questions today about whether there is a 
magic technological fix to this problem. I will ask questions 
about whether the right process was in place for making sound 
judgments. Ultimately, what we may need is a common sense 
strategy that uses both low tech safety precautions and new 
technologies.
    It's natural for families to have concerns about postal 
safety. But there is a problem we can address, and it's a 
problem that we must fix. Today's hearing will be an important 
part of that process.
    I look forward to the testimony of the witnesses today and 
the opportunity to ask questions so that we can evaluate what 
they have to tell us and figure out the best response, given 
the difficulties we're facing, the fast timeframe in which we 
have to act, and the amount of money that will be involved.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Hon. Henry A. Waxman follows:]
    [GRAPHIC] [TIFF OMITTED] T7387.007
    
    [GRAPHIC] [TIFF OMITTED] T7387.008
    
    Mr. Burton. Dr. Weldon.
    Dr. Weldon. I too want to commend you, Mr. Chairman, for 
calling this hearing. I practiced general internal medicine and 
infectious disease for 7 years prior to being elected. I also 
was in the Army Medical Corps and received some training on 
chem-bio.
    Also, interestingly, my father, who is now deceased, was a 
retired postal worker. Certainly, my condolences go out to the 
family members of those who have been stricken and all postal 
workers. I certainly support efforts to get our postal system 
fully up and running and do everything that we can to reassure 
the American public that the postal system is safe. I commend 
you for the timeliness of this hearing and I yield back.
    Thank you, Mr. Chairman.
    Mr. Burton. Thank you, Dr. Weldon.
    Mr. Lantos.
    Mr. Lantos. Thank you very much, Mr. Chairman. I want to 
commend you and the ranking member for holding this hearing.
    First, Mr. Chairman, let me express on behalf of all the 
American people the sorrow and anguish we all feel for the 
postal employees who lost their lives. The postman or the 
postwoman on the beat are beloved fixtures on the American 
landscape. And to see this group of remarkably committed and 
decent and hard working men and women under this threat pains 
every single American citizen.
    Mr. Chairman, I am as confident that we will win the war 
domestically as I am confident that we will win the war in 
Afghanistan. But while we can express our confidence in our 
long term victory, it is important to put the minds of our 
loyal postal workers at ease. Their prime concern at the 
moment, obviously, is a health concern. And with the best 
health advice in the world, we will deal with that issue.
    I would like to spend a moment on their financial concerns. 
Long before September 11th, the Postal Service was in very 
serious financial difficulties. As a matter of fact, in the 30 
years since 1970, the cumulative deficit of the Postal Service 
was about $5 billion. I predict that the deficit of the Postal 
Service in the next 2 or 3 years will exceed $5 billion. I for 
one want to put at ease the minds of all the postal workers 
that this Congress will stand beside them in meeting the 
financial challenge that the Postal Service will have to face.
    Since the first letter containing anthrax was mailed on 
September 18th, 25 billion pieces of mail were safely delivered 
by the men and women of the Postal Service. And the very least 
these people are entitled to expect from their Congress is that 
we will see to it not only that their health is fully 
protected, but their financial future is fully protected for 
all postal employees currently working.
    Now, in the long run, there may be a systemic impact of 
this change. And that systemic impact may drastically reduce 
the use of the Postal Service. But I think it would be 
eminently unfair to impose a burden on men and women who have 
been devoting years of their lives to this important endeavor.
    My commitment, Mr. Chairman, is to see to it that we as a 
Government stand behind the men and women of the Postal Service 
in these difficult days. I yield back.
    Mr. Burton. Thank you, Mr. Lantos. Mr. Shays.
    Mr. Shays. Thank you, Mr. Chairman. Thank you for having 
this hearing, and thank you, Mr. Waxman, for being so 
supportive of this hearing.
    I believe this is a hearing in honor of Thomas Morris and 
Joseph Curseen and all their fellow employees. That's what this 
hearing is about, to make sure that they are protected in the 
future and to never forget the two who have lost their lives.
    I'm going to submit my written statement. I just want to 
say these brief words. We are at war, we are at war, we are at 
war. We are in a race with terrorist organizations to shut them 
down before they have a better delivery system for chemical and 
biological agents, before they get nuclear waste material they 
can put in a bomb and explode with all the toxicity that 
presents, and before, heaven forbid, they get a nuclear weapon 
with which they can blackmail us or detonate.
    That's what this is about, and Thomas Morris and Joseph 
Curseen are victims, casualties of this war. We're going to 
learn how to fight it better and better as we go along, and 
we're going to succeed. But the bottom line is, we have a tough 
task ahead of us. I know there are going to be lot of should 
haves. There isn't anyone in this room who can't look at 
themselves in the mirror and say, we should have or I should 
have. And that includes all of us. But obviously, we in 
Government have a responsibility to take action, and we're 
going to.
    But I'm going to try real hard not to be part of the should 
haves, because I know that list is endless and I know I'm part 
of that list. I yield back.
    [The prepared statement of Hon. Christopher Shays follows:]
    [GRAPHIC] [TIFF OMITTED] T7387.009
    
    Mr. Burton. Thank you, Mr. Shays. Mrs. Maloney, do you have 
an opening statement? I would urge everyone, because we're 
going to lose part of our panel, I think, at 1:30.
    Mrs. Maloney. Just very briefly, thank you, Mr. Chairman 
and ranking member.
    Three people, including two postal workers have died, and 
others have been infected. We need to review and do everything 
possible to protect their health in the future.
    This is an issue of tremendous importance to me. Anthrax 
spores were found in four sorting machines at New York City's 
largest mail distribution center. The executive board of the 
city's largest postal workers union voted yesterday to file a 
lawsuit to have the facility closed for a thorough cleaning.
    Health officials, however, have told the workers that there 
is no danger for employees and that they should continue 
working in the building. I must say that many postal workers 
have been calling my district office and calling me saying, why 
will you not close the post office when you closed the 
congressional buildings when spores were found? And I think 
that's a legitimate question.
    On Wednesday night, the Postal Service began giving a 10 
day supply of the antibiotic Cipro to 7,000 New York City 
postal employees as a precautionary measure. The Cipro is being 
made available to employees at Morgan Sorting Center, the James 
A. Farley Mail Building, Estonia Mail Station, Radio City 
Station, Rockefeller Center Station and the Times Square 
Station. So we are responding to their health.
    I must mention that even before the September 11th tragedy 
and the anthrax scares, the Postal Service was projected to 
lose $1.6 billion in 2001. Now it's going to be much worse. 
Since September 11th, five magazines have gone out of business, 
many of them housed in the District that I represent. 
Mademoiselle, that I grew up with, is now out of business. One 
of the challenges that we face is to make sure that we continue 
to have a competitive and universal mail service.
    You can't really blame anyone for being concerned about the 
mail these days. But we have to keep things in perspective. 680 
million pieces of mail move each and every day. And the risk to 
the general public is infinitesimal. And anthrax mailings have 
apparently been confined to a small number of organizations and 
elected officials. Though I must mention very disturbing news 
that a 61 year old woman who worked in my district at Manhattan 
Eye, Ear, Nose and Throat Hospital, had no contact, or didn't 
work with the mail, is deathly ill and has been exposed and 
infected.
    The mailing industry is tremendously important to our 
economy. It's actually 8 percent of our GNP, a $900 billion 
industry. And really, it's tremendously important to our 
country. I certainly support the efforts by the Postal Service 
to purchase the sanitation machines. The price tag alone for 
this is going to be in the neighborhood of $2 billion to $3 
billion, I'm told. What many people have not focused on is that 
the mail volume has dropped since September 11th, which means 
that the USPS is losing more money every single day. I have 
seen some estimates that put this reduction at 10 percent.
    I applaud the administration for coming forward with a $175 
million influx of funding to assist and support the U.S. mail 
service, and I applaud the efforts of my colleagues, Danny 
Davis and Congressman McHugh. Danny Davis has come forward with 
a stirring resolution honoring the postal workers, their loss 
of life, their bravery. They are soldiers every day going to 
work and getting the mail out to people. And I applaud the work 
of the task force that McHugh and Davis have put forward to 
look at postal reform. This may be the time that we should move 
forward, not only the influx of the dollars for the new 
machines, the new protections, but the reform that has so long 
been debated.
    Thank you very much.
    [The prepared statement of Hon. Carolyn B. Maloney 
follows:]
[GRAPHIC] [TIFF OMITTED] T7387.010

[GRAPHIC] [TIFF OMITTED] T7387.011

    Mr. Burton. Mr. Schrock, I guess you don't have an opening 
statement? Thank you, Mr. Schrock.
    Mrs. Davis.
    Mrs. Davis of Virginia. Thank you, Mr. Chairman.
    I'd just like to say thank you for holding this very 
important hearing at a time when our postal workers have been 
put at high risk and the possibility still remains that there 
will be even more risk. I look forward to hearing the comments 
from the distinguished panel. Thank you.
    Mr. Burton. Ms. Norton.
    Ms. Norton. Thank you, Mr. Chairman. Thank you especially 
for your rapid response in holding this hearing.
    I don't need to tell you that we in the District feel very 
much at ground zero. We're still grieving the loss of two 
postal workers who served us valiantly, had a particularly good 
record in the Postal Service. Soldiers go to battle prepared to 
die. People don't go to the post office prepared for their 
families to hear that they, too, have died.
    I believe, because I've worked closely with the Post Office 
and the CDC, that our Federal officials are working very hard 
every day, very long hours, trying to come to grips with this 
matter. I agree with my good friend, Mr. Shays, who says the 
finger pointing won't do us any good now. I am a problem 
solver, not a finger pointer.
    I do think it is important to assure the country that the 
District of Columbia experience will not be repeated elsewhere 
and that we will get control of the experience in this city 
very soon, not only because Congress is here or the President 
is here, but because 600,000 people live here. I don't believe 
that the people who live here or even our postal workers have 
been guinea pigs, as some have said out of bitterness, and 
bitterness is perhaps understandable. I do believe that we were 
the first to test the system and that the test showed multiple 
defects, including the worst defect of all, the death of two 
postal workers.
    Unfortunately for the post office, the shutdown of the 
House has created a gold standard. I was just on MSNBC, and I 
was asked this question. After detailing these deaths, I was 
asked, ``why then should we not close down the mail system of 
the United States or at least of the East Coast until we get 
this problem under control?'' I want you to know I said, I 
don't think you should do that. I said that without a lot of 
evidence and information, except the information I have. And I 
told them this, that I am not about to be terrorized to the 
point of getting that far in front of the evidence before us.
    And I certainly hope we are not anywhere near there. But I 
do say to you that we need an alternative to doomsday scenarios 
like closing down the House. It's going to be very hard for me 
to say to the people now in two of our post offices in the 
District of Columbia, Southwest and Friendship, that they 
shouldn't evacuate the place immediately and close it down. We 
evacuated this place before a single granule was found, and now 
we've only found trace amounts. There have got to be 
alternatives to this kind of panic scenario, panic that 
everyone understands in the absence of information, but surely 
not the best way to go about ensuring the country that we've 
got to get back to normal, as the President, I think 
justifiably, says.
    If we can terrorize a nation on the cheap this way, but 
putting an envelope or two in the mail, then all our 
administration is doing to close off the money supply becomes 
quite irrelevant. It doesn't take a lot of money to do what you 
have to do to terrorize a nation. We've got to quickly find a 
way to meet the major challenge of lumbering bureaucracies that 
are being called upon to somehow be a finely honed machine that 
can take on a crisis and solve it quickly. I suggest that 
small, task-oriented groups, with all the major actors working 
at the same time, at the same table, may be necessary if you 
have an unprecedented crisis.
    For example, postal facilities were not the logical place 
to start, given the science that you knew. But the science that 
we knew didn't turn out to be definitive because you had so 
little science, so little experience with anthrax, and it was 
so old. I think we need new hypotheses in order to reach beyond 
the science. I'm very concerned that the two neighborhood 
facilities were there has been some anthrax will send yet 
another perhaps false message to the public, hey, it's coming 
downstream, it's finally going to get in your mail.
    We've got to stop. We've got to have enough information to 
make people cautious without panicking them to the point of 
believing that now one of the great institutions of the United 
States, without which we cannot do, ought to be shut down until 
we can somehow ``solve this problem.'' As you get closer to the 
general public, that is going to be your challenge. I'm sure 
you can meet it.
    I'll be very pleased to hear what you have to say today.
    Mr. Burton. I thank the gentlelady.
    Mr. Kucinich.
    Mr. Kucinich. Thank you, Mr. Chairman.
    Because we all want to see our mail service continue, and 
because we must provide for the health of postal workers, and 
for the security of our mail, those entities handling anthrax 
incidents need to abide by at least three principles. First, 
affected individuals must be given detailed information and 
receive consistent updates as to the potential contamination, 
levels of confirmed contamination, the health risks posed, 
steps that can be taken to prevent infection, symptoms to watch 
out for, and treatment options.
    Unfortunately, this has not occurred. Numerous postal 
employees have complained to me about the lack of information 
from postal and health authorities. Initially, for instance, 
the CDC did not believe postal workers and mail handlers were 
at risk of anthrax infection from handling sealed mail. Well, 
the first deaths of postal workers from inhalation anthrax 
forced CDC to revise its assumptions. The conflicting 
information undermined the trust of postal workers in their 
leadership and in the health authorities.
    Moreover, though CDC has revised its recommendations and 
many postal workers are now receiving prophylactic treatment, 
those still on the job still have not received adequate 
instruction on precautionary measures and symptoms to look out 
for. Many postal employees have received gloves, but it appears 
few have been told how to use them and how to dispose of them 
properly so that potential contaminants are not spread.
    In the wake of these recent anthrax incidents, the Postal 
Service is experiencing as much as a 40 percent absenteeism 
rate in cities such as New York. This, I believe, is a direct 
consequence of postal employees feeling under-informed about 
the threat, health risk, safety precautions and treatment. This 
must change.
    The second principle. CDC, the post office, mail operations 
and Government entities and other potential targets and local 
health authorities must better coordinate their efforts and 
respond aggressively to potential contamination and infection. 
Press reports suggest that health authorities have been unable 
to comprehensively track the condition of all employees who 
work in contaminated areas. This renders likely the possibility 
that an exposed individual might contract anthrax infection and 
become seriously ill before the CDC and other health 
authorities are even aware of the case. It also appears that 
not all local health authorities and individual entities with 
mail operations are able to immediately recognize contamination 
or infection.
    The mail room employee at the Manhattan Eye, Ear and Throat 
Hospital at New York recently hospitalized for inhalation 
anthrax went 4 days after exhibiting initial symptoms before 
she was admitted. Now she's on a ventilator.
    Third, the FBI's criminal investigation of these attacks, 
while very important, must not trump the public health response 
to these attacks. Though authorities have been reluctant to do 
so, the level of contamination at affected sites, the nature of 
the contamination and the way in which testing is being 
conducted to determine contamination must be made known to all 
interested parties.
    Moreover, the FBI must expedite the sharing of information 
on anthrax exposure and infection by Federal and local health 
authorities. This would seem self evident. However, we must 
make sure that the interim guidelines for reporting of anthrax 
by the CDC, which requires the FBI receive notice first, are 
not interpreted to mean that information in a criminal 
investigation takes priority over emergent public health 
concerns.
    In the weeks since the September 11th attacks, many 
officials here in Washington have invoked the following 
principle, that a Government's No. 1 responsibility is the 
protection of its citizens. Let us proceed with this hearing in 
that spirit. I thank you.
    Mr. Burton. Thank you, Mr. Kucinich. Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman. I will be 
brief.
    Mr. Chairman, just a few days ago my colleague, Ben Cardin, 
and I went to the main post office in downtown Baltimore and 
had an opportunity to visit the post office. After seeing the 
many people there hard at work with their masks on, many of 
them with gloves, and having a chance to talk to them, it's 
interesting, Mr. Chairman, that not one of them said we should 
slow down.
    What they did say, Mr. Chairman, was that, Congressman, we 
want you to look out for us. We want you all to make sure that 
we are protected. We want you to do every single thing in your 
power to make sure that there is not another death. And Mr. 
Chairman, that's why this hearing is so timely. Twenty men, 
when we got to the end of the tour, after about an hour, who 
were sitting in a lunch room, and I'll never forget the 
questions that they asked. One of them said he had been at 
Brentwood, and should he not be getting tested, should he be 
getting Cipro. Another one asked, well, will it make a 
difference whether we wear gloves. It seems like these 
particles are so minute that it won't make too much difference, 
so does the mask make a difference.
    And Ben Cardin and I stood there as the union people and 
the administrators tried to answer their questions. On my way 
here today, one of them said to me, I ran into him on the 
street, he said, I heard they're having a hearing on us today. 
And he said, don't forget what we said. Look out for us, don't 
forget us. We're the ones that make sure the mail goes through.
    So Mr. Chairman, a lot of people don't realize it, but you, 
to your credit, were addressing the issue of anthrax long ago, 
far earlier than September 11th, because I remember sitting in 
the hearings. And so we've got a major situation here. But I 
too agree with Congressman Shays. We've got to be careful that 
we make sure that the mail goes through, but we've got to also 
do everything in our power to protect these men and women who 
are very, very brave and do a job that many Americans probably 
wouldn't even want to be bothered with.
    But that American spirit, Mr. Chairman, that bold spirit 
that Ben Cardin and I saw, just cries out for us to do 
everything in our power to protect them. If we don't do it, 
then they ask the question, who will.
    Mr. Burton. Thank you, Mr. Cummings. Mr. Davis.
    Mr. Davis of Illinois. Thank you very much, Mr. Chairman. I 
want to thank you and the ranking member, Mr. Waxman, for 
convening this hearing to discuss the safety of postal 
employees and the mail.
    Since the terrorist attacks of September 11th, life as we 
once knew it has never been and never will be the same. The 
attacks of September 11th have caused a ripple effect that has 
reverberated throughout our economy and throughout our entire 
society. Earlier this month reports surfaced of anthrax-tainted 
mail. The anthrax-tainted mail seems to have been targeted to 
Government officials, media and other innocent civilians.
    Since the founding of our postal system, there is no report 
of biological agents being used as a weapon of war in the mail. 
Our mail system is vital to the Nation, accounting for 
approximately 8 percent of the gross national product. The 
overall goal of the Postal Service is to bind the Nation 
together through a communication system that is the best in the 
world.
    The perpetrators of anthrax-tainted mail seek to disrupt 
our communications network and threaten the viability of not 
only our mail service but of our Nation. There are those who 
criticize the Postal Service for responding too slowly to the 
anthrax threat. To those I say, I understand the criticism, but 
I also suggest that it is much easier to criticize than to find 
solutions, to find solutions to fear and terror that is 
spreading throughout the country.
    The threat of anthrax-tainted mail is new for all of us. 
Now is the time to pull together to successfully combat it. I, 
along with Representative John McHugh, will introduce a 
resolution later today honoring the 800,000 plus men and women 
in the U.S. Postal Service who have done an outstanding job of 
delivering the mail throughout this national emergency. Since 
the terrorist attacks of September 11th, the men and women of 
the U.S. Postal Service have processed and delivered more than 
20 billion pieces of mail. In addition to honoring postal 
workers, we pledge to help make sure that the Service, with the 
resources that they are available to ensure the safety of their 
employees and the general public.
    I also, Mr. Chairman, want to extend my condolences and 
prayers to the families of the postal workers and all the rest 
of the people in our country who have actually died as a result 
of this assault. It is important that we hold this hearing 
today, as more than 13,000 USPS employees are being treated for 
anthrax prophylactically. And of course, three U.S. postal 
employees remain hospitalized, suffering from inhalation 
anthrax.
    Today, Mr. Chairman, I believe that we send a message to 
the terrorists that we will not be frightened into fear, we 
will not be delayed and we will not be denied. We will make 
every effort to make absolutely certain that every employee of 
the Postal Service has the safest, most desirable work related 
and work experiences that we can possibly have.
    And yes, Mr. Chairman, there were problems relative to the 
funding and financing and the business of the postal operation 
and services before the anthrax scare. But I believe that this 
also provides us with an opportunity to look comprehensively at 
what is needed, and at the same time that we find a solution to 
the problem of bioterrorism, that we also find a way to bind up 
the postal system period, so that we can continue to provide 
service, be the great Nation and continue to communicate as the 
postal system has allowed us to do.
    I thank you, Mr. Chairman, and yield back the balance of my 
time.
    Mr. Burton. Mrs. Mink, do you have an opening statement?
    Mrs. Mink. Mr. Chairman, I too want to join my colleagues 
in expressing great appreciation for the convening of this 
hearing. I hope that it's a mere beginning of a series of 
hearings that you will hold, so that we can find out exactly 
what happened in these last 2 weeks.
    I'm very much distressed to read reports of dissatisfaction 
among the postal workers that their needs and concerns about 
their health are not being attended to. I'm concerned with the 
reliance of the postal authorities on the CDC's recommendations 
that the facility at Brentwood did not need to be closed. We 
already knew 2 days before that a cutaneous anthrax infection 
did occur in a postal worker that merely handled mail in New 
Jersey.
    I'm also distressed that it's taken us 2 weeks to really 
get into understanding the nature of this threat and who did 
it, and all the rest of it. So I think that, Mr. Chairman, this 
should be a mere beginning of our inquiry, because I think we 
are expressing concerns that are felt throughout this Nation.
    Frankly, I think that the burdens of inquiry and protection 
and safety for the workers ought not to be the expense of the 
postal system. The Congress ought to be willing to fund 
whatever is necessary. If the facilities are closed and there 
are expenses with relation to that, the Congress ought to fund 
it, just as we were ready to fund the other atrocious events 
that have overtaken our country.
    So Mr. Chairman, I thank you for these hearings. Thank you 
very much.
    Mr. Burton. Thank you, Mrs. Mink.
    Before we get to our panel, let me just ask that we have a 
moment of silence for Thomas Morris and Joseph Curseen and the 
other people who have been infected with this terrible thing, 
and for our Nation. Can we have a moment of silence.
    [Pause.]
    Mr. Burton. Thank you.
    We will now welcome our first panel, Chief Inspector 
Kenneth C. Weaver, Dr. Mitch Cohen and James Jarboe. Would you 
please rise and raise your right hands.
    [Witnesses sworn.]
    Mr. Burton. Be seated.
    Do any of you have an opening statement you'd like to make, 
or do you want to go right to questions?
    Mr. Weaver. I do, Mr. Chairman, if you'll permit.
    Mr. Burton. Mr. Weaver.

 STATEMENTS OF KENNETH C. WEAVER, CHIEF POSTAL INSPECTOR, U.S. 
 POSTAL INSPECTION SERVICE; MITCH COHEN, DIRECTOR, DIVISION OF 
 BACTERIAL AND MYCOTIC DISEASE, NATIONAL CENTER FOR INFECTIOUS 
     DISEASES, CENTERS FOR DISEASE CONTROL AND PREVENTION, 
ACCOMPANIED BY REMA KABAZZ; AND JAMES F. JARBOE, SECTION CHIEF, 
COUNTERTERRORISM DIVISION, DOMESTIC TERRORISM/COUNTERTERRORISM 
       PLANNING SECTION, FEDERAL BUREAU OF INVESTIGATION

    Mr. Weaver. Good afternoon, Mr. Chairman, members of the 
committee. I appreciate very much the opportunity to update you 
today on the activities of the Inspection Service as they 
relate to the terrorist attacks of September 11th and the 
anthrax mailings. I'm pleased to participate on a panel with 
our law enforcement partners in this war on terrorism, the 
Federal Bureau of Investigation.
    We are in the midst of an unprecedented attack on our 
Nation's mail system. Never in our history has the mail been 
used to deliver biological terror as we have experienced this 
month. Postal employees have been placed directly in harm's way 
during this attack, and sadly, we have lost two of our own in 
this new war. The entire postal community mourns these two 
fine, dedicated employees who died in the line of duty.
    Since September 11th, the Postal Inspection Service, the 
law enforcement and security arm of the Postal Service, has 
been on high alert, as all law enforcement agencies across our 
country have been. Our mission of protecting the U.S. Postal 
Service, its employees and customers from criminal attack, and 
protecting the Nation's mail system from criminal mis-use, has 
never been more challenging since September 11th.
    I have directed all 1,900 postal inspectors and 1,400 
uniformed police officers that their highest priority is the 
investigative and security work in support of the terrorist and 
anthrax investigations. Unless these personnel are involved in 
the investigation of crimes of violence, such as assaults of 
postal employees, robberies of post offices or mail bombs, they 
are now on the front lines in this war on terrorism.
    As you may know, the FBI has been designated by the 
Department of Justice as the lead agency on all terrorist 
investigations. In matters involving the Postal Service and the 
U.S. mail, and where our investigative or forensic expertise 
can be beneficial to the overall investigation, the Postal 
Inspection Service commits resources to terrorist 
investigations.
    Postal inspectors are members of the Joint Terrorism Task 
Forces and the Attorney General's anti-terrorism task forces in 
all parts of the country and are integral contributors to the 
September 11th terrorist investigation. Inspectors are assigned 
to the FBI's strategic information operation center and FBI 
agents are assigned to Inspection Service headquarters, where 
they partner with postal inspectors to coordinate our national 
efforts.
    The Deputy Director of the FBI and my deputy chief for 
investigations are in regular contact to ensure our respective 
organizations are working together. Postal inspectors are 
assigned to FEMA, and we are also coordinating our efforts with 
the new Office of Homeland Security. We have assigned some of 
our forensic experts to assist in the examination of the 
anthrax letters and other evidence.
    On October 18th, the U.S. Postal Inspection Service, in 
partnership with the FBI, offered a reward of $1 million for 
information leading to the arrest and conviction of those who 
are responsible for the anthrax mailings. In addition, a unique 
partnership has been established with America's Most Wanted to 
handle the phone calls. To date, we have received over 165 
investigative leads from these calls and are following up on 
them.
    The safety of postal employees remains the top priority of 
our service. We are working with postal management to provide 
security updates and educating employees about the critical 
need to make security everyone's business.
    Security of the mail also continues to be a top priority. 
Inspection Service personnel are posted at selected postal mail 
processing facilities to screen mail. The Postal Service has 
established a mail security task force comprised of 
representatives of the labor unions, management associations, 
postal operations and the mailing industry. The Postmaster 
General has put me in charge of this effort.
    The safety of the American public is also paramount to our 
mission. We have produced an informational video on mailroom 
security, a poster on suspicious packages and letters, and a 
post card that was delivered to every address in the Nation, 
advising them of precautions to take in handling the mail.
    Regular messaging continues via our Web sites, and 
inspectors are making presentations to businesses, community 
groups and law enforcement organizations on safe mail handling 
procedures. We are coordinating our efforts with State and 
local governments. For example, we've discussed mail handling 
procedures with the adjutant generals of all 50 States' 
National Guards. And we have reached out with the same message 
to over 500 congressional district offices via telecons.
    Our joint investigative and security efforts are resource 
intensive. But we'll continue until the mails are safe and the 
criminals who are committing these crimes are behind bars. The 
strict devotion of resources is strained by the need to respond 
and investigate anthrax hoaxes, threats and suspicious letters 
and packages. Over 7,000 incidents have been reported to the 
Inspection Service in the past few weeks, an average of almost 
600 per day. Almost 300 postal facilities have had periods of 
evacuation as a result of these threats and hoaxes.
    But we have a message for those who use this time to 
contribute to the unrest and terror. If we find you, we are 
going to prosecute you and send you to jail. So far, we have 
arrested 18 people and have an additional 14 cases pending 
prosecution. The Inspection Service has a long and proud 
tradition of aggressively pursuing all types of postal 
criminals, from robbers to murderers, mail bombers to child 
pornographers, mail thieves to mail fraud con artists. The men 
and women of the U.S. Postal Inspection Service will stay on 
the case until the perpetrators are caught and brought to 
justice.
    Mr. Chairman, you can be assured the Postal Inspection 
Service will continue this proud tradition and stay on this 
case to make sure the mails are safe and ensure America's 
confidence in the mail. Thank you.
    [The prepared statement of Mr. Weaver follows:]
    [GRAPHIC] [TIFF OMITTED] T7387.012
    
    [GRAPHIC] [TIFF OMITTED] T7387.013
    
    [GRAPHIC] [TIFF OMITTED] T7387.014
    
    [GRAPHIC] [TIFF OMITTED] T7387.015
    
    [GRAPHIC] [TIFF OMITTED] T7387.016
    
    Mr. Burton. Thank you.
    Any other opening statements? Dr. Cohen.
    Dr. Cohen. First, Chairman Burton and Mr. Waxman, I'd like 
to thank you for inviting me to participate in this hearing. I 
am the Director of the Division of Bacterial and Mycotic 
Diseases at the Centers for Disease Control. I'm accompanied 
today by Dr. Rema Kabazz, who is the team leader for the 
investigative team in the D.C. area.
    I've provided a written statement for the record and just 
want to make a couple of brief comments. Since October 3rd, 
we've been investigating cases of anthrax in four areas: 
Florida, New York, New Jersey and in the District. To date 
there have been 15 confirmed cases of anthrax; 9 of these have 
been inhalational; 6 of them have been cutaneous. There have 
been three deaths.
    The epidemiologic investigation has indicated that letters 
containing anthrax were the vehicle of transmission for these 
illnesses. The Centers for Disease Control has expended a great 
effort to be able to investigate these outbreaks. We are 
working very closely with many State and local health 
departments, various Federal agencies, Federal workers, to try 
to protect the public health and the health of all of our 
citizens.
    I'd be very happy to answer any questions that you might 
have.
    [The prepared statement of Dr. Cohen follows:]
    [GRAPHIC] [TIFF OMITTED] T7387.017
    
    [GRAPHIC] [TIFF OMITTED] T7387.018
    
    [GRAPHIC] [TIFF OMITTED] T7387.019
    
    [GRAPHIC] [TIFF OMITTED] T7387.020
    
    [GRAPHIC] [TIFF OMITTED] T7387.021
    
    [GRAPHIC] [TIFF OMITTED] T7387.022
    
    [GRAPHIC] [TIFF OMITTED] T7387.023
    
    [GRAPHIC] [TIFF OMITTED] T7387.024
    
    [GRAPHIC] [TIFF OMITTED] T7387.025
    
    [GRAPHIC] [TIFF OMITTED] T7387.026
    
    [GRAPHIC] [TIFF OMITTED] T7387.027
    
    [GRAPHIC] [TIFF OMITTED] T7387.028
    
    [GRAPHIC] [TIFF OMITTED] T7387.029
    
    [GRAPHIC] [TIFF OMITTED] T7387.030
    
    [GRAPHIC] [TIFF OMITTED] T7387.031
    
    [GRAPHIC] [TIFF OMITTED] T7387.032
    
    [GRAPHIC] [TIFF OMITTED] T7387.033
    
    [GRAPHIC] [TIFF OMITTED] T7387.034
    
    Mr. Burton. Thank you, Dr. Cohen.
    Mr. Jarboe, you're a Hoosier, I understand, so welcome.
    Mr. Jarboe. Thank you, Mr. Chairman, and I thank the other 
ladies and gentlemen of the committee.
    Just a couple of things very briefly, so that the questions 
may be put forth. Currently we've restructured the 
investigation from where it was in the inception as far as the 
anthrax investigation goes. We've brought in a senior agent 
from our Washington field office, an assistant special agent 
charged to oversee the combined efforts of the investigation 
for Miami, New York, Washington, DC, and the ancillary 
investigation in Newark. We've done this to make sure it's 
compact, concise and there's one single focus.
    Yesterday, we brought in representatives from all those 
field offices as well as other offices that had lead 
information to Washington and had an all day conference to make 
sure everyone understood exactly what our process was, what our 
focus was, and to make sure that all the investigators from the 
different offices were aware of what was going on in the other 
offices, as well as the forensic information available. We did 
this, again, to make sure that we continue to keep the 
investigation as sharply focused as we can, so that we can get 
results as quickly as possible.
    The case is obviously joined with the investigation of the 
September 11th bombings as the most intensive investigations 
that we've had in the Bureau's history. Up to 7,000 plus 
individuals, and that fluctuates on a daily basis, depending on 
need, have been involved in the investigation. In my 22 years 
with the FBI, I've never seen anything this intense.
    We have daily briefings with the Director. He wants to make 
sure he's totally engaged. And as incidents pop up during the 
day that he needs to be aware of, I've spent many a day, many 
an hour in his office to make sure he's fully aware and fully 
engaged.
    One thing I would like to say and bring out is the fact 
that not only the FBI but State and local authorities are 
getting tremendously overwhelmed with the anthrax hoaxes that 
have cropped up since the initial information about the actual 
threats. On a routine basis, we'll handle approximately 250 
threat analyses per year in the weapons of mass destruction 
arena. In the first 2 weeks of October, we handled over 2,000 
of these. And that pace has not slowed down.
    So it's not only the FBI resources, but we have local 
police departments, State authorities that have to respond in 
conjunction with what the Federal authorities are doing and all 
of them are being overwhelmed. I'm pleased to see that the 
Attorney General and the U.S. attorneys throughout the country 
have taken a very aggressive stance about prosecuting those who 
would perpetrate an anthrax hoax. The resources that are 
required to respond to those are indeterminable, and I don't 
think the individuals have a concept of not only the resources 
that they use, but the terror that they bring to the victims. 
They may think it's a joke, but if you're in receipt of a 
letter that powder comes out of, it is no joke.
    I would like to say that there's been very, very close 
coordination with the Postal Service and with CDC. Dr. Cohen, 
from the inception of the investigation in Miami, has been 
literally living in my space at FBI headquarters. He's there on 
a daily basis and he has been an absolute tremendous asset to 
us, to make sure that the FBI keeps focused on the health 
issues. As Representative Kucinich stated, the health issues 
are more important than the prosecutive issues at this point. 
Dr. Cohen has been just a great help, tremendously assistive.
    We've also had Ray Smith from the U.S. Postal Service also 
working in our space, in on every briefing, in the meetings at 
a desk so that he can coordinate postal efforts with the FBI 
efforts, and that there's no information that we have or the 
Postal Service has that doesn't cross back and forth, so that 
we're all totally informed of all aspects of the investigation.
    I would like to say that the system did work in the 
inception. It's designed that if a disease breaks, that the 
State and local health officials are first notified and then 
they follow on with CDC and then CDC will make that proper 
notification to the FBI of a potential criminal investigation. 
That's exactly what happened in the case. In the initial steps, 
we were there to support CDC as an assist to their efforts to 
determine the epidemiological problems that they had in 
Florida, and that gradually rolled into a criminal 
investigation.
    Thank you, Mr. Chairman.
    Mr. Burton. Thank you very much.
    Let me just start the questioning off by asking, what are 
the penalties for mail that is a hoax, where they put powder in 
it?
    Mr. Weaver. Those penalties can range up to the same 
penalties for mailing the agent itself. And some U.S. 
attorneys, I've heard, are charging people with the same 
seriousness of the crime as if they had mailed anthrax.
    Mr. Burton. So the penalty could be 5, 10----
    Mr. Weaver. It could be up to life in prison.
    Mr. Burton. I think that's a message that I hope everybody 
in the country hears. If you start sending something like that 
out as a joke, that you could end up in jail for a substantial 
period of time. It really isn't funny.
    Yesterday the Attorney General, and I will ask this to Mr. 
Jarboe, the Attorney General issued an alert warning of a 
possible terrorist attack this next week. Let me just ask a 
couple of questions regarding that, and you can answer them at 
one time. What can the American people expect, if you can tell 
us that? What kind of information was this alert based upon, if 
you can tell us that? I understand there's classified material 
there.
    Is there any intelligence about specific targets, or is 
this more of a general threat? What should the American public 
do in response to this alert? What should State and local law 
enforcement people do?
    Mr. Jarboe. As you said, Mr. Chairman, it is non-specific. 
And I believe that's the message that the Attorney General put 
forward. The source of the information is classified, so I 
don't want to go into that source here in this open briefing.
    What should the citizens do, what should State and local 
law enforcement do? And I know it's been said before, they have 
to be on even higher alert than is the normal. I know the 
Nation has been on very high alert ever since September 11th. 
If we had specific information about a specific target at a 
specific time, that information certainly would be made known 
so that we could protect those targets.
    One of the reasons we set forth or put forth the warning is 
to make sure that everything maintains an elevation at the 
highest peak of preparedness. If we can do that, then hopefully 
we can disrupt any plans that are in process. Unfortunately, we 
do not have specific information about what the targets may be.
    Mr. Burton. Does it appear that the anthrax that were in 
the three letters to Tom Brokaw, Senator Daschle and the New 
York Post, did they come from the same source? The information 
that we had was that the anthrax in a letter to Senator Daschle 
was finely milled, a very high grade, if you want to call it 
that, and the letter to Tom Brokaw was a more unrefined kind of 
anthrax spore. Do you believe these came from the same source, 
or are these different sources?
    Mr. Jarboe. Your description of the two separate packages 
is correct. As of right now, the information we have is that 
the anthrax samples that we do have are indistinguishable from 
one another on a DNA analysis. There is continuing analysis 
being done to bring them down to the rudimentary elements and 
see exactly what we have. But again, as of this point, the 
information shows that they are indistinguishable.
    Mr. Burton. Why would they send a more refined form in one 
letter to Senator Daschle and not have the more refined form 
into Brokaw's office?
    Mr. Jarboe. That's a question that we do not have the 
answer to yet, and part of the investigation will be to focus 
on that and why the two separate types.
    Mr. Burton. I see. I presume you're probably checking to 
see if different cells had different mechanisms for delivery 
and refinement.
    Mr. Jarboe. We are checking everything that we can think 
of, yes, sir.
    Mr. Burton. This goes to Dr. Cohen. With respect to the 
contamination in the Brentwood facility here in Washington, I 
believe the original theory was that the anthrax escaped from 
the Daschle letter and contaminated other mail, is that 
correct?
    Dr. Cohen. That's certainly one possible explanation.
    Mr. Burton. Well, there's more and more mailrooms in the 
Federal office buildings that are having positive tests. Does 
that lead you to believe that those mail rooms were infected 
with the same letter?
    Dr. Cohen. There are other alternatives. A possibility 
would be that there are additional letters. The cases of 
disease, particularly inhalation disease, suggests that 
individuals were exposed to an aerosol, and that potential 
possibility would suggest that there may be more than one 
letter that had passed through the facilities.
    Mr. Burton. I presume that the FBI, I know there's a huge 
volume of mail that's over there being stored, are they going 
through that to see if there are any other letters that are 
containing anthrax spores?
    Mr. Jarboe. Yes, sir, we are. We're making plans to go 
through that piece by piece.
    Mr. Burton. Let me ask one question of Inspector Weaver. A 
large volume of mail has been collected and sent to Ohio and 
other destinations to be sanitized using irradiation 
technology. Some mail is also being held for investigation 
purposes. Are these pieces of mail being checked for anthrax, 
and do you believe that there may be one or more letters out 
there containing anthrax that haven't been detected?
    Mr. Weaver. You're correct, we are sending that mail to be 
sanitized. Upon the return of that, as Mr. Jarboe indicated, we 
will thoroughly jointly go through that mail and look for 
characteristics that might be indicative of the mailings, prior 
mailings that were made.
    Mr. Burton. Does that answer the question?
    Mr. Jarboe. Yes, sir.
    Mr. Burton. Mr. Waxman.
    Mr. Waxman. Thank you, Mr. Chairman.
    I know that all of you had to deal with an unprecedented 
and difficult situation. But unfortunately, this may not be an 
unusual situation in this country when we have a terrorist 
attack in one form or another. So I'm going to ask you first of 
all, about the coordination, which of course leads to how the 
communications were handled with the public, whether there were 
inconsistent messages sent and whether there was a different 
standard for people that were exposed to anthrax.
    First of all, Mr. Jarboe, one of the most common complaints 
was that the agency was not doing a good job coordinating with 
the other agencies. I want to ask you about this, particularly 
as it relates to the anthrax in the mail. After anthrax was 
discovered in Senator Daschle's office, the Capitol Police 
turned it over to the Army lab at Fort Dietrich.
    My understanding is that the Army had the responsibility to 
inform the FBI of the test results, and then the FBI had the 
responsibility to inform the Centers for Disease Control. Is my 
understanding correct of the way it was supposed to be handled?
    Mr. Jarboe. That's correct. They informed us and we work in 
conjunction with CDC, that's correct, sir.
    Mr. Waxman. So on October 18th, we had newspaper articles 
quoting law enforcement sources as saying, the anthrax in 
Senator Daschle's office was weaponized. The article seemed to 
indicate the anthrax was made up of fine particles. The next 
day, the newspapers contained different information. Those 
articles said the anthrax was just run of the mill anthrax. 
Then on October 25th, the papers were again reporting that the 
anthrax was indeed made of fine particles that were easily 
suspended in the air.
    When did the Army and the FBI determine the small size of 
the anthrax spores, and when did the Army and the FBI first 
suspect the small size of these anthrax spores?
    Mr. Jarboe. The first information we had about the physical 
properties of the anthrax that was found in Senator Daschle's 
letter was the evening of October 15.
    Mr. Waxman. Why was there so much confusion about it, 
whether it was a large spore or small spore or whether it was 
different than the other anthrax that we'd seen? Seems to me 
that it shouldn't be that difficult to determine the size of a 
spore.
    Mr. Jarboe. I think the most confusion came in media 
reports, and that partial information or mis-information was 
given to the media and they reported it as they received it. 
Dr. Cohen was in our space the evening, I believe it was around 
9 or 10 p.m., when we got the first reports in, indicating the 
preliminary analysis of size and composition. Again, that was a 
preliminary analysis and had to go on to subsequent tests to be 
confirmed.
    Mr. Waxman. Let me go into the question of the confusion 
about communicating to the public. Jeffrey Copeland, the 
Director of the CDC, has said that his agency did not have any 
opportunity to examine the letter that went to Senator 
Daschle's office or its contents. According to the Washington 
Post, on October 26th, Copeland indicated CDC investigators 
were not shown the letter and had no idea of the condition of 
the envelope. Dr. Copeland has stated that his agency did not 
recognize that the anthrax in the Daschle letter consisted of 
tiny particles that could seep out through the pores in the 
envelope until it was too late to save the postal workers.
    Why were the CDC investigators not shown the Daschle 
letter?
    Mr. Jarboe. The letter was in the laboratory at USAMRIID.
    Mr. Waxman. When was the information about the quality of 
anthrax spores, including the size and any additives, 
communicated to the CDC?
    Mr. Jarboe. The evening of the 15th, when the initial 
reports came in, Dr. Cohen and CDC were made aware. Then once 
the scientists got together, after they had done a further 
analysis, and determined additional physical properties, a 
phone call was made to the Deputy Director of CDC with that 
information.
    Mr. Waxman. So you maintain that he was informed 
immediately, then, on October 15th?
    Mr. Jarboe. Again, we had preliminary information. What we 
were putting out is what the preliminary look-see was from the 
laboratory without any formal analysis.
    Mr. Waxman. I don't want to rehash it all, but we have to 
learn from this experience how to deal with these problems in 
the future. I want to ask you one last question, because I know 
my time is about to expire. The FBI retains the custody of much 
of the mail that came to Capitol Hill along with the Daschle 
letter. There's a lot of anxiety about cross-contamination of 
mail with anthrax spores. Americans justifiably would like to 
know the risk of contracting anthrax in their homes from mail 
that might have come in contact with an anthrax laced letter.
    One way to assess the risk of such cross contamination 
would be to test some of the mail that the FBI has in its 
custody. These letters were part of the same batches of the 
Daschle letter or subsequent batches.
    Has the FBI tested the outside of these other envelopes for 
anthrax spores? Has the FBI tested whether anthrax spores stuck 
to these envelops have the capacity to aerosolize, and would 
the FBI consider conducting such tests if you haven't done so 
already?
    Mr. Jarboe. They have not been conducted at this point. We 
have all the mail and we have recently located a physical 
location where we can go through the mail. We're going to go 
through it piece by piece to see if we can find any additional 
letters that may have gone through the system and just not have 
been delivered at the same time that Senator Daschle received 
his letter and conduct any appropriate laboratory analysis at 
that point.
    Mr. Waxman. Why has it taken so long to see whether there's 
a cross-contamination with other letters? Because these other 
letters could be delivering the anthrax from exposure to the 
letter to Senator Daschle. Why is it taking so long?
    Mr. Jarboe. It's been going through in a very slow--I 
shouldn't say slow, that's the wrong word, a very specific 
procedural basis, so that we can make sure that we have it. We 
had to have a place to do it, and we had trouble getting a 
physical location to go to. This is a large volume of letters 
that we're talking about. Then we have to get the procedures in 
place to go through it to make sure that those who are 
reviewing it are not contaminated and we can make sure that 
when if we have something there, it is properly preserved and 
we can identify exactly what we do have.
    Mr. Waxman. Thank you. Thank you, Mr. Chairman.
    Mr. Burton. Real quickly, was that mail sent out to Ohio to 
be decontaminated so you can examine it?
    Mr. Jarboe. I don't believe--perhaps you can answer that, 
Mr. Weaver.
    Mr. Weaver. It's my understanding that was the process, 
that we were going to send it out and get it sanitized and 
bring it back.
    Mr. Burton. Has it been brought back?
    Mr. Weaver. We've just begun that process, I think the 
first trailer is coming back now.
    Mr. Burton. My colleague makes a very salient point here. 
If it takes a long time for that, a lot of these people who may 
have been touching some mail that was in close proximity to the 
Daschle letter, they could become infected and have inhalation 
anthrax and have a death sentence because of the time delay.
    Mr. Weaver. Bear in mind, we're capturing all that mail. 
None of it's going to be delivered for that particular 
location.
    Mr. Burton. So none of that mail was delivered, you're sure 
of that?
    Mr. Weaver. Right. That's correct.
    Mr. Burton. And none of the mail that was in close 
proximity to the Daschle letter was delivered?
    Mr. Weaver. That's the mail that we have captured that we 
want to send to Ohio to get sanitized and bring it back and 
then go through a methodical examination of that with the FBI.
    Mr. Burton. Dr. Weldon.
    Dr. Weldon. Dr. Cohen, could you comment on the number of 
spores that an individual might have to inhale to become sick 
with inhalation anthrax?
    Dr. Cohen. Yes. The various studies that were done suggest 
that one would need to inhale anywhere between 8,000 to 50,000 
spores to get inhalational disease.
    Dr. Weldon. What about a quantity of spores that would have 
to get on your skin to get the cutaneous form of anthrax?
    Dr. Cohen. That's not as well known.
    Dr. Weldon. My understanding is that it requires a break in 
the skin for the anthrax spores to cause infection. Is there 
any evidence that intact skin can be infected by anthrax?
    Dr. Cohen. Historically, most of the cases of cutaneous 
anthrax were in people who had injuries who had exposure to 
animal sources which were contaminated with spores. We are 
seeing patients now who do not report having areas of skin that 
were damaged prior to developing a lesion. So there may be 
something that is different about this in our past experience, 
suggesting that disease could occur under those circumstances.
    Dr. Weldon. The question of level of exposure is a question 
I'm getting asked a great deal. We have a situation in the 
Longworth Building here on Capitol Hill. In the case of one of 
the offices, it was a surveillance wipe that came up positive. 
The method that's used, as I understand, they take something 
resembling a four by four gauze pad and rub it on a series of 
desks and then they put it in a vial with some buffered 
solution, spin it down, extract a sample of fluid out and plate 
that.
    As I understand it, in these offices they got very little 
growth. They got a few colonies on a plate. It is my opinion, 
my medical opinion, that a level of anthrax like that poses no 
threat for inhalation anthrax, and it only poses a threat for 
cutaneous anthrax if you had an open skin lesion and you 
happened to get the anthrax into that area.
    Would you concur with that?
    Dr. Cohen. Generally, yes, I would agree. I think that 
you're talking about fairly low levels of presence of spores. 
In addition, there were studies that were done in the 1950's 
that showed that these types of particles that fell out of an 
initial aerosol were generally heavier and were difficult to 
re-aerosolize, so that they would be in fact even less of a 
risk for inhalation disease.
    I think the risk, as you suggest, perhaps, would be to 
cutaneous. Again, we have this unknown as to whether or not 
there may be some factor that might make normal skin 
susceptible. But I would agree with your assessment.
    Dr. Weldon. Based on the fact that we have surveillance 
tests coming up positive on a lot of postal equipment, but we 
do not have reports of a letter with powder in them, it has 
been presumed that a lot of this is cross-contamination, and 
it's been reported that the particles in the letter to Senator 
Daschle's office was very, very fine and had the ability to get 
through an envelope.
    Is it safe to say that some of this that is coming up 
positive, the anthrax, does not likely pose a threat of inhaled 
anthrax for the postal workers in those areas, but more a 
cutaneous threat?
    Dr. Cohen. Again, I think that it would in part relate to 
how it got there. For example, if the letter was torn and some 
of the powder spilled out, if someone generated an aerosol with 
that by, say, using a high pressure hose or something, then you 
could potentially get particles into the air that could be a 
risk. If these were particles----
    Dr. Weldon. And that's what happened at Brentwood, it's 
believed, they were using a compressed air gun to clean out 
sorting machines?
    Dr. Cohen. Again, that's one of the hypotheses as to how an 
aerosol could be created.
    Dr. Weldon. I'm out of time. Can I just ask you a question, 
though? What happened down in Florida? Was there a letter that 
came through? Is there evidence of the letter down there? And 
have the postal facilities down there in Florida where the mail 
that went to that publishing company, have they all been 
screened with surveillance cultures down in Florida?
    Dr. Cohen. Yes, there has been an extensive evaluation. It 
is assumed that there was at least one letter that was received 
by the company. None of them have been identified in part 
because of the interval from when it would have been received 
and when the investigation was actually begun.
    Dr. Weldon. Was an attempt to go through their garbage 
processing facilities made at all to determine if a letter came 
through that had----
    Dr. Cohen. The FBI would like to answer.
    Mr. Jarboe. Yes, sir. Unfortunately, the material, waste 
material that goes from the company, AMI, in Florida, is 
incinerated. So we didn't have an opportunity to go through it 
and dig up any letters to find out where it came from.
    Dr. Weldon. OK. I think my time has expired.
    Mr. Burton. Ms. Norton.
    Ms. Norton. Thank you very much, Mr. Chairman.
    Institutions other than Government buildings, as you might 
imagine here, where mostly anthrax has been found, are trying 
to be proactive and preventive. As I indicated in my own 
remarks, they saw the House close down before anything was 
found, based on something that was found in another building. 
So there is great confusion about how to take the appropriate 
preventive steps.
    May I ask you whether you think the neighborhood post 
offices, the Friendship Heights post office and the southwest 
neighborhood post office, in light of the precedents that have 
been set for Government buildings, should be closed down? The 
Supreme Court was closed down when trace amounts were found. 
The House was closed down before any amounts were found. Now, 
of course, some trace amounts have been found.
    Is the standard that when you suspect that there may be a 
problem, the institution itself should close, the building 
should close because we don't know enough at this point to 
guarantee the health of people? What would you suggest in light 
of what is happening in Government buildings that others do to 
protect their employees and their clients?
    Mr. Weaver. I'll take the first shot at that. I think there 
are some health considerations there too that I'm really not 
qualified to respond to.
    Ms. Norton. Yes, both of you need to answer that one.
    Mr. Weaver. But in the case of the Postal Service, and I'm 
sure you'll get a much fuller briefing when the Postmaster 
General comes in the next panel, but a lot of it depends on the 
facility and the square footage and the size of the facility we 
find it in.
    Ms. Norton. That's why I gave you two examples. These are 
two neighborhood post offices.
    Mr. Weaver. I think where it is confined and there is again 
an opportunity that it may be spread in a smaller location, 
that's probably more prone for closure at that time than if it 
were a massive facility where we could cordon off a specific 
area and deal with the problem in that way. I'll defer to my 
expert in the health field to comment.
    Dr. Cohen. I think it would have to be done really on a 
case by case basis. Because some of the variables that you're 
hearing come to play. The size, whether or not there was 
illness there which might suggest the difference in risk that 
people would have. I think that all of those things have to be 
looked at and a decision made on the level of contamination, 
disease and a variety of factors.
    Ms. Norton. I presume that there's not a great level of 
contamination in both of these neighborhood post offices, 
because as I understand, they are not closed down. Is that 
correct? These two neighborhood post offices are not closed 
down?
    Mr. Weaver. No, they are not. As far as I know, they are 
not.
    Ms. Norton. The case by case notion is one that I 
understand generically. Some of the factors you named might be 
important for people to understand the differences. There is 
terrible suspicion, most of it unfounded, I have to tell you, I 
believe it is entirely unfounded, that there was a class bias 
and certainly an official bias that officials of the Government 
who in fact are paid to take risks were willing to take none, 
and that low level people who have ordinary jobs, who are not 
paid to take risks.
    So this difference simply has to be cleared up. It's not 
enough to tell us that it's done on a case by case basis, when 
all the cases that get closed down are uppity-up, and all the 
places that are left open are closer to the people. So we need 
you to spell out as soon as you can to the general public how, 
what size means. The people in New York don't have any reason 
to understand why Brentwood was closed down, and they were not, 
why a single trace has kept the Longworth closed for days, even 
though we're told that trace doesn't really signify danger.
    These differences need to be explained, or we all are going 
to have the credibility problems we now have and deserve, and 
I'm not willing to stand behind the differences even though I 
understand, analytically, as I follow them, why they occurred.
    I'd like to know this. Is it not true that----
    Mr. Shays [assuming Chair]. I'm sorry, just let me allow 
the gentlelady to ask her question, get a response. We're in an 
awkward--even though the time is up. We're in an awkward 
situation. Mr. Jarboe, we are somewhat duty bound to let you 
leave at 1:30. It's my understanding you have a meeting at the 
White House and you need to leave now, is that correct?
    Mr. Jarboe. Yes, sir, that's correct.
    Mr. Shays. Is there anyone who can take your place?
    Mr. Jarboe. No, sir.
    Mr. Shays. So we need to let you go, regretfully.
    Mr. Kucinich. Mr. Chairman, just a point of information 
here. I can appreciate that Mr. Jarboe has to go to a meeting 
at the White House. But since Mr. Jarboe knew he had to go to a 
meeting at the White House, it would have seemed appropriate if 
he had somebody else who would have been able to speak for the 
FBI. I just point that out on the record.
    Mr. Shays. I think that's a mistake on the committee's 
part. We should have made that clear, regretfully. So you are 
free to go. This is something we'll try to make sure doesn't 
happen in the future.
    And ask your question, please, if we could have a short 
answer and then we'll keep things moving.
    Ms. Norton. I'd like to know about, as best as I've been 
able to tell, the latest and most relevant experience with 
anthrax has been in the armed forces, where people in the 
Persian Gulf, of course, had vaccinations, the whole rest of 
it. How much of that experience has been shared with you? How 
much of that experience is factored into your work? What is the 
nature of your relationship with people in the armed forces 
that may have had greater experience than the rest of us in 
this country?
    Dr. Cohen. We work very closely with the folks in the 
Department of Defense. The actual experience for anthrax 
disease, though, really dates to the last century in then 
United States. There have been, since the early 1950's, for 
example, a little over 250 cases. Most of those have been skin 
infections. There were only 18 cases of inhalational anthrax in 
the entire 20th century. So there has not been a great deal of 
experience with anthrax.
    Ms. Norton. And there was none in the Persian Gulf? No 
member of the armed forces in fact contracted anthrax in the 
Persian Gulf?
    Dr. Cohen. I'm not aware of any cases.
    Ms. Norton. Mr. Chairman, is my time up?
    Mr. Shays. Yes, your time has long passed. But given the 
location of your district, we wanted to give you a little extra 
time.
    I would recognize Mr. Horn.
    Mr. Horn. Thank you, Mr. Chairman.
    This is directed to you, Dr. Cohen, in your Director role 
for the Centers for Disease Control and Prevention in some of 
the sections. On October 5th, the Subcommittee on Government 
Efficiency, Financial Management and Intergovernmental 
Relations, which I chair, held a hearing on bioterrorism 
response preparedness. Dr. Scott Lilibridge, Secretary 
Thompson, Special Assistant for National Security Issues and 
Emergency Management, he testified before our subcommittee.
    At that point, Federal officials knew that Bob Stevens had 
been diagnosed with inhalation of the anthrax in Florida. And 
they believed his case stemmed from natural causes.
    At our hearing, Dr. Lilibridge said, ``At this point, we 
are advised by the FBI that this does not seem to be a 
biological agent attack. We are not finding secondary cases. 
This person, Mr. Stevens, became ill nearly a week ago and by 
that time, we certainly should see additional cases if this was 
going to be a widespread problem.'' Even in the light of the 
limited amount of information available at that time, do you 
think Mr. Lilibridge's statement was either overly wrong or 
optimistic?
    Dr. Cohen. I think at that point in time, all of us hoped 
that there was a natural explanation. As I pointed out before, 
most of the cases in the United States had explanations, so 
that it was possible that there might have been an exposure to 
an animal product by which he could have acquired the disease. 
So I think that all of us hoped there would be a natural 
explanation to it.
    Mr. Horn. Well, at that time, news reports indicated that 
Mr. Stevens was originally believed to have meningitis. Is that 
correct?
    Dr. Cohen. Yes, sir.
    Mr. Horn. Preliminary tests on his co-worker, Ernesto 
Blanco, indicated Mr. Blanco did not have anthrax. Yet anthrax 
bacteria were later found in his nasal passages. Could anything 
have been done differently to obtain a more accurate diagnosis 
of this or other cases earlier?
    Dr. Cohen. Well, there were additional studies conducted. 
Some of those studies require a length of time, for example, 
serologic tests require a length of time for the human body to 
make antibodies. That's one of the tests that we can do. There 
are some tests that are more rapid, for example, the PCR test. 
When Mr. Blanco actually developed a pleural effusion, one of 
those tests were done on the pleural fluid, indicating further 
evidence that he was likely infected with anthrax.
    So there were a number of tests that were being employed to 
try to determine whether or not the illness that he had could 
have been anthrax. His initial presentation was not classical 
for anthrax. And I think as we've seen in several of the other 
patients, there are some differences in the way they are 
presenting at hospitals in contrast to what we've expected to 
see with inhalation anthrax.
    Mr. Horn. In light of that situation you just talked about, 
the number of anthrax cases that have appeared since October 
5th, a number of them, what lessons has the public health 
community learned from this disease, how is it contracted, and 
how can it be contained and treated, and to what degree is the 
Centers for Disease Control and Prevention sending guidance to 
the hospitals of America and the doctors?
    Dr. Cohen. One of the most critical things that we can do 
is educate health care providers that these are the symptoms 
and signs of these diseases, and to report them. In fact, with 
Mr. Stevens, I think this was an example that, where a 
physician recognized that this was something unusual and 
quickly notified the health department, which then commenced 
the investigation.
    We have done a variety of other additional activities. 
We've been trying to educate health care providers through 
satellite conferences, other kinds of informational material. 
Surveillance is critical, because there is no guarantee that 
this or any other disease would be announced. So the people who 
will recognize it are the health care providers.
    Mr. Horn. In New York, I believe, the doctor really didn't 
know what was before him, but he put the right, Cipro, the 
right medicine to help him. And when they finally discovered 
it, he was way ahead of everybody else.
    Dr. Cohen. It was a good diagnostic choice.
    Mr. Horn. Yes. Anything that you've done or are going to do 
in terms of hospitals and doctors? Have you got some method 
that you can do it across all the people in the United States?
    Dr. Cohen. We're looking at as many opportunities as 
possible to try to educate physicians and other health care 
providers to make them aware about this and other diseases. As 
I said, we've worked with various groups, American Medical 
Association, through satellite conferences, Infectious Disease 
Society of America, there are many efforts to try to do this.
    Mr. Shays. Thank you. I'm going to be a little more strict 
on the 5-minute rule, because we need to get to the Postmaster 
eventually. Mrs. Maloney, you have 5 minutes.
    Mrs. Maloney. Thank you very much. I'd like to thank both 
of you for your hard work here for the Nation and really in 
particular for New York. New York faces yet another crisis. In 
my district, at the Manhattan Eye, Ear and Throat Hospital, a 
woman has come down with anthrax. She's in serious condition in 
the hospital. I'd like to know if you know anything about her 
condition and her case.
    And second, I'd like to go back to the inconsistent 
responses. I represent many postal workers, and many of them 
are not going to work. They're concerned about their health. 
Their question to me is, why is our large sorting center where 
anthrax spores have been found open, yet here in Washington, 
buildings were closed that they just reviewed and they didn't 
even find anthrax. In fact, there have been at least four 
buildings and several mail facilities in D.C. that are closed, 
and in New York--and in New Jersey several postal facilities 
are closed.
    But in New York, facilities known to be infected and 
contaminated with anthrax remain open. This is of tremendous 
concern and I request permission to put into the record a 
letter that I've written to the Postmaster General asking for 
clear guidance on this particular item.
    Also there are questions on the treatment. Some people have 
been told to take Cipro, some people have been told to take 
Doxycycline. Does this mean that Cipro and Doxycycline are 
equally effective? And if you were exposed to anthrax, what 
medication would you take?
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T7387.079
    
    [GRAPHIC] [TIFF OMITTED] T7387.080
    
    [GRAPHIC] [TIFF OMITTED] T7387.081
    
    [GRAPHIC] [TIFF OMITTED] T7387.082
    
    Dr. Cohen. Let me start off. Yes, Cipro and Doxy are 
equally effective in treating anthrax. So the strategy has 
been, since initially one did not know which antibiotics to 
which the bacteria was susceptible, that the most conservative 
choice was to use Cipro. But once that information was 
available, Doxycycline is a very effective drug. There are some 
issues about side effects, so that both drugs have a role and 
both drugs can be equally used.
    The patient, I did not have an update from this morning, 
but my understanding was that the patient was quite ill and was 
on a respirator. But I do not know any further information.
    With respect to the closing of facilities, in each instance 
we've tried to work with the various groups that are 
responsible for making those decisions and providing 
recommendations. In many instances there are different groups. 
So some of the different decisions may reflect the fact that 
there are different decisionmakers.
    Mrs. Maloney. We need to have a unified approach.
    Dr. Cohen. Well, we are trying to work with, again, the 
concept of doing things on a case by cases basis is important, 
as well as that our knowledge is evolving in this as we go 
through it. We're getting more information to help us make 
those decisions.
    But we do want to remain flexible, because we're getting 
input from a variety of different sources. So we're trying to 
approach something that is somewhat standard. But again, we 
want to maintain some degree of flexibility.
    Mrs. Maloney. Could you talk about the side effects of 
these antibiotics?
    Dr. Cohen. There are various side effects that are 
associated with them. Some are skin rashes that may be 
associated with them, some may be other types of, different 
kinds of manifestations, neurologic manifestations, some that 
are more prominent in older people.
    I think the important point is that there is a delicate 
balance in trying to make a decision about who you prophylax 
and who you don't prophylax. Because there are side effects 
that can occur.
    Mrs. Maloney. Can you explain the reasons why some postal 
workers were given a nasal swab test and others were not?
    Dr. Cohen. Yes. The nasal swab is not diagnostic. We're not 
trying to determine if that person has an exposure to anthrax. 
It's helpful in the epidemiologic investigation. And in fact, 
we're more concerned that people would have a false sense of 
security because they would have a negative nasal swab. So it's 
important that we identify who is at risk for the exposure.
    Now, the nasal swab can help us identify the areas where 
that's occurring, but not all the people who are in fact 
exposed and need treatment.
    Mrs. Maloney. If a nasal swab can't determine, is there 
research taking place now so that we can determine, tests that 
we can determine?
    Dr. Cohen. At this point, one of the areas that we're 
beginning to think about is, are there rapid tests that we 
could use in people who present to the hospital that might be 
able to differentiate between anthrax and other diseases. So 
we've begun considering the possibility of those types of 
tests.
    Mrs. Maloney. My time is up.
    Mr. Burton [resuming Chair]. Mrs. Davis.
    Mrs. Davis of Virginia. Mr. Chairman, I would be happy to 
yield to you for a short question.
    Mr. Burton. OK, this will be a real short question.
    We had hearings on the anthrax issue and the military and 
the vaccines. We understand there's about 28 different strains 
of anthrax. The only thing I'd like to ask you is, because the 
anthrax was a threat to the military, why didn't CDC and the 
Postal Service and the other agencies in our Government think 
about the possibility that there might be an attack on the 
population of the United States in addition to the military? 
And why wasn't something done about that beforehand? I'm not 
trying to blame anybody, I'm just wondering why they didn't 
think about that.
    Dr. Cohen. There has been a number of activities that have 
been interdepartmental, where folks have tried to get together 
and discuss the types of activities needed to be done to 
prepare for any kind of an event like this. From CDC's 
perspective, one of the critical elements was trying to build 
and rebuild the public health infrastructure, so that we could 
really better detect these kinds of phenomena. And that's both 
epidemiologic and laboratory, developing a network of 
laboratories where one could get a good confirmation fairly 
rapidly.
    So there are a number of activities that have gone on to 
try to detect. In addition, there have been efforts to 
stockpile various antimicrobial agents that would be necessary 
for the treatment of this and other diseases.
    Mr. Burton. Thank you, Mrs. Davis.
    Mrs. Davis of Virginia. Thank you, Mr. Chairman.
    I think I'm glad to hear that the traces of anthrax in 
Longworth is probably not threatening, and hopefully that means 
we can get back into our offices soon, because my staff would 
like to get back together.
    The question I have, I'm not sure who it would be for, but 
it involves the Brentwood postal facility. Several of my 
constituents in my district are non-profit organizations. For 
the last 10 days they've not received their business reply 
mail. And when they call to get answers as to why they're not 
getting it, they are getting other mail, but not that. The 
organization depends on that, and we're getting to the point, 
they're going to have to start laying off some employees, 
possibly.
    Can anyone give me any answer as to what the status of that 
type of mail is?
    Mr. Weaver. I can't give you a quick answer on it. We can 
certainly check on that and find out. But if that mail was 
entered into the system, they should be receiving it. We'll 
followup on that, ma'am, and find out.
    Mrs. Davis of Virginia. If you could followup and let me 
know, I'd certainly appreciate it.
    Mr. Weaver. Sure.
    Mrs. Davis of Virginia. Thank you, Mr. Chairman.
    Mr. Burton. You had no other questions?
    Mrs. Davis of Virginia. No, sir, I just needed to get that 
one in for my constituents.
    Mr. Burton. The gentlelady yields back her time.
    Mr. Kucinich.
    Mr. Kucinich. Dr. Cohen, we've heard my colleague from New 
York speak about the case where the Manhattan mail room 
employee contracted inhalational anthrax. Now, it's my 
understanding that this individual experienced preliminary 
symptoms 4 days before she was admitted. Are you aware of that?
    Dr. Cohen. I do not have specific clinical information.
    Mr. Kucinich. I think it would be helpful for the CDC to 
look into that, to make a determination whether or not this 
case could have been prevented.
    Now, what efforts, Dr. Cohen, has the CDC made to deliver 
clear public health messages to susceptible populations, namely 
postal workers and mail room employees?
    Dr. Cohen. We've been working both with the U.S. Postal 
Service and with their workers. We're trying at this point in 
time to finalize some interim recommendations that would help 
prevent the exposure to this disease. We're working in addition 
to that with educational activities. We have also actually 
provided a full time liaison to the U.S. Postal Service who has 
an office there to try and facilitate the coordination of all 
of these materials and information.
    Mr. Kucinich. You say you're working with them, but do you 
already have in place such public health messages from the CDC 
to the postal workers and mailroom employees? Are they in 
place?
    Dr. Cohen. We have actually been revising some of those, 
with discussions with the workers and the U.S. Postal Service.
    Mr. Kucinich. So you have them in place and you're revising 
them?
    Dr. Cohen. Yes.
    Mr. Kucinich. OK. Now, could you comment on if and how the 
CDC is keeping track of postal employees who work in 
contaminated areas? Is there some sort of comprehensive system, 
or is the CDC only aware of employees who have actually sought 
out treatment or checked in to receive testing or antibiotics?
    Dr. Cohen. Yes, the surveillance is being conducted by 
examining lists of employees who worked in affected areas, and 
actually doing active surveillance to determine their health 
status.
    Mr. Kucinich. So you're saying you're making sure that no 
postal employee would be experiencing preliminary symptoms of 
infection without ever having been in contact with the CDC or 
other health officials?
    Dr. Cohen. We can't guarantee every single person. But 
those who have worked in those areas that are identified as 
high risk are certainly under intense surveillance.
    Mr. Kucinich. Do you feel it's the CDC's responsibility to 
facilitate preemptive action and early intervention during a 
public health crisis?
    Dr. Cohen. We have traditionally tried to develop the best 
recommendations available based on the assessment of the 
scientific data, and provide those to the people who need to 
make those decisions.
    Mr. Kucinich. Do you feel that America's public health 
infrastructure has the capacity to deal with this anthrax 
crisis?
    Dr. Cohen. I think it's been recognized for a number of 
years that there have been weaknesses in U.S. public health 
infrastructure. It's part of the reason why there's been an 
effort to try to rebuild the public health infrastructure. I 
think we need to continue to do that going forward.
    Mr. Kucinich. Has the CDC issued any statements with 
respect to public health structures having search capacity, 
being able to effectively treat any influx of cases that may 
arise as a result of our current situation?
    Dr. Cohen. I believe part of the planning has been 
involving the issue of making sure that treatment is 
potentially available through the stockpile and through other 
mechanisms.
    Mr. Kucinich. What are you doing with respect to 
communicating with the Nation's physicians with respect to 
information about detection and treatment protocols for 
anthrax?
    Dr. Cohen. We've used a number of educational approaches, 
including satellite conferences. Our weekly publication, the 
morbidity and mortality weekly report, is a source for many 
physicians on information about current problems and treatment 
choices.
    Mr. Kucinich. What's the communication between the FBI and 
the CDC with respect to the release of information to the 
public?
    Dr. Cohen. We have been working very closely together. As 
Mr. Jarboe pointed out, I am the liaison between CDC and FBI. I 
have been there since October 8th trying to provide both the 
liaison function and perspective on the clinical and 
microbiologic aspects with respect to their investigation.
    Mr. Kucinich. Are you aware of any instances where the FBI 
held out information for the purposes of a criminal 
investigation and that delayed by even a day the communication 
of that information to public health authorities?
    Dr. Cohen. As Mr. Jarboe pointed out, I was in the meeting 
on the night of October 15th when we had the preliminary 
description of the material that was being examined at Fort 
Dietrich. That information was rapidly transferred to CDC by a 
conference call within 1 to 2 hours and shared at that point.
    Within the next day or so I was shown copies, detailed 
photomicrographs of the various envelopes and materials for 
further information.
    Mr. Kucinich. Thank you.
    Mr. Burton. Thank you, Mr. Kucinich. Mr. Shays.
    Mr. Shays. Thank you, Mr. Chairman.
    Mr. Weaver, thank you for being here, and Dr. Cohen, both 
of you for being here.
    Mr. Weaver, it's my understanding that the oldest law 
enforcement agency in the country happens to be your agency.
    Mr. Weaver. That's correct.
    Mr. Shays. And you all have a fine tradition and obviously 
a very long history. I'm interested to know how the law that we 
recently passed and was signed into law dealing with wiretaps 
and the sharing of information is going to impact your job.
    Mr. Weaver. Well, certainly I think it gives law 
enforcement a little more flexibility to do their job. At the 
same time, of course, we've got to be careful on how we use 
that, that we protect people's rights also. But I think it's 
going to give us the flexibility to have more access to 
information, readily available information, some of that on the 
wiretap.
    Of course, you were only allowed to go to a certain 
physical piece of equipment in the past. But now that has 
changed to where it's more or less going to follow the 
individual. So I think it is a benefit.
    Mr. Shays. In your previous investigations, did you believe 
that you were sometimes involved with terrorist organizations 
or is terrorism kind of a new concept for your agency to be 
dealing with?
    Mr. Weaver. I think we're all learning that terrorism takes 
on many forms. Certainly September 11th was a terrorist act. 
And there have been many questions on whether the anthrax 
incidents are directly related to that.
    Mr. Shays. I consider that almost an irrelevant issue. I 
mean, these are terrorist acts, aren't they?
    Mr. Weaver. Yes, I was going to make the point that 
regardless, this is still an act of terrorism, and we are 
treating it as such.
    Mr. Shays. Yes, I can't think of anything even remotely 
suggesting it wouldn't be an act of terrorism.
    Mr. Weaver. Right.
    Mr. Shays. These are acts against the general public, they 
are indiscriminate and they do exactly what terrorism is 
intended to do, they have paralyzed and shut down certain 
sectors of our activities. So you don't have any doubt in your 
mind that you're fighting terrorism, whether or not it comes 
from bin Laden or any other group?
    Mr. Weaver. Not at all.
    Mr. Shays. The question I want to know, though, is I'd like 
to have a more concrete kind of example of how you will be able 
to utilize this law that can make me feel safer that because 
you have this law, you're going to be able to solve the crime 
more quickly. Is there anything in the past that you can draw 
on that said, my gosh, if we had this law, we might have been 
able to----
    Mr. Weaver. It doesn't jump right out at me, Congressman.
    Mr. Shays. OK.
    Mr. Weaver. But let me think about it, and I would like to 
get back to you.
    Mr. Shays. Are you in need of any additional resources that 
aren't available to you right now?
    Mr. Weaver. I think we're looking at that very closely. The 
whole environment's going to change from a security standpoint. 
We're looking at putting technology into our facilities to help 
us. I'm sure the Postmaster General will talk about that in the 
next panel.
    Again, I think we have the resources we need to do the job. 
They're strained right now.
    Mr. Shays. I don't understand, candidly, why you feel you 
have the resources. The only way I could suggest that you do is 
if you had too many resources in the past. Do you have an 
excess of resources?
    Mr. Weaver. No, not at all.
    Mr. Shays. So aren't you being taxed a bit more than in the 
past?
    Mr. Weaver. Yes.
    Mr. Shays. So can I make a natural assumption that you need 
to assess, let me say it this way, can I make an assumption 
that you need more resources? It's a question of what resources 
you need and how quickly you need them?
    Mr. Weaver. Well, the thing is, we've diverted resources. 
Again, some of those resources that may have been working other 
crimes are not working those right now. So you're exactly 
right, if we're to continue at the same level plus take on 
terrorism, and if it continues, yes, I would say we need more 
resources.
    Mr. Shays. I'll just say, my concern would be that 
sometimes we in the legislative side don't do what we should 
do. But if you don't ask for them, then we're not going to be 
as aware of them. I would think that you will need to come 
forward with a tremendous amount of thoughtful requests. I 
realize this is all new. But I hope that you're having time, 
besides coming to testify, where you can do that.
    Dr. Cohen, I fail to understand why we get in this debate 
if it's weaponized or not, if in fact whatever we're dealing 
with in anthrax is a weapon. So is some of this debate--you 
know what, my time is over. I know we need to move forward. So 
I'm going to withdraw the question.
    Mr. Burton. Thank you, Mr. Shays.
    Let me just announce that the Postmaster has arrived. He's 
going to be with us until around 4 p.m. So we need to get him 
down here as quickly as possible. I don't want to cut anybody 
off, though. So, Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Dr. Cohen, I want to just go back to something the chairman 
was asking about, with regard to these anthrax vaccines. When 
we had testimony before this committee several months ago, one 
of the things that was very interesting, and it just kind of 
got some of us, I think, a bit alarmed, was that there were so 
many people who came before the committee who had an adverse 
reaction to the vaccine. What's the status of that with regard 
to vaccines for anthrax?
    Dr. Cohen. Well, we're actually currently under a 
congressional mandate examining the side effects and new 
regimens for administering the current anthrax vaccine. Plus 
there is research going on in a variety of institutions, 
including National Institutes of Health, that are attempting to 
develop new and more hopefully effective vaccines.
    Mr. Cummings. When I visited the main post office in 
Baltimore, it was very interesting to see. I mean, this is a 
big post office. Lot of machinery going, and I think two or 
three floors of machinery going. I keep going back to the 
question Ms. Norton was asking about how do you determine when 
to close a facility.
    Do you give advice to the post office as to when they 
should close a facility?
    Dr. Cohen. We try to, whoever the partner is that's 
responsible for the----
    Mr. Cummings. Well, right now I'm talking about the postal 
system. Are you the key person, one of the key people from a 
health standpoint to give advice to them?
    Dr. Cohen. Actually, the individuals who are in the 
particular geographic area who are part of the team would be 
the key people, because they have developed all the specific 
data. So they would work with them. Plus, as I said, we have a 
liaison now who is working directly with the U.S. Postal 
Service and with the U.S. postal workers. That's a combination, 
then, of the people in the field as well as the liaison 
providing the technological and scientific support.
    Mr. Cummings. When I was in Baltimore, a number of the 
people who I met with, employees, said that they had been in 
the Brentwood facility but they had never gotten any kind of 
test. And they were kind of concerned, because they said, you 
know, it seems like if we had been, if we had visited that 
facility or picked up mail, whatever, a lot of these guys were 
drivers, these were all men, and they were drivers. They said, 
we don't understand, why aren't we being given a test. And they 
were very upset about that.
    How is that determined, who gets the test?
    Dr. Cohen. Well, the test is not used to determine whether 
a person has been exposed or is at risk for the disease. It's 
helpful in defining the area in which people may have worked, 
so that people who do go to that area, regardless of whether 
they have a test, whether they have positive test or not, are 
offered prophylaxis. So the test doesn't tell a person whether 
they're at risk or not, at risk for developing anthrax.
    Mr. Cummings. So a lot of the people who are now taking 
Cipro and the other medications may very well not have anthrax, 
is that right?
    Dr. Cohen. Yes, that's correct, although they were 
potentially in an area of exposure, and therefore it indicated 
they receive prophylaxis.
    Mr. Cummings. One of the things that was also interesting 
in the Baltimore post office is that you had a number of people 
who had gloves, some had gloves and masks, others had gloves, 
others just had masks. I was wondering, and perhaps you, Mr. 
Weaver, might want to address that. What is the advice that 
you're giving them, and what good do the gloves or the masks 
do?
    Mr. Weaver. Well, we have made gloves and masks available 
to all employees. Again, it's been highly recommended that if 
they are in an area where they're handling mail, or around 
machinery, that they wear that equipment.
    One thing I'd also like to mention on a prior comment you 
made, for those employees that visited the Brentwood facility 
on the workroom floor or in the back dock area, either dropping 
off mail or picking up mail. We have put the alert out that 
they should report in and get the medication.
    Mr. Cummings. OK, well, maybe that's happened since I met 
with them. That's good. I'm glad to know that.
    What I want to go back to is the gloves and the masks. What 
advice did you base that on? In other words, the distribution 
of the gloves and the masks? Are you following me?
    Mr. Weaver. Yes. Early on, even when we got indications 
from Boca Raton that mail may be involved in the anthrax 
situation, the Postmaster General went out and made gloves and 
masks available. Initially there was some concern that, well, 
we can't wear gloves with the mechanization and it might 
present a problem. But they have since resolved that, and I 
know we've spent a lot of money getting the proper equipment, 
the proper types of masks, to lower the risks that employees 
might contract it.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Mr. Burton. Thank you, Mr. Cummings. Mr. Otter.
    Mr. Otter. Thank you very much, Mr. Chairman.
    Gentlemen, thank you very much for being here with us 
today. Last night, we had another report of an anthrax by 
inhalation, in fact, the first one in New York City. That is 
the first one, isn't it?
    Dr. Cohen. I believe so, yes.
    Mr. Otter. And it was also reported that this lady did not 
work directly in the mail room in handling the mail and that 
sort of thing. Is there any speculation, or maybe that's a 
dangerous word right now, but would you have any idea how she 
would have contracted that?
    Dr. Cohen. I think that would be one of the major thrusts 
of the investigation, trying to determine if there's potential 
exposures.
    Mr. Otter. Also in the mail, in my mail last night at home, 
not here, I received a very informative card. It told me as it 
did, I'm sure, all patrons, what to do if they received some 
suspicious mail and what to look for and how to handle it, and 
what to do to protect themselves. I think that's very 
informative.
    I'm wondering, sort of out loud now, there would a 
different treatment for anthrax as opposed to, say, some kind 
of a chemical agent, wouldn't there?
    Dr. Cohen. Yes, there would be.
    Mr. Otter. Would the Post Office or would the CDC advise 
the post office to sort of get ahead of the game and say, in 
this, if a chemical agent is being transferred via the mail, 
this is the action that you ought to take and this is what you 
ought to look for? Perhaps Mr. Weaver would be better----
    Mr. Weaver. Yes, Congressman, and again, I think the advice 
we give out is many times very generic. No. 1, if you receive 
something in the mail that you don't expect, everybody kind of 
knows what kind of mail you receive at home. You look through 
it and you say, yes, I know what that is and that is. If you're 
not expecting it, if it doesn't have a return address on it, if 
the return address on it is fictitious or if it has markings on 
the mail that are unfamiliar to you, if there appears to be 
something bulky in the piece of mail, certainly if there's 
something emitting from it, whether it be a chemical or whether 
it be a powder.
    So they're very similar, the types of messages that we send 
out. But every time we run into a situation like this, 
certainly we need to adjust.
    Mr. Otter. Thank you very much. Thank you, Mr. Chairman.
    Mr. Burton. Mr. Davis.
    Mr. Davis of Illinois. Thank you, Mr. Chairman.
    Dr. Cohen, it's my understanding that both the CDC and 
private companies are doing testing for the presence of 
anthrax. Is that correct?
    Dr. Cohen. Yes, that's correct.
    Mr. Davis of Illinois. What's the CDC's role in making sure 
that these companies, if there is any, are actually equipped 
and able to determine whether or not there is the presence of 
anthrax? Did you assess the companies?
    Dr. Cohen. We have had some of our laboratorians visit with 
the contractors and to go over some of the strategies that we 
use, some of the methodologies, recommendations about quality 
control for those. So in many instances, we're an available 
resource and would have direct interactions as indicated.
    Mr. Davis of Illinois. And you don't have any concerns 
about whether or not any of these actually have the 
qualifications that are necessary in order to do the work?
    Dr. Cohen. I don't know exactly the extent of who has been 
contracted by all of the private facilities.
    Mr. Davis of Illinois. Let me just ask, let's say I'm a 
postal worker. What is it that I need to know or need to 
understand or need to have heard about in a particular facility 
that I might work in to determine whether, I mean, I hear 
people saying that they don't feel comfortable going to work, 
or that absenteeism is up, and I assume that's the case, it's 
because individuals feel unsafe and insecure and feel that they 
might become contaminated.
    What do I need to know, as an employee, to feel comfortable 
and secure that I can go to work and be protected?
    Dr. Cohen. I think that's one of the major reasons why it's 
important for us to work with the Postal Service and the 
workers to develop an education program that answers those 
questions. Because I could talk about the low likelihood of 
risk because of the few spores. But that may not be the answers 
that they want or need. So that's why I think it's so critical 
for us to work together to find out the answers to those 
questions and provide it to them.
    Mr. Davis of Illinois. So you're pretty much suggesting 
that there are no quick and easy solutions, that there are no 
absolute standards and outright conditions that we can 
guarantee, that yes, everything is fine.
    Dr. Cohen. I think it would be very difficult to have any 
absolutes that would guarantee that no one would become exposed 
or become ill. There's a number of things that could be done to 
reduce the likelihood that people can become exposed and become 
sick. But I think it would be very hard to deal with absolutes, 
particularly since we're talking about an intentional act, that 
we do not have control over, as much as when we deal with a 
disease in a natural environment.
    Mr. Davis of Illinois. And so the realities are that we 
simply have to continue to work, explore, generate the 
resources that are necessary if additional resources are needed 
in order to reach the point where we can in fact feel 
comfortable that people can go to work and not become 
contaminated, and will be fine?
    Dr. Cohen. I think it's continuing to evolve, and we have 
to work together to try to get the answers to those questions 
to reduce the risks as much as feasible.
    Mr. Davis of Illinois. I thank the gentleman. I yield back, 
Mr. Chairman.
    Mr. Burton. Thank you, Mr. Davis. Mrs. Mink.
    Mrs. Mink. Thank you very much, Mr. Chairman.
    Mr. Burton. Excuse me just a minute, Mrs. Mink. Mr. Horn, 
you had something you wanted to submit for the record?
    Mr. Horn. Mr. Chairman, I'd like to include in the record 
the following question. If I look through the testimony, the 
Postmaster General gave us two human beings. And when I asked 
my question, I had a human being there. The rest of it is sort 
of very important and all that, how many we did this and that.
    But I'd like to put in the record at this point how many 
have that, and unless they don't want privacy on it, and put 
them in here so that 4 months from now or something, where are 
we with real people. Machiavelli, the Italian theorist, he said 
if you really want people to forget all these things, put an 
individual in your concerns and not thousands of people, 
because they can't take it. So I'd like to see the people that 
were----
    Mr. Burton. We'll ask the agencies to give us a list of all 
those people for the record.
    Mrs. Mink.
    Mrs. Mink. Thank you, Mr. Chairman.
    I have some very basic questions I want to ask Mr. Weaver, 
having to do with the receipt of the letter in Senator 
Daschle's office. What was the postmark on that letter?
    Mr. Weaver. The postmark was September 18th, from Trenton, 
NJ.
    Mrs. Mink. So that would be the Trenton facility that was 
closed on October 18th, is that correct?
    Mr. Weaver. That's correct, yes.
    Mrs. Mink. So that letter somehow was deposited in a 
mailbox and then went through the sorting devices in the 
Trenton facility and then where did it go? What was its next 
stop?
    Mr. Weaver. Then it would have been transported from 
Trenton down to the Brentwood facility.
    Mrs. Mink. Now, at the Brentwood facility, it was sorted 
out and where would it have gone prior to its arrival at Mr. 
Daschle's office?
    Mr. Weaver. It would have gone into the Government mails 
section. We have a section that specifically works all 
Governmental mails.
    Mrs. Mink. Where, at the Brentwood facility?
    Mr. Weaver. At the Brentwood facility, yes. Then it would 
have been transferred from there to the Senate mail room 
operation.
    Mrs. Mink. Now, at the Brentwood facility, would it have 
gone through the general distribution system before it went to 
the Government sorting facility?
    Mr. Weaver. Yes, it would have.
    Mrs. Mink. So once you closed the Brentwood facility on 
October 21st, following the closure of the Trenton facility on 
the 18th, how has the new mail coming from wherever, all parts 
of the country, where has that new mail gone to and why is it 
not reaching the constituents?
    Mr. Weaver. That mail has come in and what used to go into 
the Government mail section is now being held at the present 
time.
    Mrs. Mink. I'm not talking about the Government facility. 
I'm talking about all the rest of the mail. Once that facility 
was closed, we hear that people are not getting their mail 
delivered.
    Mr. Weaver. I see. Yes, I believe the Postmaster General or 
the Chief Operating Officer, who will be here in the next 
panel, can give you some detailed explanation of where. But I 
believe the answer is, it is being processed in another 
facility in the Washington, DC, area.
    Mrs. Mink. So all the mail that was supposed to have gone 
to Brentwood after the 21st is being diverted elsewhere?
    Mr. Weaver. Yes, that's correct.
    Mrs. Mink. With the exception of the Government mail and by 
that I mean the Congress, the White House, State Department, 
etc.?
    Mr. Weaver. That's correct.
    Mrs. Mink. So the contamination of the Supreme Court, the 
State Department, CIA and the Longworth and Ford, all occurred 
as a result of mail that was distributed prior to October 21st, 
is that correct?
    Mr. Weaver. We don't know. And I don't think we can 
speculate.
    Mrs. Mink. Well, the mail facility was closed after the 
21st. So nothing went out.
    Mr. Weaver. Well, the options there are that there was 
cross-contamination because of that. Again, I'd ask Dr. Cohen 
to comment on the possibility of that. Or there may be another 
piece of mail somewhere.
    Mrs. Mink. No, my question is mail that would have gone 
through the Brentwood facility but did not because that 
facility was closed on the 21st, and it was diverted elsewhere. 
Are you saying now that mail might also be contaminated?
    Mr. Weaver. Well, I don't know at this point. And I'm not 
speculating on that. I don't know if I'm missing something 
here.
    Mrs. Mink. Well, I just wanted to know what's happening to 
the mail that would have gone to Brentwood but did not, because 
it's now closed.
    Mr. Weaver. I would suggest maybe the next panel may 
enlighten you a little further.
    Mrs. Mink. Is that not part of your Inspector General's 
inquiry right now?
    Mr. Weaver. Well, I'm not the Inspector General. I'm the 
law enforcement side of the Postal Service.
    Mrs. Mink. That law enforcement side of the Postal Service 
is not making an inquiry as to what is happening?
    Mr. Weaver. Yes, we are. We're working with the FBI on the 
investigation and pursuing all those leads.
    Mrs. Mink. My question to Dr. Cohen has to do with the 
anthrax vaccine and its use for the Persian Gulf incident. Do 
you have any statistics with respect to the number of 
individuals given the vaccine at that time who became ill and 
had serious side effects?
    Dr. Cohen. No, I have none with that information.
    Mrs. Mink. There's no one that has that information?
    Dr. Cohen. I would assume that the Department of Defense 
would have some information about adverse events.
    Mrs. Mink. What would be the efficacy of the use of the 
anthrax vaccine now, given the circumstances of the threat on 
the health of the postal workers?
    Dr. Cohen. The vaccine was most extensively studied in 
people who worked in the fiber industries back in the 1950's 
and 1960's. That's where the efficacy was shown. I believe 
there would still be a comparable level of efficacy. But with 
any vaccine, the size of the infectious dose may impact how 
effective the vaccine is.
    Mr. Burton. The gentlelady's time has expired.
    The one thing I'd like to have you address before you 
conclude, though, is, I've been told there are 28 strains of 
anthrax. Would that vaccine be effective against all those 
strains?
    Dr. Cohen. I don't know to what extent there have been 
studies examining each of the strains. The vaccine is prepared 
to protect against a particular antigen that's present in these 
strains. So all the strains that cause disease that have this 
antigen would be protected against. I would assume that would 
be most of those that you describe.
    Mr. Burton. Ms. Watson, do you have any questions?
    Ms. Watson. We had a hearing in Los Angeles and we had all 
of your counterparts there. The question that has been on my 
mind, and I'm sure on the minds of lots of others, is how do we 
identify the powder? We have gotten calls into our offices 
about people who thought that the white powder on the floor of 
the restroom might have been anthrax.
    They have called and it appears that it's the color of 
cinnamon, maybe, amber to brown. I raised this question 
yesterday and they said they really didn't want to describe the 
way it looked, they'd rather investigate to see. Can you 
clarify, Dr. Cohen, for me, what it is we would look for in the 
bins at the Postal Service, what it is we would look for in our 
own offices when the mail would come?
    Dr. Cohen. Well, I'm not certain that you could feel with a 
high degree of comfort that a particular material did not 
represent anthrax unless it was appropriately examined by the 
laboratory. Again, we deal with the potential here that this is 
something that's being done with intent. So I think that again, 
although people are concerned, that they must be alert and 
cautious.
    Ms. Watson. What we're trying to do is cut down on the 
anxiety and the calls and of course, fire services, police 
services, the FBI and so on, are out there investigating. Is 
there any information that we can give the public in terms of 
what it is they suspect, and what a description might be so it 
would reduce the number of false alerts and calls and so on? Is 
there anything to look for, or should we just call when we see 
a suspicious looking powder?
    Dr. Cohen. I think the issue is primarily the 
recommendations that have been provided about what is a 
suspicious letter. I think we have information there.
    Ms. Watson. I think they've gotten that down pretty well.
    Dr. Cohen. OK. When you talk about a powder, I think it's 
very hard to provide any information that would be that 
helpful. The various law enforcement groups have ways of 
responding to the different calls.
    Ms. Watson. So they should continue to call the police?
    Dr. Cohen. I think that would be most prudent.
    Ms. Watson. Thank you.
    Mr. Burton. Ms. Schakowsky.
    Ms. Schakowsky. Thank you, Mr. Chairman.
    Mr. Weaver, I want to thank you on behalf of myself and my 
staff, because in the last 2 weeks, two letters that were 
destined for my district office were flagged by the Postal 
Service because they were suspicious. And in each case, the 
Postal Service called my office to make us aware of the 
situation and confirmed whether or not we were expecting the 
correspondence and then took extra steps to guarantee the 
safety of those parcels and ourselves.
    But what it made me think was, both of those letters came 
from overseas. If we track the mail from its origin to wherever 
it finally ends up, some of that is on airplanes. And I'm 
wondering if any of the mail thus far that was contaminated or 
if other mail has spearheaded any kind of an investigation of 
those cases where the mail may be, if we're going back further?
    Mr. Weaver. We're not ruling anything out. But bear in 
mind, we've got three pieces of mail right now.
    Mr. Chairman, if I could, I'd like to correct a statement I 
made earlier. I believe the Congresslady asked me the date on 
the Daschle mailing, and it was October 9th, not September 
18th. But as far as whether, in all presumption, this mail 
entered the mail stream in the Trenton area and was processed 
in that facility and would have traveled to Washington via 
highway. So right now, although we're not ruling out any 
possibility of the substances flying or that may be in the air, 
I don't think that was the case here.
    Ms. Schakowsky. I guess what I'm concerned about is, if 
we're trying to be proactive and prevent a problem, if we have 
taken under consideration the possibility that some of this may 
travel in different ways, and tracking those places in a more 
careful way.
    Mr. Weaver. I think what we are going to try to do is get 
ahead of the curve a little bit through technology and make 
sure that mail that we are not comfortable with, that we do 
screen that, even through technology, and make sure that if 
there is any bacteria in that mail, it's killed.
    Ms. Schakowsky. The mail of ordinary citizens, are ordinary 
citizens as safe from their mail, potential hazards, as Members 
of Congress? Are other people in my district being called that 
a letter was flagged? Or is that a special consideration for 
Members?
    Mr. Weaver. Not necessarily. We're screening at different 
locations, we are taking a hard look at it piece by piece. And 
I won't divulge exactly what we look for or where it's at. But 
we are doing some of that.
    But as far as the American people, I would like to say that 
I know this has been a tragic time and there is a lot of fear 
out there by the American people. It's understandable. We've 
had three letters go through our system, and I think even the 
chairman commented on the number of pieces that we've 
processed, and it's probably up to about 25 billion pieces. So 
the chances of the average customer receiving any of this are 
very remote. But one's too many.
    Ms. Schakowsky. Thank you.
    Dr. Cohen, what do we know about the source of the anthrax? 
It seems like there's been some conflicting reports on whether 
or not it contained an additive that was only made in Iraq, and 
first it didn't and then it does. Have we been able to 
determine anything to narrow the source?
    Dr. Cohen. In our laboratories, what we have primarily done 
is looked at the organisms. The tests we have done really tell 
us that the organisms are indistinguishable. It's unfortunate 
that the FBI couldn't comment more on the characteristics of 
the material. So the information that we have primarily deals 
with the organisms themselves rather than the powder.
    Ms. Schakowsky. Let me ask one final question. An 
epidemiologist who is familiar with a good deal of what we're 
trying to handle right now called and was concerned. Is the 
American public being told everything by the CDC? I certainly 
don't think we want to terrify people, but is there information 
being withheld, or as suspicions are aroused or as cases are 
being identified, do we know everything?
    Dr. Cohen. We're trying to share information as rapidly as 
possible that is important for the public health and the public 
to know and be educated. I think that early on, that there was 
a number of opportunities for us to perhaps talk more. But we 
were involved in the investigations, and I think now we're 
trying to use as much opportunity as possible to educate people 
and to let them know what we're doing.
    Ms. Schakowsky. What he said was, in war there are times 
when you want to keep information from the public, because we 
have strategic reasons. But when public health is involved, the 
more people know, the better.
    Dr. Cohen. I would agree.
    Ms. Schakowsky. Thank you.
    Mr. Burton. The gentlelady's time has expired. Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    Mr. Weaver, you mentioned there are three letters now that 
we're dealing with that we know of, the Daschle letter, the 
Brokaw letter, and----
    Mr. Weaver. The New York Post.
    Mr. Turner [continuing]. The New York Post. We have other 
instances of contamination that may or may not be related to a 
specific letter. Name those for me.
    Mr. Weaver. I don't think I can, Congressman. I don't know. 
We've got other cases where people have contracted cutaneous 
anthrax, and again, I think it's speculation where they got 
that and whether it was off a cross-contamination or not. But I 
don't have the exact number.
    Mr. Turner. So the media company in Florida, you're not 
ready to say that's related to a letter?
    Mr. Weaver. We suspect it was, but we do not have the 
actual document or the letter.
    Mr. Turner. And I guess you'd say the same about the 
situation in Dan Rather's office in New York?
    Mr. Weaver. That's correct. We do not have a physical 
document.
    Mr. Turner. And also the incident of the lady in New York 
at the hospital who was just discovered to be infected just 
yesterday?
    Mr. Weaver. Yes. That's under investigation and we're 
trying to get to the bottom of that right now.
    Mr. Turner. Are there others that I have not mentioned that 
might be possible?
    Mr. Weaver. Yes. The one that comes to mind is the State 
Department. There was an employee working the State Department 
mail room that is suspected of contracting anthrax. So that 
would be another case that I'm aware of.
    Mr. Turner. The letter that was postmarked, that came into 
Senator Daschle's office was postmarked October 9th?
    Mr. Weaver. That's correct.
    Mr. Turner. What was the postmark on the other letters that 
we're aware of?
    Mr. Weaver. They were both September 18th.
    Mr. Turner. September 18th. I want to ask Dr. Cohen, I want 
us to gain a little bit of fundamental education here, while we 
have the opportunity, about this disease. For example, the 
Daschle letter postmarked October 9th came through the 
Brentwood post office, and we find a postal worker contracted 
inhalation anthrax and was hospitalized on October 21st. Are 
those dates consistent with the evolution of that disease, and 
the infection that would come?
    Dr. Cohen. Actually, I believe the patient started 
reporting symptoms earlier in that time period, and that there 
was a consistent period of exposure to when the person actually 
became ill. So that would be consistent with what we know about 
anthrax.
    Mr. Turner. So give me just the time table of the initial 
exposure, the first sign of symptoms would occur how many days 
later?
    Dr. Cohen. Well, it could be, what's been reported is 1 to 
7 days, is generally the timeframe from when exposure to 
illness occurs. Some of the cases may have been shorter time 
period. So I think that's actually a fairly good range. Often 
the early symptoms are relatively non-specific. You could have 
fever muscle aches and pains. What poses one of the diagnostic 
dilemmas is that when patients are seen by a physician, it's 
difficult to recognize that this represents something other 
than a common infection.
    Mr. Turner. At what point do you have clear symptoms? What 
are those symptoms that would be identifiable?
    Dr. Cohen. Traditionally, it's been described that the 
illness may, the non-specific illness may somewhat improve and 
then dramatically worsen, where the person becomes very ill, 
appear to have a serious illness that would be consistent with 
having bacteria circulating in your bloodstream and the toxins 
that are produced by those bacteria making you ill. So that can 
occur fairly rapid. Historically, the death rates from 
inhalational anthrax were very, very high. It was thought to be 
almost uniformly fatal.
    Mr. Turner. So you would say that if an individual has 
these preliminary symptoms, fever, flu-like symptoms, that they 
could go away for a few days then come back even more severely, 
and then result in respiratory problems?
    Dr. Cohen. Well, it could be. There were just, they may 
have respiratory problems, they could have shock. They could 
have a variety of clinical findings and signs that we see, such 
as the swollen lymph nodes that are present in the chest that 
are referred to as a widened mediastinum that you see in the 
chest x-ray.
    Whereas in the first patient's case, the organism can get 
into the central nervous system and cause meningitis. So the 
person could have that kind of a presentation. So there's 
various possible ways that people can present.
    Mr. Burton. The gentleman's time has expired.
    Mr. Turner. Thank you, Mr. Chairman.
    Mr. Burton. Mr. Tierney.
    Mr. Tierney. Mr. Chairman, I'm satisfied to let these 
witnesses go as soon as we can and bring on the others.
    Mr. Burton. Thank you, Mr. Tierney. Well, we want to thank 
you very much. Excuse me, did you have any questions? Thank you 
very much gentlemen.
    We'll now go to our next panel. We want to thank the 
Postmaster General for his patience as well as David Fineman, 
the vice chairman of the U.S. Postal Service Board of 
Governors, and Thomas Day, the vice president of Engineering 
for the U.S. Postal Service, and the Chief Operating Officer, 
Pat Donohoe.
    I know you've had a busy day, gentlemen, because you've 
been over at the Senate side. So we appreciate your being here.
    It's our custom to swear in all the witnesses, so would you 
please stand and raise your right hands.
    [Witnesses sworn.]
    Mr. Burton. Thank you. Be seated.
    Mr. Postmaster General, I think what we'll do is start with 
you. If any of you have opening statements, we'll be happy to 
hear them. We'll start with you. And if not, we'll get to 
questions just as soon as possible.
    Mr. Potter. We have one opening statement. I'll read the 
opening statement.

 STATEMENTS OF JOHN E. POTTER, POSTMASTER GENERAL OF THE U.S. 
   POSTAL SERVICE, ACCOMPANIED BY PATRICK DONOHOE; S. DAVID 
    FINEMAN, VICE CHAIRMAN, BOARD OF GOVERNORS, U.S. POSTAL 
    SERVICE; AND THOMAS G. DAY, VICE PRESIDENT, ENGINEERING

    Mr. Potter. Good afternoon, Chairman Burton and members of 
the committee. I've submitted a detailed written statement 
which I would ask be entered into the record.
    Mr. Burton. Without objection.
    Mr. Potter. Under normal circumstances, I would be here by 
myself. But with the situation changing daily, I've asked 
Patrick Donohoe, our chief operating officer, to my left, and 
on my right, vice chairman of the Board of Governors, David 
Fineman. Governor Fineman, who is from Philadelphia, is one of 
the nine Presidentially appointed Governors of the Postal 
Service. To Governor Fineman's right is Tom Day, our vice 
president for Engineering.
    Each is part of the team that's focusing on this crisis, 
and they will be able to add value to our discussion.
    Mr. Chairman, this is a sad time for us. The Postal Service 
has lost two members of its family, two of our employees, 
Joseph Curseen and Thomas Morris, to the anthrax attacks. Three 
others remain hospitalized, and four have been sickened and are 
recovering. None of them thought when they came to work in the 
post office that they would be on the front line of a war.
    But they were, and thousands of other employees are as 
well. In fact, this is a war against all of our citizens. From 
the very outset, my overriding concern was for the safety of 
our employees and the public. We sought out the best 
information and the best experts to help us understand exactly 
what we were dealing with.
    Early on, when there was confusion about how and when 
anthrax got to American Media in Boca Raton, we saw no direct 
connection to the Postal Service and the system that delivers 
the mail. Nevertheless, on Tuesday, October 9th, as a 
precaution, we provided supervisors and employees with updated 
information on what to do if they suspected biohazards in the 
mail.
    Then on Friday, October 12th, the postal landscape changed 
dramatically. An NBC news employee in New York City was 
diagnosed with cutaneous anthrax. It became clear that the 
bioagent had arrived through the mail. Looking back, it's hard 
to believe all that has transpired in the last 18 days. We took 
a proactive stance in terms of educating our employees and the 
public.
    I cautioned employees, the public and companies and 
organizations, that they needed to handle their mail carefully. 
If they found something out of the ordinary, they needed to 
respond appropriately to law enforcement agencies.
    Based on the information we had, I stressed that this was a 
time when common sense and caution was needed, and that the 
incidence of anthrax-laden letters appeared very targeted and 
few in number. On Monday October 15th, the Chief Postal 
Inspector was already working with the FBI. I asked Chief 
Inspector Weaver to put together a Washington based task force 
that included our union and management association leaders. On 
a daily basis, we shared and discussed the latest information, 
what steps we should take, what were the right things to do.
    Our labor leaders comments were valuable and carried equal 
weight with everyone else around that table. But the facts were 
sketchy. To that point, the only confirmed anthrax had been in 
Florida and at NBC in New York. On that day, Monday the 15th, 
employees in Senator Daschle's office opened a letter that had 
been laced with anthrax.
    Then things began to accelerate almost by the hour. It was 
clear that the Daschle letter went through our Brentwood 
facility in Washington. On Wednesday, testing of 28 Capitol 
Hill employees came back positive. We were consulting and 
seeking the best experts we could find. But it was also clear 
that the mail and the Nation were facing a threat that it had 
never encountered before.
    We continued to operate under the theory that what had been 
sent was transiting our system in well sealed envelopes. All 
along, the Postal Service operated on the principle of open 
disclosure. I knew that would be critical in protecting our 
employees and the public and in developing solutions.
    Knowing that the Daschle letter came through our Brentwood 
facility, and after consulting with our unions, we decided to 
test the Brentwood facility as a precaution. The preliminary 
test on Thursday, October 18th, came back negative. We felt 
good about that, although a secondary, more comprehensive 
laboratory examination would take another 48 to 72 hours. To 
that time, we had no indication that Brentwood was 
contaminated.
    Also on Thursday, October 18th, we joined with the Justice 
Department to ask the American people for help by offering a $1 
million reward. It was on the 18th that one of our letter 
carriers in Trenton was diagnosed with cutaneous anthrax. The 
Trenton and West Trenton facilities were closed for testing, 
and CDC and the FBI moved in.
    We had discussed with CDC whether or not our employees 
should be tested in Brentwood. But all indications and the best 
experts said, no need. Unfortunately, and how I and others wish 
we had known, it was Friday, October 19th, when our first 
Washington employee would be hospitalized with flu-like 
symptoms. Two days later, on Sunday afternoon, the 21st, we 
learned of the first case of an employee with inhalation 
anthrax. Brentwood was immediately closed. As a precaution, we 
also closed the BWI processing facilities.
    We were operating in good faith, trying to make the right 
decisions, based on the facts at hand and the advice we were 
receiving from experts. In fact, out of those discussions, 
local health authorities began screening employees and 
providing them with antibiotics that weekend. By Monday, we 
were making every effort to track down all our Brentwood 
employees, even those on vacation.
    Last week I said, this is not a time for finger pointing. I 
underscore that again. The mail and the Nation have never 
experienced anything like this.
    Where are we today? First of all, the situation remains 
fluid. Late yesterday afternoon we learned that two additional 
facilities in Washington, DC, were contaminated. And we closed 
them, pending remediation.
    In addition, trace amounts of anthrax have been found in 
our plant in West Palm Beach. The remediation is occurring 
right now.
    For 18 days we have been working to enhance the safety of 
our employees and their workplaces. At the same time, we want 
to keep mail moving to the Nation's businesses and households. 
Let me share some of the actions that we have taken. We have 
scheduled 200 facilities nationwide to be tested. That's in 
addition to those facilities in the immediate area of the 
anthrax attacks where we've had testing underway already. We 
purchased 4.8 million masks, 88 million gloves for our 
employees. We changed operational maintenance practices to 
reduce the chance of bio-agents being blown around the 
workplace. We are using new cleaning products that kill anthrax 
bacteria.
    We have redoubled efforts to communicate to employees 
through stand-up talks, videos and postcards directed to their 
homes to reinforce their awareness of our message. We also had 
medical doctors speak to our employees at the work site on the 
precautions they need to take concerning anthrax, and offered 
employees nationwide counseling services.
    During the last week, we mobilized every resource to get 
employees screened, tested, and antibiotics distributed. We are 
purchasing machines and technology to sanitize mail. 
Unfortunately, we cannot deploy all the machines tomorrow. In 
the interim, we are using existing machines and private sector 
companies to sanitize targeted mail. The anthrax attacks were 
targeted, and we are responding in a targeted way.
    We are increasing our education efforts with the public. 
Postcards alerting every address in America were delivered last 
week. In all our dealings with our customers, we stress the 
need for vigilance. We modified our Web site to provide the 
latest information on anthrax. In sum, we are focused on 
getting the message out.
    I might also add that the cooperation and coordination 
between and among the Federal agencies involved has gotten 
increasingly stronger as each day goes by. Governor Ridge has 
been instrumental in building bridges and making this happen. 
He also has been working to assure that all Federal agencies 
work in a focused way to ensure that the equipment and 
technology we plan to use is effective. These attacks on our 
employees, the Nation and the mail are unprecedented. They have 
hurt us financially. The economic slowdown in 2001 already had 
an impact. Then the tragedy of the attack on September 11th 
again stunned the economy. The results have been reflected in 
reduced revenue and mail volumes.
    Although we are still assessing the economic impact of the 
anthrax attack, I can tell you, it is sizable. We will provide 
information to the committee when we have a tally.
    As I am sure you will agree, protecting America's freedom 
by ensuring the safety and integrity of the mail is at the core 
of the Postal Service's mission. Our 800,000 postal employees 
are using everything they've learned and doing everything 
humanly possible to keep the mail safe and moving. I cannot say 
enough how proud I am of the cooperation and spirit I have seen 
in our employees and in postal customers. They recognize that 
terrorist have launched an attack on one of America's 
fundamental institutions, the Nation's post offices. We are 
determined not to let the terrorists stop us.
    This concludes my prepared statement, Mr. Chairman.
    [The prepared statement of Mr. Potter follows:]
    [GRAPHIC] [TIFF OMITTED] T7387.035
    
    [GRAPHIC] [TIFF OMITTED] T7387.036
    
    [GRAPHIC] [TIFF OMITTED] T7387.037
    
    [GRAPHIC] [TIFF OMITTED] T7387.038
    
    [GRAPHIC] [TIFF OMITTED] T7387.039
    
    [GRAPHIC] [TIFF OMITTED] T7387.040
    
    [GRAPHIC] [TIFF OMITTED] T7387.041
    
    [GRAPHIC] [TIFF OMITTED] T7387.042
    
    Mr. Burton. Thank you, Mr. Postmaster General.
    I was watching television the other night, and one of the 
postal employees in New York said that a couple of the machines 
that were being used to process the mail, where the anthrax had 
gone through, were just ringed with some kind of yellow tape 
and that the employees were working in close proximity to that. 
Can you clarify that for us?
    Mr. Potter. It's my understanding, Mr. Chairman, that we 
had four machines where we found traces of anthrax. We sealed 
that area off. The area that was sealed off was some 150,000 
square feet of space. We brought in clean-up crews to remediate 
that area.
    One thing has to be understand about the Morgan Station, 
it's a 1.8 million square foot facility. It's multi-story, we 
brought in CDC, NIOSH, the city health department and we showed 
them what we had. They were aware of what we had. They advised 
that we could seal off that area, and remediate that area 
without doing any harm to anyone else in the building. We were 
assured that the ventilation system in that building had no 
anthrax spore contamination.
    So the decision was made to seal off an area and remediate 
that area again, working closely with the medical authorities 
to determine a safe and proper procedure for handling the 
contamination in that building.
    Mr. Burton. So you're pretty confident that's a safe 
working area right now?
    Mr. Potter. As confident as one can be getting advice from 
all the experts, yes.
    Mr. Burton. The Controller General, 6 months ago, told us 
that the Postal Service was operating in a very--it was one of 
the financial crisis areas. I've talked to you and met with the 
Board of Governors on a number of occasions. I think Mr. Waxman 
has as well.
    You're up against your $15 billion ceiling. And you were 
going to run, I think, somewhere around a $2 billion to $3 
billion shortfall this year before all this stuff started to 
happen, these tragedies. Can you give us a rough idea, and you 
said you would get us figures as quickly as possible, but can 
you give us a rough idea of what needs to be done to help the 
post office through this crisis without them going bankrupt?
    Do you need additional revenues for these irradiation 
machines from the Federal Government? If so, how much? How much 
will it take total? And also, we've talked about postal reform 
for some time. Is it something that we ought to be looking at 
right now that would help you through this crisis as well.
    Mr. Potter. Well, first let me deal with the financial 
situation. We had anticipated that in fiscal year 2002, we 
would lose somewhere on the order of $1.4 billion. That's after 
us taking a lot of aggressive steps to consolidate operations 
and to reduce overhead in some of our staffing.
    What's occurred now is that as a result of September 11th, 
for our first accounting period in the first month of this 
fiscal year, our revenues were some $300 million short of 
expectations. Our volumes were down 6 percent. And that was a 
result of the September 11th attack.
    Now we have this anthrax attack which is compounding the 
situation. We hope that Americans continue to mail, we hope 
that Americans continue to have confidence in the mail. The 
best thing that people can do around America, of course, is to 
put a stamp on an envelope and get it in the mail, continue to 
use their catalogs. We have not and cannot accurately predict 
what might happen as a result of the anthrax attacks. And we're 
going to continue to monitor that situation.
    However, it's not farfetched to imagine that this situation 
could end up hurting us to the tune of several billion dollars. 
But again, it will be a function of consumer behavior, business 
behavior in terms of how they use the mail.
    In addition to that, we're looking to put in processes and 
equipment that would sanitize the mail. We have worked with the 
Defense Department and others to identify equipment that would 
sanitize mail and eliminate any bacteria that might be found in 
mail. The mail that we're looking to sanitize is that mail 
where people have open access to, to place mail into the 
system. So it's from collection boxes, lobby drops that we 
might have in post offices, or lobby drops in major buildings.
    Our initial estimate on the costs associated with putting 
that type of equipment into our centers is on the order of $2.5 
billion. So there we have several billion in costs.
    In addition to that, we have costs that we didn't 
anticipate for masks, gloves, and we're going to change our 
operational procedures such that we protect our employees. 
Initially, I think you're aware that the administration made 
$175 million available to the Postal Service. It was for the 
initial buy of sanitizing equipment. And the initial buys of 
gloves and masks, and costs associated with medical treatment 
for our employees.
    So beyond that initial $175 million, we anticipate that 
costs continue on. Our hope is that we catch the people who 
perpetrated this act. But until that time, we have to do what 
we can to shore up our vulnerabilities, either vulnerabilities 
to entering mail into the mail stream or vulnerabilities of our 
employees.
    Mr. Burton. Let me just ask one more question. You didn't 
address how these costs will be paid for. Will you need a 
direct appropriation from the Federal Government in addition to 
possible stamp price increases to meet the costs of these 
irradiation machines, these cleansing machines? And will that 
be in conjunction with a postal rate increase, or will that 
necessitate that? And also the postal reform issue.
    Mr. Potter. OK, I'll answer the first part and I'll ask 
Governor Fineman to followup with my response on the reform 
issue.
    We definitely are going to ask for an appropriation, 
particularly for the economic costs associated with this. We 
view a lot of the costs that we're going to bear as part of 
homeland security. We don't feel that the ratepayers should 
bear the burden of these costs.
    We had filed in late September for a rate increase. We 
anticipated that rate increase may impact the volumes of mail 
that we have. We don't think that the ratepayers can bear an 
additional burden. So we are going to seek an appropriation to 
help us with that.
    We're delighted that you've taken on postal reform as one 
of your key issues. We are working and will work closely with 
you on postal reform. We believe that there is a need to change 
to allow us to operate in a more businesslike manner. An area 
that I'm excited to get into is the area of negotiated service 
agreements, so we can work with big, volume mailers, such that 
we can offer them price packages that would allow them to 
increase the volume of mail moving through the system and help 
to finance, in the long run, the Nation's mail.
    I'll turn it over to Governor Fineman to add to that.
    Mr. Fineman. Mr. Chairman, as you know, and Ranking Member 
Waxman, I've met with both of you and met with other members of 
this committee who have been working on postal reform. I've 
spoken passionately about it, the absolute necessity to have 
postal reform, prior to the incidents with anthrax.
    I can only tell you the frustration that I feel today as a 
member of the Board of Governors. Both myself and my 
colleagues, sit on boards of privately held companies. And if 
you had a major catastrophe, the management would come to the 
board of directors with a whole bunch of things that you might 
do.
    In today's world, the way the Postal Service law was 
written in 1970, we don't have the luxury of doing much. That 
is particularly true in the area of pricing. Assume today that 
we wanted to get our volumes up. Assume that we could go to 
some of our major suppliers, that is some of our major 
customers. We could say to them, it's absolutely necessary to 
keep people having confidence in the mail. What we'd like to do 
is lower the price for you, right now, for the next month. We'd 
like to maybe lower the price a little bit and see if we can 
increase volumes.
    We can't do that. There's a law that prohibits it. What we 
have to do is file a rate case, and I've testified here before, 
as you know, that it will take 16, sometimes 20 months from the 
time when we start preparing a rate case to get it finally 
finished. It doesn't work in a modern society. The law just 
doesn't work. And I would say to you that the situation with 
anthrax is a frustrating situation for us on the board, because 
we feel like our hands are tied, that there aren't that many 
things we can do in regard to the financial viability of the 
Postal Service.
    Mr. Burton. Thank you. Mr. Waxman.
    Mr. Waxman. Thank you, Mr. Chairman.
    Gentlemen, I appreciate your testimony. Mr. Potter, as I 
understand, the cornerstone of the approach that the Postal 
Service is planning in response to this anthrax possibility in 
the mail is to try to sanitize the mail, so consumers will know 
when they receive mail that it won't have anthrax and it won't 
have any other harmful biological agent in it, isn't that 
correct?
    Mr. Potter. Yes.
    Mr. Waxman. And you're looking at asking the taxpayers to 
come up with $2.5 billion to help pay for this new 
technological innovation. I support helping the Postal Service. 
But I want to be sure that we're doing it in the right possible 
way.
    As I understand it, there are two types of technology. One 
is what's called e-beams and the other is x-rays. These 
technologies are both effective. But there are strengths and 
weaknesses. For example, they both use radiation to kill 
bacteria and viruses, and they've both been proven to be safe 
for use on food and medical equipment.
    But if you look at the e-beam technology, my understanding 
is that the Postal Service wants to use this to sanitize 
letters by directing a stream of electrons at mail that passes 
on a conveyor belt. My staff contacted private sector experts 
in e-beam technology and were told that e-beam has promise in 
sanitizing large amounts of mail. According to these experts, 
the advantages of this approach are that sterilization can 
occur quickly and efficiently.
    But they also told us that using e-beam technology to 
sanitize the mail poses large engineering problems. E-beam 
technology has been used for homogenous kinds of products, like 
sterilizing medical syringes or whatever, that are basically 
the same thing. Therefore, the engineers can adjust the 
technology to assure that the right dose is administered.
    But in the mail, it's very different. We have different 
size packages, we could have not only the variations in weight, 
but the composition can be different. And I want you to answer 
this question, but I'm limited in time. One of the things I 
want you to answer for the record is the assurances about being 
able to overcome these engineering problems and adapting e-beam 
technology to something as complex as the mail stream. So 
that's one thing we're going to need an answer for.
    But I want to get to the second point. The other is to look 
at x-ray technology. The problem with e-beam technology is it 
won't penetrate solid matter very far. But even dense letters 
may not be sanitized, as I understand it, with e-beams. But x-
ray can sterilize far deeper than e-beams, can be used for 
sterilization of large packages. However, according to experts 
I've consulted, x-rays are far less efficient, far more time 
consuming, potentially far more costly than e-beams. So I have 
a lot of questions about this technology.
    But I also want to ask you, why aren't we doing something 
common sense, like, obviously you're not going to put 
everything through a screening. You indicated if it were in a 
mailing house, there's no need to screen it. So what we're 
looking at is mail that goes into a collection box or a lobby 
drop. That's mail that terrorists can use in a way that keeps 
then anonymous. Isn't that maybe the problem we're looking at?
    Mr. Potter. That is the problem we're looking at. And 
again, we don't want to take away a freedom that we have in 
America to have open access to the mail stream. So we're trying 
to balance that with technology.
    Now, regarding the technology, I'm obviously not an expert. 
My expertise is moving mail around the country. But we are 
going to use e-beam x-ray technology. Anticipating that I might 
get a question on that, I brought our vice president of 
Engineering, Tom Day, who is working with the best people in 
the field on this. Let me turn it over to him.
    Mr. Waxman. Before you do, e-beam technology and x-ray 
technology can be different. They can be referred to as the 
same, but they are different technologies, as I understand it. 
But let's look at, before you even use the high tech, high 
priced technology that has pluses and minuses, why not take 
away some of the freedom that people have to go in anonymously 
and send packages?
    Why not have people be required to come in personally and 
have some identification before they start mailing some kinds 
of letters or packages that might be harmful? Why can't there 
be some kind of analysis, the way you do with airline 
screening, where you make an assessment of somebody face to 
face, whether they are possibly someone you want to watch 
carefully because of the demeanor they have or the way they 
approach the mail?
    Why not some of that less expensive way to deal with 
narrowing the amount of mail that we have to go through, either 
e-beam or x-ray technology?
    Mr. Potter. I have a couple of responses to that. One is 
that, in my opinion, it would be more expensive to do that. We 
have some 50 billion pieces of mail that come in through 
collection boxes over the course of the year. So it would be a 
recurring expense as well. It would be an inconvenience to the 
American public. And so the introduction of technology is 
something that we feel would be the most cost effective means 
of dealing with this problem for the American public as a 
whole.
    Mr. Waxman. Of course, packages, they still have to come in 
face to face and take it to a post office.
    Mr. Potter. Packages beyond a certain size, yes, 
Congressman.
    Mr. Waxman. Do you think that's kept people from using the 
Postal Service for their packages?
    Mr. Potter. No, I don't. But I do believe that if we had 
everybody come into the Postal Service with their letters that 
would be inconvenient to many Americans. They may look to use 
other technologies to get their bills and payments done.
    Mr. Waxman. That may happen anyway.
    My time is up. I just want to conclude this round or this 
opportunity, because I'm going to further request answers to 
some questions in writing for the record. I would hope you 
would consider trying to figure out low-tech, low-cost ways to 
narrow the amount of mail that has to go through the high tech, 
high priced screening, especially since there are pluses and 
minuses in the technology, the technologies you're considering. 
I would just hate to see us spend billions of dollars on high 
priced technology that may not work and probably won't be 
available for a very long period of time. Isn't that correct? 
We're looking at years, or at least a year or two before you 
can sanitize the mail and assure everybody that every piece of 
mail is secure.
    Mr. Potter. We're looking today at manual screening of mail 
in targeted areas to try and identify pieces of mail that may 
be tainted and moving through the mail stream. Again, expensive 
to do, it will be a recurring cost. And I'm not sure, should we 
have Mr. Day respond or would you like that done for the 
record, Congressman?
    Mr. Waxman. If the gentleman would just give it for the 
record----
    Dr. Weldon [assuming Chair]. Go ahead and respond.
    Mr. Waxman. It's OK for him to respond?
    Dr. Weldon. Yes, I want to hear the response to the 
question.
    Mr. Waxman. Well, then, Mr. Chairman, I hope I'll have a 
chance at a followup question.
    Mr. Day. Congressman, you've pretty well summarized the 
pluses and minuses on the two technologies. We have not done 
this on our own. I've worked with the President's Office of 
Science and Technology. Dr. Marburger has been very gracious to 
help us coordinate with the various Federal agencies to get the 
right specifications for the equipment we need.
    I can tell you in discussions we've had on two separate 
occasions with various other Federal agencies that the belief 
was that our long term solution with technology should be the 
x-ray. Because as you correctly pointed out, the issue of 
penetration.
    E-beam is our interim solution. We're limiting the product 
we send through there in a way that ensures that it's properly 
irradiated and any biohazard could be eliminated. That took a 
bit of discussion amongst the agencies, and it's interesting, 
because no one ever thought of this technology for the mail. 
But it involved both the FDA as well as some work by the 
Department of Defense to come up with some agreement about 
what, and the term used is dosing levels, to ensure that you've 
achieved the kill rate on the biohazard. And we've set it 
exceptionally high, with very stringent quality controls, to 
make sure that it works.
    But you're correct, the long term, to ensure you've got 
penetration, is the x-ray solution.
    Mr. Waxman. Just so we understand, that's the direction 
you're taking. We're going to need to know the cost of x-raying 
a single piece of mail, how long it will take to sterilize a 
typical package with x-ray, how much energy we're going to have 
to use for these x-rays to sanitize the mail, and how much 
radiation needs to be used to kill a collection of anthrax 
spores.
    I know other members have questions, but we're going to 
need to get those answers at some point in the legislative 
process before we appropriate the money.
    Dr. Weldon. The gentleman's time has expired.
    Mr. Waxman. I'd ask unanimous consent to put in the record 
congressional testimony of the U.S. Postal Service Safety and 
Security, Charles Moser, president of the National Association 
of Postmasters.
    Dr. Weldon. Without objection.
    [The prepared statement of Mr. Moser follows:]
    [GRAPHIC] [TIFF OMITTED] T7387.043
    
    [GRAPHIC] [TIFF OMITTED] T7387.044
    
    [GRAPHIC] [TIFF OMITTED] T7387.045
    
    Dr. Weldon. I also ask unanimous consent to include in the 
record an article by Alan Robinson, Direct Communications 
Group, Could the USPS be the first major business casualty of 
the war on terrorism. Without objection, so ordered.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T7387.046
    
    [GRAPHIC] [TIFF OMITTED] T7387.047
    
    [GRAPHIC] [TIFF OMITTED] T7387.048
    
    Dr. Weldon. The Chair now yields himself 5 minutes for 
questioning. I want to thank you, Mr. Potter, for coming and 
testifying, and all the people you brought with you. The eyes 
of the Nation are really focused very intensely on this. Let me 
just start out by asking you, what would you say to the average 
American who goes down to his mailbox in the afternoon to get 
his mail?
    Mr. Potter. My message to the average American is that the 
mail is safe, that they need to take the proper precautions and 
have awareness about what's in their mailbox, to assure that 
it's safe. I would suggest to them that they read the postcard 
we sent them. That would make them aware of things that might 
be out of the ordinary in their mailbox and advise them on what 
to do in the event they come across something that's out of the 
ordinary.
    But we deliver to 137 million addresses every day. And 
we've had a handful of letters that have moved through the 
system and have caused obviously death and have caused disease. 
But in terms of the average mailbox, the knowledge that people 
have of what's in their mailbox, greeting cards, packages they 
might have ordered from a catalog, or their bills, or letters 
from loved ones, that mail is safe.
    Dr. Weldon. Would you say that those items you were just 
mentioning, catalogs and mail say from a utility company, a 
bill, those items are to be viewed as safe, that it's other 
pieces of mail that perhaps meet the description as has been 
outlined in the press that is more of a concern?
    Mr. Potter. Yes, Congressman.
    Dr. Weldon. OK. Now, this may be a question for Mr. Day. I 
just want to followup a little bit on the line of questioning 
the ranking member was pursuing. There are very few companies 
that make this radiation equipment. So even if we gave you an 
appropriation, it's going to take, I understand, months to 
years to get all this equipment in place, is that correct?
    Mr. Day. Congressman, in a general sense you're correct. 
One of the things we quickly realized is that it is a very 
limited industry. Previous uses were generally food processing, 
as well as medical equipment sterilization, a few industrial 
uses as well. So a very limited industry.
    We've already begun discussions, one of the things quickly 
determined is that the industry depends upon a couple of key 
suppliers for key components to make the system. We've already 
begun the discussion to see what it would take to ramp up those 
key suppliers as well as try to get some of the bigger 
companies that we deal with for postal technology potentially 
to help with the manufacturing, to ramp up the manufacturing of 
this product as well.
    You're correct, it is very limited source currently. But we 
have begun the discussion to see what it would take to speed up 
the production of the equipment.
    Dr. Weldon. I've heard the discussion of how you will make 
some sort of distinction between high risk and low risk mail. I 
can understand if you're taking a bulk delivery from, say, 
Sears Roebuck or Land's End, catalogs from a printing company, 
that constitutes a lower risk mail product for you. But how are 
you going to protect the postal workers that are collecting the 
mail from the drop boxes? It's fine if you have an irradiation 
machine and you're taking it to the irradiation machine and it 
gets irradiated and then it comes to my house and I know it's 
been sanitized and I'm safe. But what about the postal worker 
who is going to those drop boxes and collecting the mail?
    Mr. Potter. We have a separate group from the engineering 
group working on the process, the collection box process, to 
assure that those employees that might remove mail from a 
collection box are not put in harm's way. Today they're doing 
that via mask and gloves. But we believe that there are 
processes that we can put in place to prevent them from coming 
into harmful contact with that mail. We're working on those as 
we speak.
    Dr. Weldon. Is there any discussion of vaccinating the work 
force for anthrax and/or other biological agents?
    Mr. Potter. The Surgeon General did make that statement, 
and we're going to rely on the medical community to give us 
that advice. We're not medical experts.
    Dr. Weldon. Just a couple of additional questions--well, I 
see my time has expired. Let me just ask one quick one. I 
understand the FAA is not allowing USPS parcels on passenger 
flights any more. Is that true?
    Mr. Potter. The FAA has restrictions regarding the 
transport of packages above a certain weight on domestic 
passenger airlines.
    Dr. Weldon. Has that impacted your operations at all, the 
restrictions on mail that's traveling on passenger airlines?
    Mr. Potter. Yes, it has. We've had to expand the surface 
reach for packages, as well as move those packages onto cargo 
carriers as opposed to passenger carrier planes.
    Dr. Weldon. My time has expired. I thank you. And the Chair 
now yields to the gentlelady from the District of Columbia, Ms. 
Norton, for 5 minutes.
    Ms. Norton. Thank you, Mr. Chairman.
    Thank you, Mr. Potter and all of your colleagues, for your 
testimony today. You may know that I was a town meeting last 
night, among many, over 500 residents came. There were a fair 
number of postal workers. Not surprisingly, there is still some 
disconcerted response there. Many of them are still dislocated, 
because you're decontaminating the Brentwood facility. You had 
something of a labor relations problem before anthrax. 
Obviously you're going to have a problem afterwards.
    This is a tough workplace. It is a tough workplace without 
disease. It's become a much tougher one. But frankly, I'm not 
interested in recrimination. I am interested in whether or not 
the Postal Service is prepared to save lives and to give the 
appropriate assurances going forward. Apparently, the only 
contingency plan the Postal Service had was one that would 
allow the mail to be delivered in the case of interruption, 
such as planes not going up and the rest, but nothing related 
to hazardous substances.
    I'd like to ask you a question about Brentwood in 
particular. These workers have been out of the workplace at 
Brentwood now, I don't know, what is it, a week? Some 
contamination job must really be going on. They've been out for 
a long time. I assume now that a great deal of planning is 
going on in the Postal Service to stay ahead of the crisis and 
of disease. Can you assure us that after the facility is 
decontaminated that only sanitized mail will be processed 
through the Brentwood postal station?
    Mr. Potter. We will be able to assure that once we have the 
equipment in place to sanitize mail.
    Ms. Norton. Well, the reason I ask is, the workers are out 
of there a week or more, and if in fact anything other than 
sanitized mail goes in, how is anyone to know that the process 
of contamination is not going to be repeated?
    Mr. Potter. That is a dilemma that we all are facing right 
now.
    Ms. Norton. It's a terrible dilemma, given the deaths at 
Brentwood. Is there a planning group trying to look ahead in 
ways like this? What good will it do to tell people to come 
back if they don't know if the next letter coming in has 
anthrax in it, and everybody might be out of Brentwood all over 
again?
    Mr. Potter. We are working as diligently as we can to 
identify targeted mail and screen it early in the process to 
keep it out of our mail systems.
    Ms. Norton. I would just ask, and I understand the dilemma 
you're under, this is a brand new situation. Nobody's ever had 
to think this through before. But I do believe that it would be 
important for your work force, important for the people who 
live here and important for the Federal presence if the mail 
going through Brentwood in particular, even if not sanitized by 
the new technology, could go through some process that would 
give everybody some assurance, even if it was low tech, even if 
it was something like the ranking member was discussing, that 
would say to people, this mail has not come in blind. Something 
has happened that makes it different from before. There is a 
before and after here for all mail, or else I think you're 
going to have a crisis of confidence that continues.
    Mr. Potter. We are looking at a number of things in the 
Brentwood facility. Obviously, the mail that was targeted 
initially in this case was Government mail. We're considering 
not moving Government mail back into that facility, keep that 
isolated and make sure that's appropriately sanitized before 
our employees there touch it.
    Until we ha<plus-minus>ve sanitizing equipment in place, 
the best thing we can do for our employees is offer them 
protection, protection in the form of gloves, protection in the 
form of masks. It's not the ultimate solution. We don't want 
our employees walking around feeling that they're in an unsafe 
environment. But in the interim, that is the short term 
solution that we can find, in addition to targeted screening of 
mail as it's collected in places of concern.
    Ms. Norton. Mr. Potter, on page 2 of your testimony you 
describe how the--and the Postal Inspector was here earlier--
how your Postal Inspection Services is ``actively involved with 
the Federal Bureau of Investigation.'' I'd like to know exactly 
how they operate. There's the FBI on the one hand, there's a 
Postal Inspector on the other. Let me give you the model that 
often is used in D.C. In D.C., the FBI sits in D.C. police 
headquarters, so that if a matter local or Federal rises to a 
certain level, you can't tell the difference between the FBI 
and the D.C. police because they work like that.
    I want to know how the Postal Inspector operates, 
operationally, how is he related or she related to the FBI?
    Mr. Potter. On individual cases, and obviously we have an 
investigation going on here, they work as a joint team working 
on all of these matters. Today, they're not only investigating 
to try and determine who the perpetrator of the crime of 
putting anthrax in the mail was, but they're working closely 
together with the FBI and local law enforcement to track down 
all of the hoaxes that we have. Because the hoaxes are as big a 
problem in terms of the psyche of the American public as the 
actual anthrax. Because we don't have anthrax in California, 
but we do have a number of hoaxes that have been perpetrated 
out there.
    So there's an entire law enforcement effort working very 
diligently on this whole matter. And in each of these cases, 
it's a matter of a team working together. I think it's 
transparent, as you described, in D.C., as to who is who. It's 
just a matter of working as a team, putting our resources 
against it, and following up to find the terrorists, because 
this is a terrorist who is putting anthrax in the mail, and to 
get after those folks that are committing hoaxes. We're happy 
that there have been 18 arrests around the country regarding 
hoaxes, and we anticipate more.
    Dr. Weldon. The gentlelady's time has expired.
    The Chair now recognizes the gentleman from California, Mr. 
Horn, for 5 minutes.
    Mr. Horn. Thank you, Mr. Chairman.
    I was very interested in some of the dialog and the 
policies on this. I want to say, Mr. Postmaster General, in my 
town, and in this building, I've never seen a clerk that did 
not have a smile on his face, and I've never seen a letter 
carrier in Long Beach, CA, that I've seen anything but a smile 
on their face. They're out in the sun and it's a tough job. I 
took one time a big cake with the seal of the Post Office to 
each of the post offices. One person broke down. He said, 
you're the first person that's ever thanked me. It's a tough 
job.
    But I've got some concerns about your predecessors, Mr. 
Runyan, in particular, if he put this policy in. One day I had 
100 individuals, Federal workers, that were eligible for 
Federal worker compensation. About 60 of the 100 were postal. I 
said, I want you to tell me, how does this system work. One 
said, well, you know, the vice president in the region and the 
manager, they wouldn't even let him give me the form.
    Now, that's a real problem, and I realize when you're at 
the top of the heap, you can't be everywhere. But I would hope, 
now that you're in office, that you could turn some of those 
attitudes around. Because there's a real feeling out there, and 
I have read several hundred of these before they've gone to the 
Department of Labor. I've got real bones with them. They aren't 
doing much, and they aren't treating people as human beings.
    I said earlier, before you came here, you put two human 
beings in your speech and I put one in my question. And nobody 
else really went for it. So it looks like you're a pretty 
humane guy, and I would hope that you would look at that whole 
operation, where there the executives get money for not having 
health forms out, it seems to me. That bothers me. And I'm told 
your predecessor once removed, Mr. Runyan, had a $100,000 
retirement party. I don't know if that's true or not, but if it 
is, it's stupid, especially when everybody else gets a new 
penny on their stamp. I think you'd agree with that.
    Mr. Potter. I'm not planning one. But I'd like to say 
that--and that wasn't meant to be a joke. But I'd like to say 
that this effort, when we were faced with this challenge of 
anthrax, the first thing we did, and it was part of my 
statement, was put together a task force. On that task force we 
have our four largest unions, the presidents are there, we have 
three management associations there. Part of the reason that 
they're there is because yes, I'm at the top and it's a very 
large organization, and I can get feedback through my managers, 
but I also need to get feedback from those who represent the 
employee groups.
    So if we find out that a stand-up talk wasn't given in an 
appropriate manner, we're able to direct that. We also have an 
opportunity by working closely with the unions to get their 
input up front. So we can understand and they can understand 
why we're doing things, and why we're making changes, get input 
from them on changes that they would recommend. And working 
collaboratively, we're going to have to attack the terrorists 
in the same manner that they're attacking us. We're going to 
have to get after this problem. I know that we cannot do that 
independently. It's going to take all 800,000 employees, and we 
need to mobilize all 800,000 employees. The best way to do that 
is to work with the leadership of those employee groups.
    Mr. Horn. Thank you.
    Dr. Weldon. The gentleman yields back. The Chair now 
recognizes the gentlelady from New York, Mrs. Maloney.
    Mrs. Maloney. Mr. Chairman, I am reading this article in 
the Economist. It begins by saying, few Americans want to be 
postal workers at this moment, fewer would like to be John 
Potter. I'd just like to say, it goes on and it describes all 
the challenges that you confront and the dangers in the post 
office. When you come forward with your list of concerns, I 
certainly want to be part of the team working to help the 
postal workers and the post office.
    The last thing that we want to do during this economic 
downturn is to put these costs on the backs of postal 
customers. High mailing costs have contributed to the demise of 
several high profile magazines in the district that I represent 
recently. And five have closed in my district, Mademoiselle, 
and Industry Standard, to name a few. We can't just keep 
passing along costs to customers, because then they can't 
compete and then they go out of business.
    I am really supportive that the administration has already 
come forward with $173 million to help the Postal Service. I 
know that I'll be one supporting other efforts to help the 
Postal Service. But don't you think the Postal Service should 
likewise help the mailing community out as well during this 
very tough economic time? And shouldn't you or the postal 
office delay implementation of any rate increase until January 
2003 or even later? Magazines tell me that the rate increases 
that they confront are over 24 percent in the past 2 years. I'd 
like to know where you stand on rate increases. Will they put 
off, as other things have been put off?
    Mr. Potter. The decision about what we do with the rate 
increase will certainly be determined by what transpires in the 
next several months. We entered into a rates process in 
September. That would take 10 months, normally take 10 months. 
We're very grateful that the Rate Commission has decided to try 
to expedite that case, not expedite the rate increase, but just 
expedite the whole process to negotiate rates.
    We will be better postured, and we've told our mailers that 
we will be better postured to make a decision about when we can 
implement rates or when we should implement rates next summer. 
And it's still our intent to do that. We, like you, agree that 
mailers should not bear the full burden of these terrorist 
attacks. This is a homeland security issue. This is a service 
that's provided by the Federal Government that's paid for by 
the ratepayers. But we have a very, very unusual circumstance 
here, and that's why we would move ahead to seek appropriation, 
to avoid the type of economic impact on our magazine publishers 
and others who use the mail.
    Mrs. Maloney. I represent New York City and I've received 
numerous phone calls from postal workers who cannot understand 
why New York's Morgan Station facility is opened while New 
Jersey, the postal areas in Washington were closed, along with 
four congressional office buildings. Some of the office 
buildings closed for Congress did not even find anthrax, there 
wasn't even--there was just a suspicion.
    So I'd like to know, who is making the decisions to close 
or keep open postal facilities? Who makes that decision? Does a 
different person make a decision in different areas, or in 
different States?
    Mr. Potter. The decision is made initially on the local 
level, with input from the medical officials that we have on 
board, the CDC. In the case of New York City, CDC, NIOSH, and 
the city health department were in Morgan. They analyzed the 
data that they had. And they made a decision that we could seal 
off the area on that working floor and that we could 
successfully remediate the area. Again, it was traces of 
anthrax found on four machines.
    Now, Bill Burrus, who is in the front row, who's the 
president elect of the American Postal Workers Union, he and I 
met at a funeral on Friday. He expressed concerns and we 
discussed what options we have. What we did in the case of 
Morgan in response to the concerns of the employees there was, 
we had those medical officials go in and give talks to all the 
employees to explain to them exactly what it was that was 
found, explain to them how we were remediating it, explain to 
them what threat if any there was to them. And we gave those 
employees the option of staying at the facility or moving to 
another location right across the street in our general post 
office.
    So we took the advice of the local medical officials. 
However, throughout this process, people had the ability to 
raise their concerns. That's one of the benefits of having this 
task force. The employees raised their concerns through the 
American Postal Workers Union. We were able to get together, 
discuss the issue and come up with options that we believe were 
fair to the employees, or I believe were fair to the employees. 
I don't want to speak for Bill.
    Mrs. Maloney. Do you think these decisions should be 
centralized? Now they're basically local decisions, and 
different people making decisions, as I understand it, at 
different facilities. So it appears to me that possibly it 
should be centralized with centralized standards and criteria, 
to determine, so that there is a consistent, clear method that 
all of us can understand and all the workers can understand.
    I know my time is up, but very briefly, why has this 
decision not been centralized? Are you going to move to 
centralized standards and procedures?
    Mr. Potter. Let me say briefly that all these situations 
have individual circumstances. We're finding different things 
in Florida than we found in New York than we found in Brentwood 
than we're finding in Trenton, NJ. We are working to establish 
a consistent protocol.
    However, we're not getting consistent advice in each of 
these locations. It's kind of comparable to what medications is 
somebody on. At one point, it's Cipro, the next point it's 
Doxycycline. So we're in a very fluid situation and want to 
respond to the people locally. We do seek the advice of people 
at a national level, beyond the Postal Service, the CDC and 
others. So it's an evolving situation and we are looking to 
develop a clear set of protocols. But again, the situation is 
so dynamic and so fluid we haven't been able to get to that 
yet.
    Mrs. Maloney. Well, thank you very much. I sent you a 
letter earlier on this, what we've been talking about, clear 
standards and protocols. Thank you very much.
    Mr. Potter. Thank you.
    Mr. Burton [resuming Chair]. The gentlelady's time has 
expired. Mr. LaTourette.
    Mr. LaTourette. Thank you very much, Mr. Chairman.
    Mr. Postmaster General, just an introductory comment. As 
with your predecessor in the previous administration, I want 
you to know that when I watch television, when Deputy 
Postmaster Wilhite gets on the television screen, she's very 
reassuring to the American public. I think she's a good 
presence for the Service, as are you.
    You created a little bit of a stir this week in Ohio, as 
trucks rolled through Ohio, to Lima, OH. That is, my 
understanding, the plant that you have two contracts with for 6 
months to use their facilities. I want to followup from where 
Mr. Waxman was, because I saw interviews with the gentleman 
that owns the facility and listened to what he had to say 
relative to his technology.
    I don't have the same understanding that Mr. Waxman did. 
What this gentleman is explaining, and maybe you can tell us, 
is that the mail is taken from the Brentwood facility and other 
places in Washington, DC, put in a sanitized bag, put in 
another sanitized bag, put in a box. The box is then carried on 
a FedEx hazmat truck, delivered to the facility, put on 
conveyor belts and then goes under this conveyor belt with the 
electronic beams.
    The gentleman did not express any concern that, I heard Mr. 
Waxman talking about thicknesses and maybe you can't do a fat 
package or a dense package. He was pretty much, I know it's his 
business and he's proud of his business, but he was pretty sure 
that what they were doing in Lima, OH, was going to sanitize 
this mail to everybody's satisfaction. Is that your 
understanding as well?
    Mr. Potter. Congressman, what you described is very 
accurate. The discussion that my staff has had, again, with Dr. 
Marburger's assistance, is talking to both the Department of 
Defense. The base that we're comparing this to is research done 
by the Armed Forces Radio Biology Research Institute that 
assessed this technology on a variety of biohazards and 
established dosing levels that would safely achieve kill rates 
to ensure that you have a safe product.
    The other source of information is the Federal Drug 
Administration, who is regulating this process for food 
processing. What we came to a conclusion is from a study done 
by the Department of Defense that there was a safe level. 
However, as was described by Congressman Waxman, there's a 
level of homogeneity, same product, being run through. So the 
question became as with mail, which can be very different from 
one mail piece to the next, how do you determine the dose level 
that's appropriate.
    Well, the dose level that we've established is twice what 
the research would have indicated and beyond. To further 
evaluate that it's being done properly, there's a device called 
the dosimeter that actually measures, did you get the dose you 
thought. That's placed inside the product. So we're running 
that quality assurance.
    And to assure that the product truly gets scanned properly, 
it's run through, does 180 degree turn, and then run through in 
the opposite direction. We're just trying to apply every 
measure of certainty that what we're doing here is applying the 
correct dose and sanitizing the mail.
    I would finally comment that we're also limiting the 
product that we're making that claim on. When you start dealing 
with packages, you really can't assure that somebody could have 
screened so that the dose couldn't be applied. We will have a 
separate process, and there are some packages that are making 
their way into Ohio. That's fine, it doesn't do any damage. But 
what we're saying should be safe is the letters and what we 
call flats, the larger business size envelopes, will be 
properly dosed. So we're working closely with the other Federal 
agencies that have normally dealt with this kind of technology.
    Mr. LaTourette. The other observation is, and you don't 
have to comment on this, but also there's been some published 
reports that this process damages credit cards. I understand 
that it does not damage credit cards, is that correct?
    Mr. Potter. There are some very preliminary tests done by 
the company we're using in Ohio, whose parent company is Titan 
Industries, they specifically tested credit cards and it does 
not damage the card. I also very specifically asked Dr. 
Marburger, who has some expertise in this field. He did not 
believe that the type of dose we're talking here, the 
electronic beam and the magnetic medium that would be on the 
back of a credit card, that there should be a problem.
    Same question has been asked about checks that go through 
the mail. Because that industry also uses a magnetic ink to 
sort. We also believe that there will be no harm to that 
product as well.
    Mr. LaTourette. Thank you. And in general, just before my 
time expires, there have been some observations made, and you 
talked about them, the Governor has talked about them, about 
postal reform, negotiated settlement agreements and so forth 
and so on. Just speaking as one member of this panel who has 
worked with postal reform in the past, I think most realize 
that the disaster that struck the Postal Service on September 
11th, it's continued to strike with the anthrax scare.
    But to tie in some issues that have been rather contentious 
relative to negotiated service agreements and an attempt to 
solve the anthrax problem would be, in my opinion, I say this, 
a mistake. I hope we don't use the events that have occurred as 
a result of terrorist activity to put newspapers, magazines and 
other mailers out of business.
    I would just indicate that some of us are still scratching 
our heads about the contract that your predecessor had entered 
into with Federal Express, which left a lot of questions. So I 
hope we solve your anthrax problems, give you plenty of money 
to make the mail safe. But I hope we don't go down the path, 
let's tag that on too, because I think that would be a mistake.
    Thank you, Mr. Chairman.
    Mr. Burton. The sentiments that the gentleman just 
expressed are not consistent with the chairman's.
    Who is next? Mr. Kucinich.
    Mr. Kucinich. Thank you very much.
    Mr. Postmaster General, thank you for your service to this 
country. I know this has been a tough time for you and your 
staff. I know our committee is very concerned about people who 
are making the decisions, that they get support in trying to do 
their job. I think this committee has been very supportive.
    I have some questions about this plan to use irradiation 
equipment. Have there been any studies done on the impact it 
could have on the workers who are using the equipment, to make 
sure we're not creating more of a problem here?
    Mr. Potter. Again, I'll defer to Thomas Day.
    Mr. Day. Congressman, this is a proven technology, again, 
that has been used in food processing.
    Mr. Kucinich. Has it ever been used for mail before?
    Mr. Day. It has not been used for mail. The technology is 
such, there is substantial shielding that is built around the 
actual equipment. That's where the irradiation actually takes 
place. There is no radiated byproduct that comes out with it. 
We are confident that again, and I'm going to rely on the 
experts in the field, I do not claim to be a physicist, that 
the guidance they have given us on how to send mail through 
this type of technology will not cause harm.
    The only harm that can occur is if you're physically in the 
room where this takes place. That is a very secure, controlled 
environment with shielding. Again, an industry that has been 
around for a while, tightly regulated and tightly controlled, 
to ensure the safety of the workers who are around it.
    Mr. Kucinich. I think that's going to be essential. We're 
here in part because of workplace safety issues that were not 
addressed in a timely manner. And I think that the American 
people ought to make sure that anyone using this equipment is 
not going to be adversely affected, because if the equipment is 
powerful enough to kill anthrax spores, I would imagine at the 
doses that are being recommended for this process, there might 
be some question about it posing any hazard to other, to humans 
and other living organisms.
    I wanted to ask Mr. Potter, how many letters, communication 
to the Government, all these letters that you have that are 
being boxed up and shipped out to Lima, OH, about how many 
pieces of mail are there?
    Mr. Potter. Congressman, right now we're looking, it's 
probably around a million pieces of mail.
    Mr. Kucinich. And that's for----
    Mr. Potter. That's for the--I'm sorry?
    Mr. Kucinich. What are the dates involved?
    Mr. Potter. Some of that mail goes back to whenever the 
House and the Senate shut down their post offices, back when 
the original Daschle letter came through.
    Mr. Kucinich. Members of Congress understand that the 
ability of our constituents to communicate with us through the 
mail is an essential part of our job.
    Mr. Potter. Yes.
    Mr. Kucinich. The phrase, ``write your Congressman or 
Congresswoman,'' has an entire law about it in terms of its 
importance to Government, that we can keep this Government of 
the people functioning. So how long would you say it might be 
before we'll be able to get this information, these letters, 
back into our offices?
    Mr. Potter. Let me tell you exactly what we've done. On 
Friday of last week, we asked all of the Government mail 
managers, all the offices, the Congress, through the White 
House, all the agencies came in. Tom Day and a number of people 
went through a number of safety procedures around what to look 
for, with the Inspection Service, Tom explained the 
irradiation. We also provided these managers some of the tips 
that we were using in the entire Postal Service as well as 
masks and gloves.
    We really tried to bring up to speed exactly what each of 
the Government agencies should be doing in their mail room. We 
have started delivering mail. On Monday we began delivering 
mail. We will continue this process as we get the irradiated 
mail back from Ohio. It has started to come back and by 
Thursday, some of the personal correspondence will be back in 
your system.
    Mr. Kucinich. So people will be able to communicate with 
their representatives through the mail now. Do you have a 
system set up so it's not going through this equipment, but it 
is coming into the House and Senate?
    Mr. Potter. It will come, but it's still going to go 
through the equipment. It will be a little bit slower, but 
we're looking, again, for safety first. There will be some 
delays at this point.
    Mr. Kucinich. And the mail that's being irradiated, if, 
let's say, we're in the Longworth building, which isn't open 
yet, is that mail then going to be set aside and then given to 
us when the Longworth building is open? What are you doing in 
the Senate?
    Mr. Potter. We deliver all the mail to the House post 
office. They would sort and then hold mail for any buildings 
that would be closed. We deliver all the mail----
    Mr. Kucinich. Any individuals that would have a chance to 
go get their own mail? I mean, how can we do this?
    Mr. Potter. Let me back up a second. We deliver the mail to 
the Congress in bulk. The Congress hires folks who work the 
mail room. So we're going to continue to deliver to wherever 
you tell us. Your contractor will sort the mail and make it 
available to you.
    Mr. Kucinich. So you'll be delivering that--you're saying 
that the irradiated mail, all of it will be back in Washington 
by?
    Mr. Potter. It's an ongoing process. As you heard Mr. Day 
explain, we're taking the mail out, it gets irradiated, comes 
back, is sorted in our Government mail facility and then we 
distribute it to the Government offices, including the 
Congress.
    Mr. Kucinich. Mr. Chairman, I think it would be, I think 
all of us would like to know, and I think our constituents 
would want to know, how much more the letters they're sending 
us are going to be delayed. If we have another internal step 
here that we have to look at, I think it would be interesting 
for the Chair and the ranking member to inquire about it.
    Mr. Potter. Congressman, we just began this process. We are 
learning as we speak in terms of the throughput and the 
capability of this facility. We're also looking to move mail 
into other private facilities. We are quickly moving ahead 
with, and we signed a contract last Friday, to purchase our own 
electron beam technology. We anticipate deployment of that 
shortly. So we will provide that for the record.
    Mr. Kucinich. Thank you.
    Mr. Burton. The gentleman's time has expired. Let me just 
say that I'm sure that the Postmaster General will keep the 
Congress informed on all of this so that we can disseminate it 
to all the Members of Congress as quickly as possible.
    In the interim, I'll tell you, one thing that we have done 
is, any correspondence we're sending out to constituents, we 
say that if you sent a letter and you haven't had a response 
yet, write us again because it may or may not get to us for a 
while.
    Mr. Souder.
    Mr. Souder. Thank you, Mr. Chairman.
    First, I want to apologize that I missed the first part of 
the hearing. I was actually chairing two hearings up on the 
Canadian border looking at border security. I did hear Mr. 
Potter's testimony on the radio, in addition to having read all 
the testimony that's been given.
    Let me first comment along the lines of Mr. LaTourette. 
This is not an opportunity to use the current crisis to fix 
things that we've been debating where we have something in 
policy. I've read the next panel's testimony as well and I know 
it's going to come up again. But let me assure you that we 
understand that there is a crisis in the mail system, we're 
gridlocked and somehow we have to resolve this. We have to have 
real resolution and we're not going to be steamrollered by a 
crisis that may not directly relate to that.
    That said, there are going to be additional costs to the 
post office because of the crisis that regardless of our 
opinion on the broader postal reform that we understand we are 
dependent on the mail in this country for all forms of 
communication. It is a central American principle that we want 
to try to protect, not on that you're likely to get more 
conflict if you push too hard in this period, because we're 
having all sorts of industries come into Washington saying, 
often with problems they had before they came, before September 
11th, to come to us. It's going to get old real fast.
    Also, there is a difference, quite frankly, in the post 
office from a pure private sector. We regulate prices in the 
energy sector, anybody who has a Government monopoly is 
subject, even if you're quasi-independent, to more regulations. 
And you always will be, as long as you have assets that were 
invested by the general taxpayers, and as long as, quite 
frankly, some of the management reforms that you might 
undertake as a business, such as Saturday delivery, closing 
certain regional post offices, having different rates in first 
class, probably Congress would react if you started doing 
certain of those types of things.
    So you're always going to be kind of a quasi-independent 
agency that we have to work together, even though the goal has 
been more for independence.
    I also wanted to make a brief comment. I know one of my 
colleagues asked about vaccinations. This committee has had 
numerous hearings on anthrax vaccinations, and problems 
therein, regarding the Guard and others. It is not a slam dunk. 
What we do know is, we know that there is a minimal but small 
risk to people who take the vaccination. We know that the 
company shut down. We know that their supplies have never been 
FDA cleared.
    But what we also know is that it doesn't treat most strains 
of anthrax. And there's a lot of publicity in this country 
about how the vaccination, even if we had the supply, even if 
it was untainted, and even if it was FDA cleared, does not 
appear to work for the strains that are common in Iraq and some 
that we're looking at. So it isn't a silver bullet for the post 
office or for the armed services or for American citizens. It's 
kind of gotten lost in this national concern about anthrax.
    I also, just being in general contrary, want to raise one 
other point and would like you to particularly comment on this 
point, and if you'd like to comment on any of the others. 
Unlike many there's a general concern in the public that we in 
Washington aren't being treated the same and our offices and 
staff aren't being treated the same as the average postal 
worker who is clearly more at risk than any of us. That whether 
it comes to our offices here, whether it comes to our district 
offices, or whether it comes to our home, the first exposure is 
going to be to the people who are bringing it to us.
    We've seen that, because they've died, and we don't even 
have anybody sick. Part of our concern here, and this isn't 
just a House question, it's a Senate question, when it occurred 
immediately in the Senate building, floors have been shut down 
for weeks where there wasn't even a trace of anthrax in the 
Senate Hart building. In the Longworth building, floors are 
shut down where there's not even a trace of anthrax, and 
there's a question whether they're going to fumigate the whole 
building before anybody even comes into any of those floors.
    Now, I know that they're being prudent and that you can 
have disagreements over the health policies that you've 
suggested about prudence. But it is bothering Americans that 
there seems to be a higher level of prudence for people in 
power than there seems to be prudence for people who don't have 
power. Even though it puts the mail at tremendous risk. I'd 
like you to comment on that question without criticizing 
anybody in particular, because it can go both ways. But this 
inconsistency is bothering the American public.
    Mr. Potter. When I reflect back on the situation and what 
happened, it's obvious to me that people acted based on the 
science that was available at the time. At the time that action 
was taken in that Senate building, there was an envelope, there 
was confirmed anthrax in that envelope.
    Regarding the postal facility at Brentwood, there was a 
linkage there, because we knew that the envelope had passed 
through Brentwood. But the assumption was that these envelopes 
were sealed, heavily taped, that whoever sent them was trying 
to do harm to the recipient of the mail and protect those along 
the way by heavily sealing them.
    What we found out later, a week later, was that the size of 
the anthrax spore was so small that it could actually penetrate 
the paper. Now, that was something that we were not aware of. 
That's something that we learned by working backward from the 
opening of the letter in Senator Daschle's office. So we began 
a process of working back.
    Once it became clear that we had a case of anthrax, 
although we did not have any confirmation, as I said, we did a 
quick test on that Thursday that said there was no anthrax 
found in Brentwood, once it was clear that we had an employee 
with anthrax, we took immediate action, shut that facility, had 
people tested, had people treated. And so again, it was what 
was the information we were working with at the time.
    Mr. Souder. I wasn't even necessarily, although in 
retrospect you can do all sorts of management. Right now, a New 
York building is open, whereas the Senate Hart, where they 
didn't find traces on those floors, and the Longworth House and 
the Ford building where they didn't find traces, are closed. 
And it's not just a historical question, it's a question that 
we're looking at right now. The general public would like to 
see some consistency. Because on the one hand, you say your 
postal employees are safe. But if the political leaders and the 
State Department shut all their floors, or HHS does, or 
Congress does, it's not surprising that you're going to have 
dissension.
    Or it may be that we're over-reacting. But the American 
public is disturbed and can't get a consistent health message 
when we're not behaving the same way on floors in the same 
buildings that do not have traces.
    Mr. Burton. The gentleman's time has expired. Do you want 
to respond?
    Mr. Potter. We believe we're reacting with the information 
that we have at hand, with the best advice that we can get in 
the world, so that we can safely remediate our buildings and 
not put our people in harm's way.
    Mr. Burton. Mrs. Mink.
    Mrs. Mink. Thank you, Mr. Chairman.
    I had asked the first panel a question that they declined 
to answer and they passed it over to you, Mr. Potter.
    Mr. Potter. Who did that? [Laughter.]
    Mrs. Mink. I won't name the individual. But the question 
that still persists in my mind is the tracking of the mail from 
Daschle's office to the Brentwood facility and then the 
stopping of the mail deliveries to the House of Representatives 
on October 12th.
    From October 12th until the Brentwood facility was closed 
on the 21st, we assumed that the mail was held there and 
embargoed because of the possible presence of anthrax on the 
outside of the envelopes. From your testimony, I understand now 
that the mail that had been held in Brentwood from the 12th to 
the 21st is being sent to Ohio to be sanitized by this e-ray 
machine that irradiates.
    My question is, once Brentwood was closed on the 21st, what 
happened to our mail, and is that also going to the Ohio 
facility?
    Mr. Potter. The answer to that question is that the mail 
that originates in Washington, DC, is moved to facilities in 
suburban Maryland and northern Virginia to be processed and 
dispatched throughout the country. In addition to that, mail 
coming from around the country was moved to these facilities. 
And mail is being sorted there on a daily basis and prepared 
for delivery in Washington, DC. The mail where we have an 
assumption that there's a threat, that mail is being isolated 
and will be sanitized.
    Mrs. Mink. So the reason we haven't gotten any mail since 
October 12th is that we still constitute a target group and the 
mail is not being delivered to us, but is being delivered to 
other people in the city. Is that correct?
    Mr. Potter. Correct.
    Mrs. Mink. And so we can expect that all of the mail that 
has been sent to us from October 12th will go to this Ohio 
facility and eventually come back to us, is that correct?
    Mr. Potter. Yes, that's correct.
    Mrs. Mink. That's very comforting, because we get asked 
this question all the time, what happens to our mail, are we 
eventually going to get it. And we have been responding thus 
far that ultimately we will see the mail.
    But there's some question of what happened to the mail 
after Brentwood was closed, why weren't we getting that. And 
the answer is, that too is being sanitized in Ohio, is that 
correct?
    Mr. Potter. Correct.
    Mrs. Mink. So then the constituencies that are waiting for 
responses can be told roughly what, another week?
    Mr. Potter. It may be several weeks.
    Mrs. Mink. Several weeks. Are you taking it in the sequence 
in which they arrived at Brentwood, or are you taking it 
wherever it happens to be?
    Mr. Potter. We're trying to move the oldest mail that we 
have through the system to direct it back to your offices, and 
to other Federal agencies.
    Mrs. Mink. I see. Thank you very much.
    Mr. Waxman. Would the gentlelady yield?
    Mrs. Mink. I yield to the ranking member.
    Mr. Waxman. What concerns me is that, we're taking all this 
mail that might have anthrax in it, and isolating it. But we've 
seen a couple of people get sick, and it's not from this mail, 
because it's isolated. So the question is how these people got 
sick, and it could well be, one possibility is that they had a 
cross-contamination from some letter or mail that had anthrax 
on it.
    When the previous panel testified, we asked whether they 
had done any of the investigation to see whether there is this 
cross-contamination in the mail. We were told they haven't even 
begun to evaluate where the cross-contamination can take place. 
The chairman and I have prepared a letter, we're sending it to 
Mr. Mueller and to Dr. Copeland, and to you, expressing our 
concern about the fact that one proactive thing we could do 
would be to take the mail that was at the same time delivered 
to Senator Daschle's office and see if that mail was cross-
contaminated. That would give us some indication if cross-
contamination actually takes place. We were told that process 
hasn't even started.
    So we want to urge you, in our letter to you, which we'll 
make available to you, rather than mail to you, we'll hand it 
to you.
    Mr. Potter. I'd like one in the mail, too. I need the 
revenue. [Laughter.]
    Mr. Waxman. Well, if it comes in the mail, you can sanitize 
it or check for cross-contamination and make sure you don't 
have any anthrax. But we think that study ought to go on 
immediately so we can test this hypothesis as a possibility for 
those two people who did unfortunately get sick.
    Mr. Potter. We are doing an analysis and we're theorizing. 
We have a model of that facility, we're looking at mail. We 
have the ability to track individual pieces of mail across 
multiple pieces of equipment. I don't want to go into a lot of 
detail on it. But we are building a model that would track that 
piece of mail and also enable us to do the type of analysis 
that the Congressman is suggesting.
    Mr. Waxman. That's theorizing. Here you can do a real world 
test, if you just simply get some of the mail that was part of 
the package of mail delivered to Senator Daschle.
    Mr. Potter. Right. And we're going to be able to identify 
the letters to be tested, using the systems that we have.
    Mr. Burton. Mrs. Morella.
    Mrs. Morella. Thank you, Mr. Chairman. Thank you very much 
for scheduling this very important hearing. And I thank the 
ranking member also.
    Congratulations, Mr. Postmaster General. Little did you 
know the kinds of challenges you would be facing as you took on 
the new responsibility.
    Mr. Potter. It's been a long 4 months.
    Mr. Burton. Excuse me, the gentlelady, he had black hair 
when he started. [Laughter.]
    Mr. Potter. Yes. And I was skinny, too. [Laughter.]
    Mrs. Morella. I believe it.
    Just before I arrived at this meeting, I was in my county, 
in Montgomery County with the President at a high school, 
looking at Veterans Day, Wooten High School. It's appropriate 
that their logo has to do with the patriots, they're called the 
Patriots. I say that because I really believe the U.S. postal 
system, they have been patriots. The letter carriers, the 
administration, the postmasters. I truly mean that.
    And indeed, at this time, some of them feel like they're 
real veterans of a war. And they have all been very patriotic, 
and I just think you need to know that from the top all the way 
out. So I salute them.
    I have also been very much aware of the kind of tension 
that they have felt. And I have particularly felt badly 
thinking that they perceived that Members of Congress are being 
treated better than they are with regard to education, 
communication, remediation. I know that you've been trying to 
get communication together. I wondered if, well, first of all, 
let me be provincial. What is the status of the suburban 
distribution facility in Shady Grove, MD, after your scheduled 
inspection last weekend?
    Mr. Potter. We did not get the test results back, but we 
did schedule the suburban Maryland and northern Virginia 
facilities and some of the surrounding facilities here in the 
metropolitan area, the surrounding facilities in Trenton, New 
York and Florida. We hope to be getting those results back 
shortly.
    Mrs. Morella. What are you doing to bring everybody 
together to communicate?
    Mr. Potter. On a daily basis at 10 o'clock, since October 
15th on a daily basis at 10 o'clock, we meet with the 
presidents of the labor unions, the heads of the management 
associations and we discuss the topics of the day, the issues 
surrounding this anthrax situation. We hear back from them on 
whether or not the stand-up talks we have asked to be given to 
our employees actually have been given. We've been out there 
and communicating as aggressively as we possibly can.
    We have videos out, we have masks out, we have stand-up 
talks. We are trying to message to our employees, it's not a 
perfect system. We have 800,000 people. This is like an 
aircraft carrier, trying to get everybody moving in the right 
direction does take time. But we're mobilizing, not only our 
internal resources through management channels, but we're also 
working with the unions and management associations to use 
those channels to get messages to our employees.
    Mrs. Morella. I commend you on that, and I know that you 
will continue it. I feel that this terrible tragedy may well 
have brought us together in a closer partnership than there has 
been before. So I commend you on meeting with the unions, 
meeting with the postmasters, bringing everybody together, 
because we are all in it together.
    It would also be good if you assess how the employees, 
feel, too. In other words, listen to what they're saying in 
terms of the scuttlebutt, the concerns they may have. Are they 
assigned, like at the Shady Grove distribution center, are they 
assigned gloves and masks?
    Mr. Potter. Yes.
    Mrs. Morella. Do they do it voluntarily?
    Mr. Potter. Yes. We've purchased over 4 million masks for 
our 800,000 employees. We've bought some 88 million pairs of 
gloves. And they're being messaged, there are videos out there 
and they're being trained on how to appropriately use this 
equipment. So again, we're doing everything that we can to help 
them feel safe in the work environment.
    We also have counseling available to all our employees. 
We've also contracted for doctors to come onsite and talk to 
our employees around the clock and explain to them what anthrax 
is, what they should be looking for on their personal bodies, 
in the form of lesions, what they should be concerned about 
concerning their health and what appropriate precautions that 
they should take.
    Now, again, you're going to find somebody in America who 
might have been off on that day or where it wasn't done 
properly, and we're trying to shore that up and make sure 
everybody's getting a common message.
    Mrs. Morella. With regard to the irradiation or the 
electronic beam technology, are you prioritizing what centers 
are going to get it before others? Do you have kind a level 
of----
    Mr. Potter. Well, certainly we'll listen to the law 
enforcement authorities and allow them to help us in terms of 
prioritization. It's not something that we would tell the 
world, obviously. Because people then could circumvent what 
measures we put in place.
    Mrs. Morella. But you will have, priority will be 
established and it will be done on the basis of the greatest 
need as perceived?
    Mr. Potter. Greatest threat, yes.
    Mrs. Morella. By those people who are experts. Well, I just 
want to thank you for the kind of work you all have been doing 
and tell you that I look forward to continuing to hearing from 
you about what needs to be done, particularly with regard to 
dispensing Cipro and antibiotics and whatever other situation 
is absolutely necessary. I thank you, as I say, for what you're 
doing. And I hope that you will continue to be a partnership 
with all the other elements, including the unions, postmasters, 
etc.
    Thank you, Mr. Chairman.
    Mr. Burton. The gentlelady's time has expired. Mr. Davis.
    Mr. Davis of Illinois. Thank you, Mr. Chairman, Mr. Potter. 
Let me apologize for missing part of the testimony. I was 
engaged in something else at the time.
    But it sounds to me like you're expressing a level of 
confidence and comfortability in terms of having policies that 
are either in place or that can be immediately put into place 
to not necessarily guarantee but to feel that the health and 
safety issues of employees are being addressed adequately.
    Mr. Potter. Yes, sir, we are, Congressman. We are working 
very closely with everybody, as I said, the unions, management 
associations, health experts, to determine what are the best 
measures that we could take to create a safe and secure 
workplace and with the law enforcement authorities to make the 
mail secure.
    Mr. Davis of Illinois. As we do that, and as we know that 
the Service was being taxed in some way already, relative to 
its financial condition, or at least that's information that 
had been brought back and forth, how much additional pressure 
is this putting on the Postal Service in terms of its ability 
to be financially secure and able to continue with its work and 
meet the challenge of the bioterrorism?
    Mr. Potter. It's putting a tremendous burden on the Postal 
Service. The measures that we're taking to screen mail are 
costly. The measures that we are taking to assure that we have 
a safe work environment, whether that's masks, gloves, all of 
the medical costs associated with this situation, we have some 
15,000 employees who are on medication. All of those situations 
are costing us money.
    We were very happy that the administration allocated some 
$175 million for the Postal Service to help us with a 30 day 
period worth of cost. However, beyond that, the cost of 
modifying our operations, such that we can sanitize mail or do 
some other type of intervention, are going to cost several 
billions of dollars.
    In addition to that, the September 11th attack caused our 
revenues to be approximately $300 million below expectations, 
and we went into the year with a very conservative estimate of 
what our revenues would be. This anthrax attack could further 
compound that, depending on the confidence that the American 
public has in the mail.
    So we could be looking at several billion dollars worth of 
impact from a revenue standpoint. Obviously, as time goes on, 
we'll be better able to quantify that. And we are working 
feverishly to try and provide what is an accurate estimate of 
what those costs would be.
    Mr. Davis of Illinois. So you're saying that any way you 
cut it, but no matter how you look at it you're going to need 
to be able to generate either some additional revenue or find 
some way to reduce the cost of operating, and certainly it 
doesn't look as though that would be possible in this climate. 
There were conversations earlier already about certain reform 
elements and movement. Does this heighten the need for reform 
that was already being discussed and on the table?
    Mr. Potter. It certainly illustrates the tools that the 
Postal Service has to address these types of situations. One 
tool that we have not used in years was to seek an 
appropriation. And we're going to seek an appropriation, 
because we are going to have one time costs associated with the 
modification of our facilities, one time costs associated with 
this loss in revenue. And we view this as a homeland security 
issue. These terrorists have done harm to the postal system.
    There have been comments before you came into the room 
regarding whether or not this was an appropriate time to 
discuss reform. We at the Postal Service have been discussing 
that for the last 5 years, and discussing the types of tools 
that we have as managers and that the board has available to 
them to react to situations such as this. And I would ask that 
Governor Fineman perhaps would want to make a comment.
    Mr. Fineman. I feel somewhat reluctant, Congressman. I 
would say there's no part of me that wants to limit, that can 
in any way limit the debate that this committee is going to 
have about postal reform. But on the other hand, it's clear to 
me that this crisis just heightens the awareness of postal 
reform. And maybe we do have to separate the issues.
    But it is an issue for us, the Governors, probably two of 
the most important things we do, one of which is to hire the 
Postmaster General. In this case, we hired the right man. We 
hired somebody who understands how the Postal Service operates, 
and he's guiding us through what is clearly a crisis in 
operation and a crisis in management.
    On the other hand, we do set rates in conjunction with the 
Postal Rate Commission. What we don't want to do, and we've 
spoken to the chairman, to Congressman Davis, to others, and I 
heard the Congresswoman talk about the magazines in New York, 
we don't want to in essence limit the amount of mail that's 
going to come through the postal system by raising rates so 
high that we're going to find other means of communication. And 
as the Postmaster General indicated, for this one time, we're 
probably going to come back to Congress, and we're going to 
say, we need some help here, because this is a homeland 
security problem.
    On the other hand, at the same time that we're going to be 
asking for funds, it looks pretty clear to me that the volume 
of mail is going to decrease for some period of time. And I 
just say to you, we can talk about how to do it. But right now, 
we have very, very limited tools.
    Mr. Davis of Illinois. I know that my time is up, Mr. 
Chairman, and I appreciate the indulgence. Could I just ask if 
they'd answer, are you saying that you really feel that you 
don't have any choice except to come and ask for an 
appropriation?
    Mr. Potter. Given the economic circumstances of the Postal 
Service, the answer is a resounding yes.
    Mr. Davis of Illinois. Thank you, Mr. Chairman.
    Mr. Burton. The Postal Service, as you know, and Danny 
Davis and I worked on this, they've been right up against that 
debt ceiling for some time. I'm sure with this tragedy they're 
probably going to surpass it. That means Congress is going to 
probably have to do something else to get them over the hump.
    Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    General Potter, I was looking at your prepared statement. I 
know we have over 800,000 postal employees. You stated that 
over the last 2 weeks more than 15,000 employees have begun 
receiving antibiotic treatment and that some 9,000 have been 
tested to date.
    When I looked at those numbers, I realized that in many 
ways, you attempted to do the best that you can, even though I 
do agree with I think many who think that it would have been 
better had those antibiotics been administered immediately upon 
discovery of contamination in the postal facility. But it does 
seem to me that a number have been tested. Have any of those 
who have been tested have tested positive?
    Mr. Potter. We don't have any results from the bulk of 
those tests. We have 30 tests in Florida, they were all 
negative. Beyond those, we have not received the results of 
those tests.
    Mr. Turner. If today you were to discover additional 
contamination in any postal facility in this country, or if you 
discovered that mail was contaminated, that had gone through 
any postal facility in this country, would you immediately 
suggest to those postal workers that they take antibiotics if 
they were in those facilities?
    Mr. Potter. I would immediately consult with the medical 
experts and being a layman, I would suggest and urgently 
suggest that they consider putting people on antibiotics. But 
I'm not a medical person, I can't prescribe them myself.
    Mr. Turner. Well, I recognize there's always medical 
uncertainty here. But because of the criticism that you've been 
previously met with, it perhaps would be a good policy to 
simply say that if in the future any postal facility is 
discovered to be contaminated, or if a piece of mail is 
discovered that is contaminated, then the postal facility 
through which that mail traveled, those workers should be given 
the immediate option for antibiotics.
    I'm wondering, the mail that you have sent away to be 
sanitized, is that Government mail that we're talking about 
that's being sanitized?
    Mr. Potter. It's Government mail and any mail that was in 
that Brentwood facility when we discovered that the facility 
was contaminated.
    Mr. Turner. The Daschle letter was postmarked October 9th, 
Trenton, NJ. I assume it takes a couple of days for it to reach 
the Brentwood facility, would that be roughly correct?
    Mr. Potter. Yes. It was scheduled for delivery on Monday 
and it was delivered on Monday.
    Mr. Turner. So if we believe there is the possibility of 
cross-contamination, it certainly appears to be possible, we 
have three offices in the Longworth building that have been 
shown to have presence of anthrax, and there's no letter to 
which that could relate, is it then not possible that cross-
contamination occurred in some of the mail that was delivered 
after approximately October 11th until the mail ceased to be 
delivered from Brentwood that contamination could have occurred 
in other locations in the district that is served by the 
Brentwood facility, other than the Government offices?
    Mr. Potter. Yes, that's certainly possible.
    Mr. Turner. And has there been any effort to publicize 
which areas of the district that would be?
    Mr. Potter. There's been an effort to identify mail that 
was processed on machines with the Daschle mail. The vast 
majority of that mail, I'm talking about over 95 percent of 
that mail, was Government mail. So that's the mail that, again, 
we embargoed, held onto and are seeking to sanitize.
    Mr. Turner. This Government has just been, it's been 
suggested that our Government and our agencies have perhaps had 
a double standard with regard to the treatment of postal 
workers. It would seem to me prudent not to find ourselves in 
the position where we also are accused of a double standard 
with respect to recipients of mail who may be non-Government 
recipients. Perhaps it would be wise to at least advise the 
public as to which portions of the District may possibly have 
received other contaminated, cross-contaminated mail.
    Mr. Potter. We're thoroughly looking through our systems to 
try to identify not only what pieces there might have been and 
what sections, but actual addresses.
    Mr. Turner. I wanted to ask Mr. Day if he would comment. 
You've suggested that you need $2.5 billion to install the 
necessary equipment to begin sanitizing the mail on a routine 
basis. I'd like to have some feel for what that $2.5 billion 
will purchase. Because I have a sense that the Congress and the 
American public may not have fully yet appreciated the 
tremendous cost that will be associated with protecting the 
public health and safety, not only within the Postal Service 
but the myriad of other activities that are now threatened by 
terrorist acts.
    So could you give us a feel for how many machines, what 
kind of coverage you will have if you are able to secure that 
$2.5 billion?
    Mr. Day. Congressman, if I could, in terms of the full 
deployment, and how we plan to do that and the costs associated 
with it, quite honestly, if we could do that off line, because 
there's some security information as part of that. I'm actually 
doing a briefing on Friday for both some House and Senate staff 
members. I'd gladly do that if you'd like me to.
    Mr. Turner. Well, would you describe that $2.5 billion is 
total comprehensive coverage of the U.S. mail, or is this an 
effort to secure certain or sanitize certain mail facilities to 
the exclusion of perhaps a whole lot of others?
    Mr. Day. Without getting specific, and I can do that off 
line, in the broadest sense, we're trying to provide for the 
security of the mail for the entire public.
    Mr. Burton. The gentleman's time has expired.
    Mr. Turner. Thank you, Mr. Chairman. Thank you, Mr. Day.
    Mr. Burton. We may have some more information for you that 
we can get to you, Mr. Turner.
    Mr. Kanjorski.
    Mr. Kanjorski. Thank you, Mr. Chairman.
    Mr. Potter, I have a few questions. I'm trying to speak for 
the average citizen and the average postal worker. I don't want 
to say this to embarrass you or attack you, but there's an 
attitude starting to build in the country, it hasn't come to a 
crisis stage, but that we seem to be an hour late and a dollar 
short. Our logic and our reasoning are always behind the cycle.
    Something that struck me that as soon as Mr. Stevens was 
infected with inhalation anthrax, it is axiomatic that the 
spores had to be 1 to 5 microns in order to penetrate the 
depths of the lungs that caused that disease. Then logic must 
have followed after that somebody should have had the question, 
``What is the pore size of paper?'' As I understand it, the 
average envelope can be penetrated by 30 micron material. So it 
would have been very conclusive that what had infected Mr. 
Stevens could pass through paper and envelopes.
    Yet there was a period of 14 or 18 days that there was no 
backup study of the exposure of the post offices and the 
processing of the mail. That's not to blame anyone. What 
bothers me is that there doesn't seem to be logical thinking, 
analysis, time when people are stepping back and analyzing what 
can happen.
    I pose another question, and I'm sure you don't have the 
answer to this. I did ask it of the homeland security 
director's office the other day. We've now had four deaths from 
inhalation anthrax, the first time since 1978, to my knowledge, 
that anyone in this country has died that way. My question was, 
as I understand from microbiologists, in every drop of blood, 
when a person expires from anthrax, inhalation anthrax, there 
are 2 billion bacterium. Bodies have to be processed after 
death.
    I wanted to find out what is being done with these four 
bodies. Are they properly being processed to make sure that 
we're not turning over an inventory or a factory of anthrax, 
either in a grave or in a funeral home or its location? The 
answer was, well, no one had thought of that. I haven't 
received a full answer yet, but that shakes my confidence in 
the system.
    You had mentioned earlier that you were buying 400,000 
masks. Do those masks withhold particles of 1 to 5 microns? 
Most masks that I know of that you can buy only withhold 30 
micron material. Other than that, you have to have a closed 
system of oxygen. I could be wrong. I'm not an expert in the 
area. But are you certain that these masks you're buying are 
able to filter out material lower than 30 microns?
    Mr. Potter. They're able to filter out down to three-tenths 
microns.
    Mr. Kanjorski. Excellent. I'm glad somebody asked the 
question.
    Now, the final question I come up with, I know your 
department has done a study recently on consolidation of postal 
centers and postal handling material. That was done pre-
September 11th. It seems to me that this should point up to the 
Postal Service the concentration of mail out of single bulk 
houses covering regions, maybe a State in size, or multi-
States, may not be the best psychology in the world. 
Decentralization may be much better.
    I'll give you a perfect example. In Pennsylvania, we're 
going to be merging two centers. That means rather than a 
million people that have their mail, if they're merged in with 
another million or 2 million, if there is a biological attack, 
it affects the mail to 3 million people rather than 1 million 
people. It could have a tremendous economic impact, your theory 
of concentration and centralization.
    Now, I understand in pre-bioterrorism that may have been 
good business. I'm not certain that total centralization is not 
something that should be re-examined, restudied and perhaps 
doesn't lend itself to the best judgment at this time, not only 
considering anthrax, but any other biological problem or any 
problem that we may have in the future.
    I would hope that you, as the leader of the Postal Service, 
would re-examine that study. I wish I could give you the name, 
maybe you're aware of it. It is contemplating the consolidation 
of 25 centers in the country.
    Mr. Potter. The area mail processing studies that are 
underway, I'm very much aware of that.
    Mr. Kanjorski. Well, that's right on track to be 
implemented, and it may be contradictory to the 
decentralization theory of being able to contain the exposure 
and contain the effect of something like this.
    Mr. Potter. We're also looking at it as being consistent 
with the concept of sanitizing mail because of the expense of 
the equipment and the type of shielding that this equipment 
requires. You want to limit the amount of sites that you have 
that type of equipment in.
    Mr. Kanjorski. I would assume, aren't you going to sanitize 
the mail upon receipt as opposed to pre-delivery?
    Mr. Potter. We're going to sanitize the mail, we're going 
to develop procedures for handling of mail out of collection 
boxes, and moving the mail to----
    Mr. Kanjorski. At the collection site, not necessarily the 
distribution site?
    Mr. Potter. The sanitizing will occur at a distribution 
center.
    Mr. Kanjorski. Then you're going to expose all the postal 
workers to anthrax.
    Mr. Potter. No, we're not. We're developing procedures to 
assure that mail is handled safely.
    Mr. Kanjorski. I just want to leave you with the idea, 
something that's disturbed me over these last several weeks, 
and I haven't publicly spoken up, but I'm going to say it 
today. I've heard this expression, ``we were totally surprised, 
we were shocked.'' That was the fact that two airplanes could 
be used as missiles to hit the World Trade Center. And I 
wasn't. I read it in a book by Mr. Clancy several years ago 
where a plane struck the Capitol.
    So it sort of shakes me up that some of the people in 
Government that are thinking of what can happen, may happen or 
will happen did not, they don't seem to be thinking out of the 
box. That was the example of what I gave you when I talked 
about Mr. Stevens all the way to Senator Daschle's office, the 
fact that you almost wait until there's a diagnosed case. You 
get the idea it may have something to do with that letter, as 
opposed to--not being an expert myself, but I know these spores 
can only penetrate the lungs if they're 1 to 5 microns. All the 
microbiologists have said that.
    I know that paper allows 30 micron material to go through. 
So I wouldn't be shocked if 1 to 5 micron material were put in 
30 micron hole paper and it escapes. And yet it took CDC and 
whoever was working on this 2 or 3 weeks to come to that 
conclusion, instead of going back very quickly and anticipating 
that we have to look at the sorting systems, the delivery 
systems, etc.
    I'm just worried that--these are all new things that are 
happening to us. But I think what the American people expect us 
to do is think out of the box and not just think in numbers. $3 
billion is a pretty big bill, but I'm sure the American people 
will pay for that bill. But they will only pay for that bill if 
they have a high degree of certainty that they are going to be 
less at risk, and certainly that the 800,000 workers in the 
post offices are less at risk. These people aren't guinea pigs. 
I don't want to think that we use them that way, and I don't 
think that we did. I think it was legitimate not thinking of 
what the ramifications of this could be. But now we've thought 
of it.
    I hope also you will take your good offices to find out 
these people that have died from anthrax, what was the control 
of those bodies and the material in them? And have we thought 
of the potential of using the material that was produced in 
those bodies that could be remanufactured or re-milled into 
much more greater supply of this material than we have yet 
faced? Someone in the administration has to ask that question.
    Mr. Potter. I personally know that the CDC contacted the 
widows regarding that, because I discussed it with one of the 
widows.
    Mr. Kanjorski. Can you say with some certainty that actions 
were taken that no one has to worry about it?
    Mr. Potter. Again, I think that's a private matter for the 
families, not for me to discuss. But I know that those families 
were contacted on that issue.
    Mr. Burton. The gentleman's time has expired.
    Let me just say to the panel, and in particular to you, 
General Potter, I appreciate your sticking with us as long as 
you have. I know you were going to try to be out of here at 3 
o'clock and I apologize for the delay. But it's very important 
for the American people and in particular, the Congress, to 
have answers to these questions. So we really appreciate your 
being here and staying with us. We have some other questions 
we'd like to submit for the record, and we'll get those to you.
    Mr. Potter. Thank you very much, Mr. Chairman.
    Mr. Burton. Excuse me, Mr. Shays, real quickly.
    Mr. Shays. I just want the record to show that I had an 
opportunity to speak to Mr. Potter beforehand. I'm sorry I 
wasn't here for the hearing part, but I appreciated his 
response to my questions.
    Mr. Burton. Did you have further questions?
    Mr. Shays. No, I don't.
    Mr. Burton. Thank you very much, gentlemen.
    We will now have our next panel come up, Mr. William 
Burrus, president-elect of the American Postal Workers Union; 
William Young, the vice president of the National Association 
of Letter Carriers; Gus Baffa, president of the National Rural 
Letters Carriers Association; and William Quinn, president of 
the National Postal Mail Handlers Union.
    George, it's good seeing you here today, too.
    Before you sit down, we'll just ask all of you to stand and 
raise your right hands.
    [Witnesses sworn.]
    Mr. Burton. Be seated. I guess if you have opening 
statements, we'll be glad to receive them at this time. I think 
we'll start with Mr. Burrus.

STATEMENTS OF WILLIAM BURRUS, PRESIDENT-ELECT, AMERICAN POSTAL 
  WORKERS UNION, AFL-CIO; MO BILLER; WILLIAM YOUNG, EXECUTIVE 
 VICE PRESIDENT, NATIONAL ASSOCIATION OF LETTER CARRIERS; GUS 
BAFFA, PRESIDENT, NATIONAL RURAL LETTER CARRIERS' ASSOCIATION; 
AND WILLIAM H. QUINN, NATIONAL PRESIDENT, NATIONAL POSTAL MAIL 
                         HANDLERS UNION

    Mr. Burrus. Good afternoon, Mr. Chairman, members of the 
committee. And thank you for providing me the opportunity to 
testify today.
    Accompanying me today is Mo Biller, the president of the 
American Postal Workers Union. I've been elected as the next 
president of the American Postal Workers Union, but today and 
forever, Mo Biller will hold the title of president of our 
union. He has served an illustrious career, having served 
humankind as well as all postal employees for an extended 
period of time. We in the labor movement honor all of his 
contributions to our country and certainly to our union. We 
will be ever grateful for his contribution to us.
    I have had the opportunity over the past 21 years of 
serving as the vice president under Mo's leadership. I've asked 
him over the past several weeks, I would certainly be pleased 
if he would extend his term by at least another 6 to 8 months 
so we can get through this anthrax scare. He has an illustrious 
career and never had a challenge as I'm facing as I assume 
office.
    The American Postal Workers Union represents approximately 
380,000 employees of the U.S. Postal Service. Our members work 
in every State and territory of the United States. The fact 
that these men and women have continued to work in the post 
office since anthrax was first discovered in the mail has been 
nothing short of heroic. I am proud and humbled to be 
representing them before you today. In the face of unknown and 
potentially deadly danger, they have been determined and 
steadfast in the performance of their duties.
    I have submitted written testimony for the record and have 
an additional statement to make to you this afternoon. I've 
heard several questions from the panel comparing the discovery 
of anthrax in the House, the Senate and some of the other 
mailrooms throughout the country. I think it's extremely 
dangerous to compare the U.S. Postal Service to any other 
organization. We processed and delivered 680 million pieces of 
mail today. While one can close the House, the Senate or one of 
the smaller mail rooms, and have an impact upon whoever they 
serve, you close the U.S. Postal Service, you have an impact 
upon the entire country and perhaps other parts of the world as 
well.
    It's really no real comparison to say, why don't we apply 
the same standards that they apply in some other units to the 
U.S. Postal Service. Because the result and impact is 
drastically different.
    There have been a number of questions raised about the 
decisions made in New York, Morgan Station. As Postmaster 
General Potter explained, he and I did have a discussion about 
New York. And our policy is strict. We have agreed to a policy 
that if anthrax is discovered in any postal facility, it shall 
be closed. That's our strict policy. When Morgan was discovered 
to be contaminated, M. Potter discussed that with me. And we 
agreed that Morgan, representing one of the key points, the 
busiest city in our country, perhaps it was not in the interest 
of the American public to completely close that facility.
    We were in Washington, DC, and CDC and health authorities 
were in New York City. They were advising us by phone that it 
did not represent a clear danger to the employees on other 
floors. And CDC recommended that they close off the floor where 
contamination was found, but it would be safe for the employees 
to continue working on other floors.
    Notwithstanding the fact that our clear policy was that if 
anthrax was discovered, we would close the building, not a 
floor. Mr. Potter and I discussed it, and I agreed, as 
representative of the employees, to let CDC and the medical 
authorities in New York explain that to the employees and the 
local union. Convince them that it's safe and leave it to the 
individuals on those floors whether or not they wish to work on 
the other floors in Morgan or leave the facility.
    They did that. Obviously some of the employees in Morgan 
Station elected to continue working in the building. But what 
I've since learned is, having traveled to Capitol Heights here 
in the District yesterday to visit with my constituents, there 
is a lot of animosity when employees come from a tainted 
facility into what is perceived to be a clean facility. The 
average employee believes that they can contract anthrax by 
mere contact with another person who possibly could have been 
exposed to anthrax. So taking the employees in Morgan and 
dispersing them to other facilities in New York would have set 
up that type of situation. You would have had other employees 
in the other facility resenting the fact and afraid of those 
employees' presence in their facilities.
    So I thought at the time, and I don't want to extend this, 
and I've talked to Mr. Potter, in between our testimony, that 
we're not going to make the exception the rule. While we agreed 
to make an exception in Morgan Station and today in Palm Beach, 
FL, it too is an exception, CDC made the same recommendation, 
but I informed him and Mr. Donohoe that these are exceptions 
and will not become the rule. That if we have agreed to close 
any facility that is tainted by anthrax, we must follow through 
with that commitment.
    So if there is a future site identified as having been 
contaminated, I do expect that our agreement to close the 
facility will apply, and we will in fact close those 
facilities.
    I want to emphasize that despite the deaths and injuries 
that have occurred, the American Postal Workers Union and the 
U.S. Postal Service have approached these challenges and 
tragedies together. Even though we have had a historic 
adversarial relationship, we find that this is common cause, 
and there are no differences between us as we address the real 
dangers of the anthrax scare.
    In fact, just prior to the earlier discovery of anthrax in 
Florida, postal management had issued instructions to employees 
to recognizing dangerous material. It initiated what we refer 
to as the shake test, that if an employee found a parcel or a 
letter that appeared to be dangerous or contain some hazmat 
related material, the employee was to raise it to eye level and 
shake it.
    This was before we knew anything about anthrax. My union 
initially objected very strenuously to the shake test. We 
thought that it just didn't make common sense to take something 
potentially explosive, take it up to eye level and shake it, 
perhaps combining two chemicals that when combined create an 
explosion and perhaps seriously injure a postal worker or a 
customer.
    But just as we entered the anthrax situation, after meeting 
with management, they agreed to eliminate the shake test. That 
was our first agenda item. We had to eliminate the shake test. 
Since then, we've gone on together in trying to address anthrax 
situations.
    The APWU sees this as a situation where we and the Postal 
Service must confront a common enemy for the good of the 
Service and the good of the country. I've tried to focus our 
members on the real culprit in this situation. It's not the 
CDC, it's not the U.S. Postal Service or the local health 
authorities, although perhaps looking backward with perfect 
vision, perhaps some mistakes were made, retroactive mistakes, 
mistakes knowing what we know today applying to the knowledge 
they had at the time decisions were made.
    But I find it serves little purpose for me to impress upon 
my membership that their national union is in major 
disagreement with their employer because those employees go to 
work every day being psychologically challenged, wondering, is 
this the day, do I contract anthrax today. And I believe that 
anything that moves them off that fine line perhaps may lead to 
the closing of the U.S. Postal Service. Because some day, if 
they find any fuel for that uncertainty, employees will not 
voluntarily work in fear for the balance of their lives.
    The employer has a moral and legal obligation to provide a 
safe and secure workplace. In this crisis, we have sought 
always to do the best that could be done to safeguard the lives 
of postal workers. We have set aside our labor management 
differences and worked together to protect lives, both postal 
and the American communities that we serve.
    We cannot bring life back to our brothers who are now 
deceased. All we can do, and we are doing all that we can, is 
to work with postal management and other postal labor unions 
and management associations to try to make sure that we will 
never again be required to attend the funeral of a postal 
employee whose life has been taken through a terrorist act.
    This has been our approach and we will continue to work 
with management to safeguard lives.
    Let me be clear to the committee, Mr. Chairman. You've 
heard the testimony of CDC, U.S. Postal Service and the high 
level officials working for the Postmaster General. From day to 
day, we don't know if postal employees are safe. Much of what 
we're acting upon is speculation. A clear indication of that 
was yesterday, as I attended the 10 o'clock meeting. I asked 
the representative from CDC who attends our meetings that I 
intended to go into the Capitol Heights facility. I have 
members of my union that work in that facility. In addition, 
some of the employees from Brentwood had been reassigned to 
that facility.
    These are men and women that are working there every day, 
going to work, not sure of the product in which they earn their 
living. Every letter has the potential to be deadly dangerous. 
Every parcel has the possibility of killing them.
    I had to bring the presence of our national union in their 
midst to give them the confidence that if they can work in that 
facility 8\1/2\ hours every day, certainly their union 
leadership can show a presence in the facility where they work. 
So at our 10 o'clock meeting I asked the representative from 
CDC, Postal Service officials, all of the top level officials 
that testified before you today, I'm going into the Capitol 
Heights facility, I'm not going to wear a mask, I'm not going 
to don gloves, what are my risks? What would you say to me? I'm 
a member of you, I live in an ivory tower, what are my risks in 
that facility, knowing that my risks are no greater or no worse 
than the employees that work in that facility.
    After 20 minutes of heeing and hawing, nobody gave me an 
answer. It's because nobody knows. We provide masks and gloves 
to those hundreds of thousands of employees to serve perhaps 
some psychological needs as much as it does their physical 
needs. When they discover anthrax contamination, those who come 
into the facility that time do not have on masks and gloves. 
They are covered from head to foot, breathing pure air, not air 
through an M-100 mask that may be compromised by one who wears 
facial hair or perhaps some other reason it does not have the 
perfect fit. They don't come in with the gloves that we're 
distributing to those employees. They have hazmat equipment to 
clean up that spill.
    And you can imagine the consternation of the employees I 
represent to be working in that facility with normal attire, 
gloves and a small mask on their face, looking up to see these 
individuals coming in with these moon suits on. Knowing that 
they're protected and they have all this material on them, how 
can the employee be protected?
    So despite our assurances to you, the assurances to our 
employees, the assurances to the public, we're learning every 
day. We don't know how the mail is being contaminated. We don't 
know if the Daschle and other letters are the only ones that 
are transmitted through U.S. Postal Service. We don't know 
whether or not one is being put in the mail as we speak. And 
the employees I represent are working in those facilities with 
that uncertainty on their mind.
    And as postal management publicly expresses its sorrow and 
concern for deceased postal workers and their families, they 
are simultaneously attempting to cut the wages and health 
benefits of these very employees, using the impact of anthrax 
as justification for these reductions. Now, nothing could be 
more cynical than that. This is institutional hypocrisy. Postal 
workers have been without a contract since November 2000. 
Management has refused to negotiate a new labor agreement and 
now are seeking to impose cuts in wages and health benefits. 
And not just a simple cut, cuts every year for 4 years, 
successive cuts every year for a 4-year period for individuals 
that are putting their life on the line every day to serve the 
American public.
    These are proposals management has advanced in bargaining 
before. But this time they seem to hope that the anthrax crisis 
will give them an opportunity to achieve them.
    Mr. Burton. Excuse me, Mr. Burrus. Let me say that your 
statement is very powerful and we do appreciate it. Would it be 
possible for you to summarize it?
    Mr. Burrus. I am. I'm just about finished.
    Mr. Burton. Thank you, sir.
    Mr. Burrus. The APWU will not tolerate or accept this 
attempt to exploit this tragic situation to achieve this long 
sought goal. This is not the time or place for me to go into 
these issues in any detail. I have called an emergency meeting 
of our executive board to prepare a response and have scheduled 
a press conference. The focus of today's hearing should be and 
is safety of postal employees. This is our first and primary 
concern.
    Thank you for your attention.
    [The prepared statement of Mr. Burrus follows:]
    [GRAPHIC] [TIFF OMITTED] T7387.049
    
    [GRAPHIC] [TIFF OMITTED] T7387.050
    
    [GRAPHIC] [TIFF OMITTED] T7387.051
    
    [GRAPHIC] [TIFF OMITTED] T7387.052
    
    [GRAPHIC] [TIFF OMITTED] T7387.053
    
    [GRAPHIC] [TIFF OMITTED] T7387.054
    
    [GRAPHIC] [TIFF OMITTED] T7387.055
    
    [GRAPHIC] [TIFF OMITTED] T7387.056
    
    Mr. Burton. Thank you, Mr. Burrus. And as I said, that was 
a very, very powerful statement.
    Mr. Young. And if we could, gentlemen, I'm going to allow 
you extra time, because I understand you've got an awful lot 
that you want to get off your chest. But if we could stay close 
to the 5-minute limit, we'd appreciate it.
    Mr. Young. Thank you, sir. My name is William Young. I'm 
the executive vice president of the National Association of 
Letter carriers. I'd like to thank you for holding this 
important hearing today. I know that you and the members of the 
committee will understand if I say that I really wish this 
hearing was not taking place. But given the current situation, 
we at the NALC appreciate your concern.
    The expressions of support that we have received over the 
last week and a half have been heartening. To every American, 
the site of their letter carrier is a symbol for national 
community. It is as familiar as virtually any image of our 
country. When the perpetrators embarked on this heinous attack, 
they could not have possibly imagined the strength and 
compassion of the American public.
    I brought with me today and I'd like to ask that it be 
entered into the record, Mr. Chairman, something that was hung 
on the board in the lobby of the Brooklyn post office just this 
week. It's very short and I'll read it. ``To our postal 
workers, we salute your courage, we salute your services. You 
are the newest soldiers in the war against terror. We 
sympathize with and pray for your stricken and fallen 
colleagues. Stay the course.'' A Brooklyn family.
    It's those kinds of expressions, sir, that make it so easy 
for the members that I represent to be out on the street every 
day.
    Mr. Burton. We will put that in the record.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T7387.057
    
    Mr. Young. Thank you very much.
    Congress has expressed, and I won't get into any detail 
with this, but several of the members of the committee today, 
while I was sitting back listening, have expressed the 
importance of their mail because it keeps you in touch with the 
constituents that you represent. We understand that, sir, and 
that's why the members of my union and the members of Bill's 
union and the other brothers represented here are working so 
hard to try to keep the mail flow up and running, even in these 
very challenging times.
    But when we're confronted with the challenge of this 
magnitude, that is wholly removed from anything we've seen 
before, the learning curve is pretty steep. The Postal Service 
and all the employee organizations have been able to 
disseminate timely information as it becomes available to us. 
It is no secret that our union has not always seen eye to eye 
with the Postal Service, but this unprecedented attack has been 
met with equally unprecedented levels of cooperation.
    Our national agreement, article 14, section 1, says it is 
the responsibility of management to provide safe working 
conditions in all present and future installations, and to 
develop a safe working force. From my point of view, sir, and 
from the point of view of the leadership of our union, the U.S. 
Postal Service is doing everything they can to meet that 
commitment.
    We have been forced to rethink the way we move mail. 
Serving more than 130 million delivery points 6 days a week 
requires a massive and extensive infrastructure, an 
infrastructure that will largely have to be revamped in the 
coming months. Our members have learned the hard way that they 
have to look for these new threats, and that the country is 
relying on them for protection.
    I have great admiration for all of our members, especially 
those at the Brentwood facility here in Washington and in west 
Trenton. I'm extremely proud of the letter carriers there for 
the way that they have responded during this crisis. The New 
Jersey carriers are casing their mail in tents next to the 
building where they normally work, and I have another thing 
that I'd like to ask to be entered into the record. It's a 
picture of those tents with our letter carriers in them, 
performing that work. It was taken very recently.
    Mr. Burton. Without objection.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T7387.058
    
    Mr. Young. Every day for the last 2 weeks, we have gathered 
with other postal employee organizations and the Postmaster 
General at Postal Service headquarters here to obtain and share 
the latest developments. We've heard from the CDC, law 
enforcement and executive branch agencies in our efforts to 
understand the full magnitude of this situation. In addition to 
the video tape and other materials that have been distributed 
from postal headquarters, we at Letter Carriers have been 
working diligently to disseminate information to our 
membership. We've been regularly updating our Web site with the 
latest information, our NALC bulletin is posted and distributed 
in 13,000 postal facilities, and we have been communicating 
almost on a daily basis with our 15 national business agents 
through our intranet system of computers.
    Last week our national president, Vince Sombrotto, had the 
high privilege to meet in the Oval Office with President Bush, 
Governor Ridge and Postmaster General Potter. The White House 
committed $175 million to deal with the immediate response, 
such as testing and distribution of antibiotics, the masks and 
the gloves. The Postal Service is also using $200 million from 
its own security fund.
    However, there are still enormous expenses to be met, and 
the Postal Service will be seeking billions of dollars 
necessary to obtain and install equipment to sanitize the mail. 
These are funds that would otherwise go toward the purchase of 
machines through which mail at all processing facilities would 
be passed and would be cleansed of all biological agents. This 
would prevent the transmission of anthrax, smallpox or other 
infections through the mail. In addition to the actual expense 
of the purchase of these machines, each facility will need to 
be retrofitted to accommodate the new equipment and to ensure 
that employees are trained to operate them safely.
    It is important to note that the Postal Service is a self-
funded entity and does not receive an appropriation. However, 
remember, Congress does owe the Postal Service $957 million 
under the Revenue Foregone Act of 1993. Rather than being paid 
$29 million a year over the next 42 years, as it is currently 
written in the act, the Postal Service needs that full amount 
now.
    Even that amount represents only a portion of the revenue 
lost as a result of recent events. These last couple of weeks 
have extracted a toll on our members and the Postal Service 
itself. Restoring the confidence of postal employees and the 
American people is of the utmost importance, not just for our 
national psyche, but because the Postal Service is an integral 
part of this country's economic infrastructure.
    Individuals and businesses rely on the Postal Service to 
receive and pay bills, and securely send original documents. 
Keeping that system up and running is absolutely essential. 
Going days without mail extracts an extraordinary price. For 
example, one utility company in the D.C. area has reported they 
normally receive 30,000 payments through the mail each day. 
Just one isolated example of what mail means to our economy.
    It is incumbent upon us to do whatever extent possible to 
make sure that such economic disruption is not visited upon 
other areas of the country.
    We also need some level of perspective on the situation. 
Thus far, we have been relatively fortunate that the tragic 
events of the last few weeks seem to have been limited to a 
relatively small geographic area. We also need to be vigilant, 
because if the evil doers spread their poison elsewhere in the 
country, the result could be worse than it's been to this 
point.
    I would also like to note, Mr. Chairman, that this disaster 
has further highlighted the shortcomings in the 30 year old law 
governing the Postal Service. Simply put, Postal Service needs 
greater flexibility not just when disaster strikes, but on a 
daily basis. I commend you, sir, because I know you've been 
studying this issue and I know you're right on top of the needs 
here.
    Each year the NALC honors our heroes of the year. The 
letter carriers never cease to amaze me by demonstrating what 
they're capable of doing when confronted with adverse 
situations. Now every letter carrier must display that same 
type of heroism. They are the first line of protection for a 
large segment of the American population. I know they're up to 
the task, but they also have to know that they have the tools 
to take on this new challenge.
    Mr. Chairman, I wish to thank you and the members of this 
committee for your concern during this difficult time. Too 
often the work that we do goes unnoticed. In many ways, that 
serves as a silent tribute to the members of the NALC. Now that 
times have called for a more vocal expression of support, I'm 
glad that we're all speaking up. Thank you, sir.
    [The prepared statement of Mr. Sombrotto follows:]
    [GRAPHIC] [TIFF OMITTED] T7387.059
    
    [GRAPHIC] [TIFF OMITTED] T7387.060
    
    [GRAPHIC] [TIFF OMITTED] T7387.061
    
    [GRAPHIC] [TIFF OMITTED] T7387.062
    
    [GRAPHIC] [TIFF OMITTED] T7387.063
    
    Mr. Burton. Thank you, and I can assure you that we're 
going to do everything we can to give the Postal Service and 
the postal workers every bit of help they need, in equipment 
and everything else.
    Mr. Baffa.
    Mr. Baffa. Mr. Chairman, members of the committee, my name 
is Gus Baffa. I am the newly elected president of the 100,000 
plus National Rural Letter Carriers' Association. I have 
submitted my statement and request that it become part of the 
record.
    I also would like to make a brief oral statement. There 
aren't any rural carriers in New York City. There are 
approximately 30 to 40 rural carriers in the Trenton 
facilities, and many rural carriers are served through the 
Brentwood facility. On September 11th, this country was 
attacked by terrorists in New York, Pennsylvania and right here 
at the Pentagon. What happened as a result of that is this 
country became united.
    Recently, a person or persons unknown have utilized the 
Postal Service as a vehicle to send their weapon of anthrax 
through the mail. That is an attack on the Postal Service and 
the postal family. And we are now united.
    The Postal Service has attempted to do its very best during 
this crisis. There is no play book to follow. This is a road 
none of us have been down before. It doesn't matter if we are 
referring to a rural carrier, a city carrier, a mail handler, a 
clerk, the PMG, the FBI, or the Centers for Disease Control, 
it's new to all of us. Postal workers are part of the army of 
foot soldiers in this war against terrorism and getting back to 
normalcy.
    As our President said, we must continue life as normal. Our 
members are doing that every day. We are reporting to work, we 
are casing the mail, we are putting it in our vehicles and we 
are delivering it. Sure, some are very worried. As a Kentucky 
rural carrier said on a National Public Radio interview when 
asked if anything had changed, he replied, ``Definitely. Now 
when I come home each day, instead of picking up my 3 year old 
daughter, who is waiting to give me a welcome kiss with her 
arms outstretched, I need to take a shower first.''
    At this time of extreme anxiety, Postmaster General Potter 
and postal employees across the country have stepped up to the 
plate to ensure continued delivery of our Nation's mail. It is 
now time for Congress to step up to the plate by appropriating 
the sums necessary to ensure safe and ongoing mail delivery and 
by passing postal reform legislation to ensure that the Postal 
Service can function safely and effectively in the 21st 
century.
    Thank you.
    [The prepared statement of Mr. Baffa follows:]
    [GRAPHIC] [TIFF OMITTED] T7387.064
    
    [GRAPHIC] [TIFF OMITTED] T7387.065
    
    [GRAPHIC] [TIFF OMITTED] T7387.066
    
    [GRAPHIC] [TIFF OMITTED] T7387.067
    
    [GRAPHIC] [TIFF OMITTED] T7387.068
    
    [GRAPHIC] [TIFF OMITTED] T7387.069
    
    Mr. Burton. Thank you, Mr. Baffa.
    Mr. Quinn.
    Mr. Quinn. Mr. Chairman and distinguished members of the 
committee, my name is Billy Quinn. I'm the national president 
of the National Postal Mail Handlers Union.
    On behalf of the over 50,000 union mail handlers employed 
by the U.S. Postal Service, I appreciate the opportunity to 
testify about the challenges of safety and security that 
currently are being faced by the U.S. Postal Service and our 
postal employees. The mail handlers we represent are an 
essential part of the mail processing and distribution network 
utilized by the Postal Service to move more than 200 billion 
pieces of mail each year.
    Mail handlers work in all of the Nation's large postal 
plants and are responsible for loading and unloading trucks, 
transporting mail within a facility, preparing the mail for 
distribution and delivery, operating a host of machinery and 
automated equipment and containerizing mail for subsequent 
delivery.
    Our members generally are the first and last employees to 
handle the mail as it comes to, goes through and leaves most 
postal plants. Our paramount concern is the safety of postal 
employees, including all mail handlers. To this end, we have 
been active participants in the mail security task force that 
has been established by postal management and includes 
representatives of our unions and employee associations.
    That task force is implementing plans to prevent infection 
by anthrax or other biological agents that may be sent through 
the mails. Among other issues, the task force is addressing the 
need to close affected facilities until they can be certified 
as safe for all employees. The distribution of necessary 
antibiotics to postal employees, the distribution and use of 
masks and gloves that may be helpful in preventing anthrax 
infections, the development and delivery of safety training 
programs, and the development of revised cleaning methods for 
mail processing equipment.
    The task force also is looking to the future and is 
considering a host of issues such as anthrax vaccines and 
irradiation of the mail. I must say, however, the task force is 
having great difficulty keeping up with the news and 
information cycle that has developed around the anthrax issue. 
Even when the task force has current and accurate information, 
the timely dissemination of that information to more than 
800,000 postal employees and thousands of postal facilities is 
extremely difficult. This problem is exacerbated by the 
confusing and often contradictory information that is coming 
out of postal headquarters, the Centers for Disease Control and 
State and local health authorities.
    I just returned from a meeting of all our local union 
officers and representatives. After a lengthy discussion of the 
various safety and medical issues facing mail handlers, our 
local leadership was fully informed with as much accurate 
information as possible. Even with this information, however, 
these representatives remain anxious. Certainly they know that 
mail handlers must exercise caution while processing the mail. 
But they are less certain about precisely what to tell their 
members about the specific steps mail handlers should take to 
ensure their own safety.
    On the workroom floor, there is even more anxiety, because 
members have even less access to accurate information. The key 
therefore is the timely dissemination of accurate safety and 
medical information. That should be the focus of the task 
force, and that must be the focus of postal management, the 
CDC, and State and local health officials. What is needed now 
is the constant dissemination of accurate and to the maximum 
extent possible consistent safety and medical information to 
all postal employees. Mail handlers and other postal employees 
deserve the best available scientific protection against this 
bioterrorism.
    Through science and reason we can overcome rumor and fear. 
In that regard the most important action Congress can take is 
to appropriate all of the funds necessary for the Postal 
Service to process mail safely without harm to employees. It is 
unfortunate that it takes an incident such as this to make 
people aware of the hazards of working in postal facilities. 
Ten years ago, it was the threat of AIDS from needles and blood 
spills coming from medical waste and poorly constructed 
packaging in the postal system. With the help of congressional 
oversight, that problem has largely been eliminated.
    Yet our members still face hazardous working conditions. 
All of the postal unions have written to Congress or testified 
about the need for protection from dangerous equipment and 
terrible ergonomic injuries. We therefore need to take this 
tragedy and turn it into a positive movement for worker safety. 
This is a unique moment when American citizens have again been 
made aware of the great importance that the Postal Service 
serves in our Nation's communications network. They will rally 
behind a sustained movement to make the postal workplace safer 
to employees and a source of confidence for its customers.
    To do any less would be to fail on our commitment to the 
future integrity of the U.S. postal system.
    Thank you, Mr. Chairman. I'll be glad to answer any 
questions that you may have.
    [The prepared statement of Mr. Quinn follows:]
    [GRAPHIC] [TIFF OMITTED] T7387.070
    
    [GRAPHIC] [TIFF OMITTED] T7387.071
    
    [GRAPHIC] [TIFF OMITTED] T7387.072
    
    [GRAPHIC] [TIFF OMITTED] T7387.073
    
    [GRAPHIC] [TIFF OMITTED] T7387.074
    
    Mr. Burton. Thank you very much.
    I think we'll start the questioning with Mr. Waxman, 
because I have to leave for just a few minutes. So Mr. Waxman, 
we'll yield to you.
    Mr. Waxman. Thank you very much, Mr. Chairman.
    I want to thank each of you for your testimony. I think 
it's been an excellent presentation and I hope, Mr. Quinn, that 
your words will be taken very seriously by everybody involved, 
that we turn this tragedy into a very positive development to 
make the workplace safer for postal employees and give greater 
confidence to the American people about their mail.
    And also that we remind everybody how hard our postal 
employees work for us. Whether it's at the post office or 
delivering the mail in the urban areas, and rural areas, 
they're on the front lines. Given this war on terrorism, they 
are genuinely on the front lines. The terrorists are using the 
mail just as they used the airplanes to serve as a vehicle for 
their attempt to instill great fear in all of our people.
    I want to ask you about how you feel the Postal Service is 
dealing with this whole threat of anthrax and whether they are 
coordinating with you and partnering with you, the employee 
unions, to keep employees informed of the rapidly evolving 
anthrax threat. Do you think the Postal Service has kept your 
members adequately informed and protected?
    Mr. Young. Congressman Waxman, I would say yes. I'll just 
use last night as an example. At 7:30 p.m., I'm home with my 
family. My phone rings, it's Doug Tollino from the Postal 
Service. He's under the vice president of labor relations. He's 
calling me to tell me that the tests are now back on 19 post 
offices here in the D.C. area, and that one of them, the 
Friendship Station, has in fact, they found a very small, he 
called it a minuscule trace of anthrax, and that they were 
going to have the EPA try to clean the building up last night. 
And if in fact they were not able to do that, that the 
employees would all be moved out of the building into a garage 
right next door, where they could work until the building was 
declared safe by the proper authorities.
    This is just a common, everyday occurrence at my house. My 
daughter's 15 years old, she knows who Doug Tollino is as soon 
as he calls, it's more bad news about this terrible anthrax 
that's running around. I think from my perspective, they went 
out of their way to keep us informed.
    Mr. Waxman. That's good to hear. Mr. Burrus.
    Mr. Burrus. Yes, from the national's perspective, my 
experience is the same as the NALC. So we have been 
communicating very, very well. We meet every day at 10 o'clock, 
review past events, get a report on the number of 
hospitalizations, the number of suspected sites, the results of 
testing.
    However, the U.S. Postal Service is a very large 
institution, 38,000 facilities across the country. And the 
communications that we're enjoying here in Washington is not 
enjoyed in every one of those facilities. Very bureaucratic, 
the U.S. Postal Service. And it's not unusual for the 
agreements that we reach at this level not to be enjoyed by the 
parties at the local level.
    So we're working through that. We have put in place a 
system where, if the supervisors or managers at the local level 
do not comply with those things we agree to here, we have a 
system in place that we can bring it to postal management's 
attention at various levels, and resolve them as quickly as we 
can.
    However, they're not sharing the same information at the 
local level that we receive at this level. I try to keep in 
touch with my members in a variety of ways. I have a 
teleconference once a week where I make it open to all of our 
members throughout the country. Last week, I had over 500 sites 
that were tapped into the teleconference. I gave Mr. Donohoe, 
Deputy PMG, the opportunity for the last 15 minutes of that 
conference to speak to our members, to give them the assurance 
from the headquarters level that postal management really cared 
about their safety.
    But we've had a variety of ways of communicating with our 
members, and the relationship at this level has been a positive 
one, in this matter. Let me not expand it beyond this matter.
    Mr. Waxman. Thank you very much. Mr. Baffa or Mr. Quinn, do 
you want to add anything to that?
    Mr. Baffa. The task force meetings in the morning are a two 
way communication. The CDC is there every morning, so we also 
get to ask them any questions, as Bill Burrus mentioned earlier 
he had asked the gentleman from CDC some questions. So it gives 
us a perfect opportunity. Each organization also has a 
responsibility, and we've all assumed that responsibility and 
have taken it seriously by utilizing our Web sites or 
newsletters, our national magazines to get the information out 
to our people.
    The two way communication is vital to unions and 
management. One morning I had gotten two calls on something in 
two different areas. And literally, when I mentioned it at the 
meeting, the vice president of labor relations literally got 
up, went to the phone, called the area VP, and it was taken 
care of in less than literally 2 minutes. So the cooperation 
right now is unprecedented.
    Mr. Waxman. Thank you.
    Dr. Weldon [assuming Chair.] The time is expired. Mr. 
Quinn, do you want to answer?
    Mr. Quinn. Since I concur with my colleagues, there's no 
need for me to waste your valuable time. [Laughter.]
    Mr. Waxman. Well, thank you, Mr. Chairman, and thank all of 
you for your testimony. You care about your workers, and we do, 
too. Thank you.
    Dr. Weldon. The Chair now yields to himself for 5 minutes. 
But I'm not going to consume the whole 5 minutes.
    I just want to say a couple of things. My father was more 
than 30 years a clerk with the Levittown post office. From this 
Member of Congress, I just want to say to all of you how much 
we appreciate the rank and file and their willingness to go to 
work.
    Several of you have mentioned the word anxiety. I just want 
you all to know you're not alone in that area of anxiety. We 
have staff that are anxious, we have meetings of just members 
and the members are anxious. We've been targeted, too. So we're 
all in this boat together. And it's OK to be anxious. But I 
want you to know how pleased I am a the attitude of the postal 
workers. And I've talked to some of them myself in my district 
and in this area, the Washington, DC, area. And I'm impressed, 
people want to carry on. They know that the risks are there, 
but the risks are low, and the intention is to put fear in our 
hearts. This is a psychological game.
    It's a great tragedy to lose one postal worker, and as we 
all know, we've lost two. But most of the postal workers are 
quite safe, and we know that. But the real victory for these 
terrorists is if they can put so much fear in the hearts of the 
American people and the postal workers that they'll stop 
working.
    I think very clearly there's more we can do and I've heard 
the message loud and clear. The Postal Service is going to need 
some help in dealing with this crisis. And the ranking member 
and the chairman are ready to work with all the members of the 
committee and your unions to make sure that we're able to keep 
the mail moving. It is critical to the economy. Mr. Young, I'm 
glad you focused on that. Because this is a huge, huge issue 
for our economy.
    So I want to thank you all for your testimony and for the 
work you're doing. I now yield to the gentlelady from the 
District of Columbia, Ms. Norton.
    Ms. Norton. Thank you very much, Mr. Chairman.
    If I could just thank the four leaders, the postal union 
leaders who have given such important testimony today. I don't 
think it is hyperbole to say that you and your workers are 
regarded as heroic in this country. And I can certainly say 
that, from the town meeting I had last night where over 500 
people came, most of them of course, not postal workers or 
letter carriers, but a fair number of them were. I got to speak 
with the experts from the CDC and the post office who were 
there to be questioned.
    Just let me say that I think it should go without being 
said that at the very least, the post office, which faced a 
fairly substantial deficit, should be made whole. That is to 
say, no worse off than you would have been had this tragedy not 
occurred. You are no different from the airlines. That is to 
say, they had nothing to do with the fact that those planes 
were made missiles and murderous weapons. You had absolutely 
nothing to do with the fact that the mails have been made 
missiles of killing.
    Just as people had to get medicine without cost to them, it 
seems clear to me that you should be put back at least where 
you were. And I certainly hope that does not become a 
controversial matter in this Congress. And frankly, I think it 
cannot and will not.
    I want to ask your advice. At the town meeting last night, 
there was not a lot of solidarity, as you might imagine, with 
the postal management, you know, people don't readily identify 
with whoever managers are. There was a hell of a lot of 
solidarity with the postal workers. Tonight, I am sending staff 
to the Friendship Heights community. Now, not a single person 
in that community will be in that meeting, I bet you, that 
works for the postal service.
    But we need your help on how to transfer some of your 
courage to the average citizen. Because they think that what 
the postal workers are doing is absolutely unbelievable. They 
see you going to work in tents, they see the pictures of the 
masks, they see their letter carrier every day. When they don't 
get their mail, they know why they're not getting it. They miss 
their letter carrier. Some of them have only a letter carrier 
in their lives. They identify with the mail handlers and the 
postal workers.
    What would you say to members of the general public, like 
the people in Friendship Heights who are nervous today because 
their post office has been closed down, about whether they 
should regard themselves as in danger or their mail because of 
what has happened in the Friendship Heights postal office? You 
have more credibility, based on what I saw last night, to speak 
to them than anybody in this Congress or bless their hearts, 
anybody in management. What should my staff say? What can my 
staff say that union leaders would say to the general public 
about how to deal with their mail and how to regard this 
controversy and their own personal safety with respect to the 
mail?
    Mr. Young. Congresswoman Norton, I would suggest that you 
tell the people of Friendship Heights that they're lucky. 
Because they're down the road and we know how to deal with this 
situation. It's only a trace that was found in their station, 
not even, we're not even sure it's enough to do any harm.
    But the right thing is happening there. The station is 
being closed down, it's being sanitized. That will remove the 
risk. So if I was to go out there with you, what I'd be telling 
the letter carriers out there is that they were fortunate, that 
they had learned from the other mistakes that had been made, 
the fatal mistakes, to be honest with you, in Brentwood, and 
that now the Postal Service was doing the right thing and that 
risk was greatly diminished because the right thing was being 
done.
    Dr. Weldon. The gentlelady's time has expired. Would you 
like to let them proceed with an answer?
    Ms. Norton. I would appreciate one more, yes.
    Dr. Weldon. Go ahead.
    Mr. Burrus. I would tell them that we will be at a point 
some time in the future where we can guarantee absolutely that 
all the mail is safe. In the interim, we must tell them that we 
cannot let the terrorists win. I am afraid of colon cancer, I 
am afraid of being hit by a truck, being in an automobile 
accident, I'm afraid of anthrax. We can't be controlled by 
fear. That is the weapon of the terrorists.
    So while there is some minor level of risk, until we 
guarantee absolutely, we have to tell the American public that 
we cannot be controlled by fear. We have to understand it, but 
control it.
    Ms. Norton. Thank you for all you are doing. Thank you for 
the example you are setting.
    Mr. Baffa. You may want to use some numbers. May I?
    Dr. Weldon. Sure, go ahead.
    Mr. Baffa. Since September 11th, we've delivered over 20 
billion pieces of mail. Only three have been found to be 
contaminated. Only three deaths have been attributed to 
anthrax. The prediction from the CDC, I believe, is 20,000 
people will die from the flu this coming flu season.
    Now, I don't know if that's going to put their mind at ease 
when they go to the mailbox. But those numbers are hard facts.
    Ms. Norton. I think it helps, actually.
    Dr. Weldon. Those are very well taken points.
    The Chair now recognizes the gentleman from Indiana, Mr. 
Souder.
    Mr. Souder. Now everybody in my district's going to be 
asking if their postal carrier had the flu when they dropped 
off the mail.
    But I really appreciate your willingness to speak out on 
what is going to be not a couple of month question, but 
probably at least a decade or for the rest of our lives, and 
that's how you do risk assessment. We appreciate your bravery 
with that. This is not new. It's new to us in the sense of 
direct deaths in the United States. But the book Germs right 
now is either No. 1 or No. 2 on most best seller lists, and 
it's clearly documenting that we've had variations of this in 
the United States.
    When I was in Iraq in 1998, we had the opportunity to meet 
with some of the inspectors who had been kicked out, who were 
looking for the very things that are coming. We've been talking 
about this, we've been having drills in the military as they've 
been sent overseas on to handle chemical and biological weapons 
that could be weaponized in the United States. Now we're here, 
and we're just at the very, I think what the public is 
concerned about is not what they necessarily just see in front 
of them, but what may be coming. And this isn't likely to be 
some kind of a big hit. We're not sure whether this is a 
domestic nut or whether it's Iraq or where it is right now.
    But clearly, in the scheme of the type of terrorism we see 
in al Qaeda and elsewhere in the world, this is a kind of a 
warning to us as to how we're going to deal with this. One 
thing I want to strongly encourage in risk assessment that you 
push management to act rapidly to stop things, even if it's 
only briefly. For example, anybody who is been watching saw 
that they couldn't penetrate to Capitol Hill or to a lot of the 
agencies, and they hit the people who were carrying. And if 
they would have gotten into our offices, they were going to hit 
a front person.
    Probably at some point, maybe a decade or 20 years, maybe 
next month or tomorrow, they're going to try penetrating at a 
district level or at a local justice department. I would 
encourage that whenever you see a new pattern that the unions 
and the management say, if they see one district anywhere in 
the country where this happened, that the entire system stop to 
check it. Because we may in fact have prevented some in the 
agencies because of holding the mail for a little bit.
    Now, I believe we've gone on too long, and that we quite 
frankly need to lead by example here in Washington, like you've 
led in the post office. But look for those patterns and let's 
don't do what Congressman Kanjorski was saying, it always seems 
like we're behind. For a baby boomer, it seems like we're in an 
endless Vietnam, where we're always just a little bit behind.
    And I wanted to ask you whether you know, is there any unit 
inside the post office or pushing CDC? Because the mail, we 
clearly have a vulnerability, we hadn't thought a lot about the 
mail, but it's extremely logical. It's been out there as a 
method just like other things. Is there a unit that is 
currently testing to see what other chemical or biological, 
just like we were talking earlier, about the anthrax in the 
envelopes, and, oh, what a whopper of a whoops. We didn't know 
it could penetrate the envelope. That's a whopper of a whoops. 
The question is, we don't want more of that type of thing.
    Is there a unit that is looking at other chemical and 
biological as to how they could work through the mail system? 
OK, we have masks now that can treat this one type of thing. 
What other things may be coming? Because not looking at this in 
terms of tomorrow, but a longer sense of tomorrow. Do you know 
anything? Have you been told about anything? And if not, we 
ought to be looking at that, trying to figure out what other 
ways to research to make every letter carrier as safe as 
possible, knowing that perfection is impossible.
    Mr. Burrus. I'm informed that Postal Service doctors, and 
they have a number under contract, the Inspection Service and 
others in the Postal Service are taking a fresh look at our 
exposure, not just to anthrax, but to a number of other 
attacks. I understand, I don't know if they had undertaken 
those types of activities before anthrax or not, but I am 
assured that presently they have.
    So yes, they are. We are not involved in those activities. 
We're just reacting to anthrax, the labor unions. But the 
Postal Service is embarking on some studies on other issues.
    Mr. Souder. In your committees, for example, if we buy $2.5 
billion in new equipment, is that equipment all geared to 
anthrax, or is it----
    Mr. Burrus. No, that would be geared to all bacteria, all 
organisms, anything that comes, smallpox, anthrax, dyptheria, 
anything that comes through will be killed.
    Mr. Souder. Anybody else have any comments on this?
    I encourage you to stay aggressive with it, because you're 
the front line of defense representing your workers. I thank 
you.
    Dr. Weldon. The Chair now recognizes the gentlelady from 
New York, Mrs. Maloney.
    Mrs. Maloney. Thank you, Mr. Chairman.
    Thank you for your testimony and for your leadership. As a 
New Yorker, I can tell you that since September 11th, there 
have been many heroes, certainly New York's finest and New 
York's bravest. But now everyone's talking about the postal 
workers who are going about their business under very 
challenging and difficult times.
    I appreciate very much the efforts that those of you in the 
mailing industry have taken to restore confidence. This is an 
enormous industry and its stability is of the utmost importance 
to our country. As Mr. Baffa pointed out earlier, we really 
have to keep this in perspective. We really can't blame people 
for being concerned about the mail today. But he noted that 20 
billion pieces of mail have been moving since the anthrax, and 
only three infections. That's roughly 680 million pieces of 
mail each day. So the risk to the general public is truly not 
very large when you put that in perspective.
    I would like to ask you or any of you to comment. What else 
could we be doing to make your workers safe and to ease their 
fears?
    Mr. Burrus. Do you mean Congress, the Postal Service or the 
unions?
    Mrs. Maloney. What could we in Congress be doing to help 
the workers, to ease their fears, to make it safer for them?
    Mr. Burrus. Well, you could advance the funds that the 
Postal Service will be so desperately in need of. As long as 
money is at issue, then the Postal Service is going to be 
stretched in terms of how much protection they can provide to 
the employees. The $175 million that has been advanced to date 
has been very helpful in terms of purchasing some of the 
protective equipment that postal employees need. But before 
we're through with this, they're going to need a whole lot more 
than $175 million.
    So I believe that Congress could be directly involved in 
appropriating sufficient moneys. You new demand of us universal 
service. And we have to deliver to every American, no matter 
where they live, provide forwarding services, a number of other 
services that a good business would not perform at a universal 
rate. So recognizing that, we perform services as an arm of the 
U.S. Government, in these times they will need additional 
financing, funding. And I would request that Congress keep an 
open ear in regards to requests that will be coming to the 
Hill.
    Mr. Young. There's something else you can do that's a lot 
simpler than giving us money. And we do need the money. I 
bumped into a Senator here in town earlier in the week. It was 
just at the time when the Senate was starting to reopen most of 
their facilities. I just mentioned to the Senator in passing 
how encouraging that is to our members, to see you all back in 
business.
    Now, look, I don't want anybody here to take any 
unnecessary risks, and I want to make that clear. But that 
double standard thing that was talked about earlier, it's out 
there. And our members look at that, and they do feel like 
they're being treated in a lesser manner than you all are being 
treated. And I just think to the extent that you can safely get 
back to your business, that's a pretty simple thing for you to 
do. I know it takes cleaning up and everything.
    But I want you to all appreciate how much that says to our 
members who are out there every day and have been out there 
every day, to see you all back in business and functioning in 
your capacity here. So as soon as it's safe to do that, I'd 
encourage you all to do exactly that.
    Mrs. Maloney. Any other comments?
    Mr. Quinn. Some of the members of the committee have 
expressed some concerns about the costs that might possibly be 
as much as a $3 billion expenditure, and why is the Postal 
Service behind the curve on this issue. I'd like you to 
envision the scenario, if Postmaster General Potter appeared 
before this august body 3 months ago and asked you for $3 
billion, you'd be calling for strait jackets.
    The Postal Service has been put, obviously, in a horrible 
position, and the safety not only of postal employees but of 
the American public has been put in danger. I'm not treating 
the subject of the money glibly. But by the same token, you 
can't expect the Postal Service to be able to do everything on 
its own. I think this is a perfect example of their quandary. 
Everybody wants to go to heaven, nobody wants to die. Well, you 
can't have it both ways.
    Mrs. Maloney. Well, as Mr. Burrus pointed out, by law, the 
Postal Service is required to deliver mail to every urban 
apartment, every rural farm, and I also would like to 
understand whether you feel this should be supported through 
the general revenues funds----
    Dr. Weldon. The gentlelady's time has expired.
    Mrs. Maloney [continuing]. Or would you say, postal 
increase? Personally I think it should be general revenue 
funds, but how do you feel?
    Mr. Burrus. I think long term, I've been in the Postal 
Service since 1954, and experienced that period of time when we 
were part of the Federal Government. We were competing with 
education, health care, roads, defense. It's really dangerous 
to start moving us back in that direction. I think it's 
appropriate to reform the Postal Service so it's competitive in 
ways that it can really grow, recognizing that it does have 
monopoly so there will be some restrictions.
    But long term ties between the Federal Government and the 
U.S. Postal Service is a prescription for the destruction of 
the Postal Service in the long run. I've watched around the 
world, those governments held onto their postal systems. And 
not one that I'm familiar with is surviving today. There has to 
be clear division between the two.
    So I would say, yes, help the Postal Service in this time 
of need. But don't bring them back into the Federal Government 
as a branch on budget and be subject to the rises and falls of 
the political tides that go with budget making.
    Dr. Weldon. The gentlelady's time has expired.
    The Chair now recognizes the gentleman from Connecticut, 
Mr. Shays, for 5 minutes.
    Mr. Shays. Thank you, Dr. Weldon, Mr. Chairman.
    Gentlemen, thank you for being here. I have been looking 
forward to having the opportunity to publicly thank each of you 
and Mr. Young, your president, for being true statesmen and 
patriots. You have to weigh a very difficult issue, when do you 
fight for your union members and make sure that you know they 
are totally and completely protected, and when do you say, you 
know, we need to man the fort and take some risks. It's a very 
tough, tough call.
    And so one, I want to thank you, and I want to thank all 
your workers, every one of your workers. I also want to 
acknowledge that we lost approximately 6,000 people in an act 
of war, and Thomas Morris and Joseph Curseen are casualties of 
that war, and knowing what we know now, they wouldn't have been 
casualties. They wouldn't have been, we wouldn't have allowed 
it to happen, knowing what we know now.
    I never for an instant believed with all the hearings I've 
had on anthrax, and we've had about eight, more in fact, I 
never believed that you could actually see it seep or have it 
seep through a letter, certainly a sealed letter, but actually 
the pores of the envelope. I just didn't think it could happen. 
And we're going to learn a lot of terrible things in the course 
of the next few years.
    I want to say to you that we are at war, that we are in a 
race with the terrorists, and to make sure that we shut them 
down before they have access to better chemical and biological 
delivery systems, before they have nuclear waste or heaven 
forbid, a nuclear device. That is the reality. And if we all 
know that, we know why we're fighting this war.
    I also want to say to you publicly that when I went to 
ground zero, what touched me, as a member who represents 
probably the wealthiest district in the country except maybe 
for Henry's, I have a lot of white collar workers and obviously 
a number of blue collar. I don't have as many uniformed 
workers, so-called. But it was touching for me to see my white 
collar workers manning the stations to hand out gloves and 
protective gear and medicine and food to the blue collar 
workers, the uniformed workers. Because my constituents came to 
grips with the fact of how grateful we are for all the service 
employees who serve our country. They just wanted to be a part 
of what they were doing and knew they couldn't, because they 
didn't have the skills. We needed the uniformed workers to do 
that.
    And I'm using my time to question to just say that, but in 
my request for the chairman to have this meeting, I wanted to 
publicly acknowledge the loss of two people, to tell you that I 
regret that we didn't see it happen, and to thank you for the 
tough call that you have to make. You haven't demagogued this 
issue, you haven't done all the things that you could have 
done. And then to just publicly say to you, if it's an issue 
between $2 million or $3 billion, I consider it a time of war. 
And your men and women are one of the first line of defense. 
They are part of this army to fight terrorism.
    And I believe that the question during time of war is, what 
does it take to protect our army, your workers. I think that 
you will see bipartisan and bicameral and bi-branch support for 
you all and that you have earned a lot of credibility with all 
three branches of Government, even the judicial branch, 
frankly, not that I can speak for that branch.
    So I apologize for not having a question. I'm happy to use 
my 5 seconds, if you want to make a comment, but God bless each 
and every one of you and all your workers.
    Dr. Weldon. Mr. Davis.
    Mr. Davis of Illinois. Thank you very much, Mr. Chairman.
    I know it's been a long day and we're about at the end of 
it. Let me just join with all of those who have expressed a 
tremendous amount of gratitude to not only each one of you, but 
each one of you as well as the men and women that you 
represent, that make up the membership of your unions.
    I would agree with all of those who have suggested or 
indicated that whether individuals intended or not, when they 
signed on or signed up to become postal employees, they now 
find themselves as soldiers on the front line in the war to 
preserve the democracy of this country as we continue to 
provide communication links and its people are able to continue 
to freely and openly converse with one another from one part of 
the Nation to the other.
    We've gone through the discussion in terms of whether or 
not there may have been perceptions of different standards, 
whether or not there has been reaction that was quick enough, 
and we've looked at all of the other components of what has us 
in this grip. But I want to commend you for putting the health 
and safety of your members first and foremost above everything 
else. And the fact that you have represented that position and 
that point of view I think has in fact caused some reaction and 
caused all of America to really understand what it is that you 
do.
    The one point or the one question, and I think Mr. Quinn 
probably has said it as vividly as it can possibly be said, 
that we can have all of the intentions, we can have all of the 
desires, we can have all of the hopes, we can have all of the 
intents. But unless we're prepared to bit the bullet in terms 
of generating what is needed to protect the workers, it 
obviously will not be happening. Unless we're willing, and I 
don't know how we find it, who knows how it actually gets 
found. But it's obvious that it has to be found. It's pretty 
clear to me that the Postal Service can't find it all by 
itself. I just don't believe that it can.
    So the one question I guess that I would raise, I mean, you 
made the point about going to heaven and not dying, I like to 
phrase it a little differently, ``in terms of suggesting that 
you might not get everything that you pay for, but you'll pay 
for everything that you get,'' Frederick Douglass, that was one 
of his favorite sayings and comments. And so my question just 
simply becomes, if we're going to provide the needed resources 
to assure the protection of the workers and of the patrons, 
where does the resource come from?
    Mr. Young. Congressman Davis, I think that resource has to 
come from Congress. I agree with the statements that Bill made 
about not wanting to bring the Postal Service back under the 
Federal Government. But I also agree with the Postmaster 
General when he says this is all about homeland security. And 
we are in the front lines.
    And I just want to leave you with this, sir, if I could. I 
just came back from Chicago, where our national president, 
Vince Sombrotto, addressed 800 of our local leaders from all 
over the country. He said that we cannot function in this 
society if fear is going to be our constant companion. And the 
members of our union jumped up to their feet and started 
cheering.
    If you folks want people in the front lines that want to be 
there, that are prepared to be there, the Nation's letter 
carriers will stand right with you. We just ask that you give 
us the tools that we need to do so.
    Mr. Davis of Illinois. Thank you for holding this hearing, 
Mr. Chairman.
    Mr. Burton [resuming Chair]. Well, thank you, Mr. Davis, 
for all the hard work you put in on postal reform and 
everything else.
    Mr. Clay.
    Mr. Clay. Thank you, Mr. Chairman. I realize that the hour 
is upon us, and I appreciate the opportunity to ask a few 
questions of the panel. Let me first thank the panel for being 
here today and showing your interest in this issue as well as 
representing those 38,000 postal employees that work hard every 
day throughout this country.
    Let me ask you about the Brentwood situation, because I'm 
really concerned about the safety and the health of those men 
and women who go to the postal system every day. The Postmaster 
General has stated that he relied on the advice of the CDC in 
determining whether to have postal workers from the Brentwood 
facility tested for exposure to anthrax. Postal workers were 
not encouraged to undergo testing until Sunday, October 21st, 6 
days after the letter to Senator Daschle was shown to contain 
anthrax.
    Was the CDC on top of the Brentwood situation? Mr. Burrus, 
perhaps you could answer that.
    Mr. Burrus. I would believe it unfair to evaluate the 
Postal Service, CDC, local health authorities or anyone else, 
applying today's knowledge to an evolving situation that 
occurred some 3 weeks ago. If I had known 3 weeks ago what I 
know today, I'd be a very wealthy man. I would have played the 
right lottery number and, I think that says it all. They didn't 
know. They acted in good faith.
    If they had rejected the advice of CDC, if postal 
management had not requested CDC, if they did not consult the 
medical and scientific community as to what they should do at 
that time, then I think they would be deserving of blame. At 
the time they made the decision, all of the medical community 
was telling them that was what they should do.
    Now, the Postal Service is a major bureaucracy. It doesn't 
move as nimbly as some of the smaller units, the smaller 
enterprises in our society. But given its size, its 
bureaucracy, its complexity, I believe that they did act in 
good faith, based upon all the best information available to 
them.
    Mr. Clay. Just as a followup, how confident are you that 
the postal facilities that have been contaminated will be safe 
for employees and customers?
    Mr. Burrus. I think the postmaster general, on the 
television appearance, responded to that question and he's 
taking a lot of heat for it. His response was, we're not 
absolutely sure. The mailing community jumped all over him, the 
major mailers, the Board of Governors, some of his top staff. 
But he responded truthfully. We aren't certainly, we really 
don't know what's in the mail. We don't know what's coming in 
the mail tomorrow. We cannot assure the American public that 
the Daschle letter will not appear, and I wake up--every time 
my phone rings, I'm afraid it's a postal official telling that 
a Daschle or similar to Daschle letter was found in Chicago or 
San Francisco or L.A.
    Mr. Clay. Do you know how many postal facilities have been 
contaminated throughout the Nation?
    Mr. Burrus. Yes, we have a listing of them.
    Mr. Clay. You do have a listing?
    Mr. Burrus. Yes. They provide us that information at our 10 
o'clock meeting every day. They bring us up to date on the 
status of every employee that's been contaminated, every 
office, what the results of that testing has been. We get a 
full briefing on that.
    Mr. Clay. How many as of today?
    Mr. Burrus. I don't have it with me. I think it's something 
like----
    Mr. Clay. Anyone on the panel?
    Mr. Young. No, sir, but you should understand, these are 
only the ones they've tested. They're in the process now of 
testing, I think the Postmaster General said there's 200 more 
delivery units that are being tested. The call that I got last 
night told me that there were 19 stations tested here in D.C., 
only one, the Friendship station, had any. There were 12 
stations tested at the Dulles Airport facility and one of them 
had a small trace of anthrax. So that information pours in 
almost daily.
    Mr. Clay. Mr. Young, you are satisfied that the steps being 
taken will provide adequate protection for our postal 
facilities?
    Mr. Young. I'm confident that the steps that are being 
taken are those that are being directed by the so-called 
experts, the people that are supposed to be the CDC, the 
doctors, the health communities, the ones that specialize in 
this field.
    I would say this, the Postal Service is not only taking 
their advice, they've gone further than these people. For 
instance, in New York, it was the Postal Service that insisted 
to the CDC that they get into this national pharmacy bank and 
get the Cipro up there to medicate all the employees. The CDC 
didn't want to do that.
    Now, Bill was at that meeting, so was Gus, so was Bill. And 
they can tell you, it was the Postal Service that insisted. The 
CDC was saying they thought they were over-reacting. They said 
they'd rather err on the right side of this.
    So everything I see, and I'm not trying to point fingers at 
anyone, but everything I see, everything I'm aware of leads me 
to the conclusion that the Postal Service has followed the 
medical advice from the so-called experts, each and every time, 
and where they haven't, they've exceeded what they were told to 
do.
    Mr. Clay. I thank you for that.
    Mr. Burton. Thank you, Mr. Clay. Well, let me just conclude 
by saying first of all, you know, we've had such an open 
society for so long. Two months ago nobody would have ever 
dreamed anything like this would be discussed today, we'd be 
talking about postal reform alone and none of this other stuff.
    But let me just say that I think I speak for most of the 
Members of Congress in saying that we're going to give you 
whatever tools you need, the irradiation machines or whatever 
technology is needed to make sure that the spores or any living 
organism is killed before it gets to the postal employees. 
We'll have that on-line as quickly as possible, and anything 
else that you need, I hope you'll contact us and we'll try to 
carry that on to the House and Senate leadership, to see if we 
can't accommodate you.
    Because we're not only protecting you and the 800,000 
postal employees, but we're protecting everybody who gets mail. 
So we want to work with you.
    The last thing I'd like to say is that I personally believe 
that one of the ingredients in this overall solution is postal 
reform. I know that all of you are not in agreement on that, 
but I'd like to, for those who still have reservations about 
it, I'd like to get together with you, see if we can work out 
any differences and come to some conclusions that will solve 
that problem as well.
    And George back there, who is nodding, has been a real 
soldier on that and we really appreciate your help.
    And with that, let me just say, it's been a long day. We 
appreciate your being with us and we are adjourned.
    [Whereupon, at 5:58 p.m., the committee was adjourned, to 
reconvene at the call of the Chair.]
    [The prepared statements of Hon. Constance A. Morella and 
Hon. Edolphus Towns follow:]
[GRAPHIC] [TIFF OMITTED] T7387.075

[GRAPHIC] [TIFF OMITTED] T7387.076

[GRAPHIC] [TIFF OMITTED] T7387.077

[GRAPHIC] [TIFF OMITTED] T7387.078

                                   - 

</pre></body></html>
